<html>
<title> - NATIONAL COMMISSION ON TERRORIST ATTACKS UPON THE UNITED STATES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




                    NATIONAL COMMISSION ON TERRORIST
                     ATTACKS UPON THE UNITED STATES

=======================================================================

                                HEARING


                               before the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 17, 2004

                               __________

                           Serial No. 108-55

                               __________

    Printed for the use of the Select Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

25-324                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001






                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
David Dreier, California             Barney Frank, Massachusetts
Duncan Hunter, California            Jane Harman, California
Harold Rogers, Kentucky              Benjamin L. Cardin, Maryland
Sherwood Boehlert, New York          Louise McIntosh Slaughter, New 
Joe Barton, Texas                    York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas                 Ben Chandler, Kentucky
John E. Sweeney, New York

                      John Gannon, Chief of Staff
       Stephen DeVine, Deputy Staff Director and General Counsel
           Thomas Dilenge, Chief Counsel and Policy Director
               David H. Schanzer, Democrat Staff Director
             Mark T. Magee, Democrat Deputy Staff Director
                    Michael S. Twinchek, Chief Clerk

                                  (II)

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................     1
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, Ranking Member, Select Committee on Homeland 
  Security.......................................................     3
The Honorable Robert E. Andrews, a Representative in Congress 
  From the State of New Jersey...................................    64
The Honorable Dave Camp, a Representative in Congress From the 
  State of Michigan..............................................    39
The Honorable Lincoln Diaz-Balart, a Representative in Congress 
  From the State of Florida......................................    85
The Honorable Benjamin L. Cardin, a Representative in Congress 
  From the State of Maryland.....................................    50
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands: Prepared Statement....................     7
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    36
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    37
The Honorable Jennifer Dunn, a Representative in Congress From 
  the State of Washington........................................     6
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................   100
The Honorable Barney Frank, a Representative in Congress From the 
  State of Massachusetts.........................................    40
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada................................................    62
The Honorable Bob Goodlatte, a Representative in Congress From 
  the State of Virginia..........................................    45
The Honorable Jane Harman, a Representative in Congress From the 
  State of California............................................    47
The Honorable Ernest J. Istook, Jr., a Representative in Congress 
  From the State of Oklahoma.....................................    93
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York..........................................    49
The Honorable James R. Langevin, a Representative in Congress 
  From the States of Rhode Island................................   105
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    66
The Honorable John Linder, a Representative in Congress From the 
  State of Georgia...............................................    52
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California............................................    86
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York
  Oral Statement.................................................    60
  Prepared Statement.............................................     8
The Honorable Karen McCarthy, a Representative in Congress From 
  the State of Missouri: Prepared Statement......................     9
The Honorable Kendrick Meek, a Representative in Congress From 
  the State of Florida...........................................   108
The Honorable Eleanor Holmes Norton, a Delegate in Congress From 
  the of District of Columbia....................................   136
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey...................................    33
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................   119
The Honorable John B. Shadegg, a Representative in Congress From 
  the State of Arizona...........................................    55
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................    35
The Honorable Louise McIntosh Slaughter, a Representative in 
  Congress From the State of New York:
  Oral Statement.................................................    53
  Prepared Statement.............................................    10
The Honorable Lamar S. Smith, a Representative in Congress From 
  the State of Texas.............................................    31
The Honorable Mark Souder, a Representative in Congress From the 
  State of Indiana...............................................    58
The Honorable John E. Sweeney, a Representative From the State of 
  New York.......................................................    87
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi..................................    30

                               WITNESSES
                                Panel I

The Honorable Lee H. Hamilton, Vice Chair, National Commission on 
  Terrorist Attacks Upon the United States:
  Oral Statement.................................................    15
  Prepared Statement.............................................    19
The Honorable Thomas H. Kean, Chair, National Commission on 
  Terrorist Attacks Upon the United States:
  Oral Statement.................................................    11
  Prepared Statement.............................................    19

                                Panel II

The Honorable J. Cofer Black, Coordinator, Office of the 
  Coordinator for Counterterrorism, Department of State:
  Oral Statement.................................................    67
  Prepared Statement.............................................    68
Ms. Maureen Baginski, Executive Assistant Director for 
  Intelligence, Federal Bureau of Investigation:
  Oral Statement.................................................    77
  Prepared Statement.............................................    79
Mr. John Brennan, Director, Terrorist Threat Integration Center:
  Oral Statement.................................................    74
  Prepared Statement.............................................    75
General Patrick Hughes, Assistant Secretary for Information 
  Analysis, Department of Homeland Security:
  Oral Statement.................................................    70
  Prepared Statement.............................................    70

                             For the Record

Responses from Ms. Maureen Baginski:
  Quesitons submitted by the Honorable Edward J. Markey..........   139
  Questions submitted by the Honorable John Sweeney..............   139











 
    NATIONAL COMMISSION ON TERRORIST ATTACKS UPON THE UNITED STATES

                              ----------                              


                        Tuesday, August 17, 2004

                          House of Representatives,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:40 a.m., in room 
345, Cannon House Office Building, Hon. Christopher Cox 
[chairman of the committee] presiding.
    Present: Representatives Cox, Dunn, Smith, Shays, Camp, 
Diaz-Balart, Goodlatte, Istook, King, Linder, Shadegg, Souder, 
Gibbons, Granger, Sessions, Sweeney, Turner, Thompson, Sanchez, 
Markey, Dicks, Frank, Harman, Cardin, Slaughter, DeFazio, 
Lowey, Andrews, Norton, Lofgren, McCarthy, Jackson-Lee, 
Pascrell, Christensen, Etheridge, Langevin, Meek, and Chandler.
    Chairman Cox. Good morning. The Select Committee on 
Homeland Security will come to order.
    The prior business of the committee will stand adjourned, 
and the committee will proceed to hear testimony pursuant to 
notice on the 9/11 Commission recommendations concerning 
homeland security information sharing. Let me welcome the 
distinguished chairman and vice chairman of the Commission, Tom 
Kean and Lee Hamilton.
    We appreciate your appearance before us today. This 
committee, Republicans and Democrats alike, commend you for 
your work and for your significant contribution to our national 
effort to apply the lessons learned from the tragedies of 
September 11th.
    This committee and the 9/11 Commission both have a common 
origin. We were formed because of and in the wake of the 
catastrophic terrorist attacks against America. Both Congress 
and the President swiftly recognized that neither the executive 
nor the legislative branch of our government was organized to 
deal with this terrorist assault. This committee, as you know, 
represents the only structural change thus far in Congress, 
since September 11th, which was undertaken specifically to deal 
with the threat of international terrorism to the United 
States. As such, you can understand why we are here to conduct 
this hearing into your findings and your recommendations.
    As chairman, I can report that this committee has 
consistently pursued a legislative and policy agenda to focus 
congressional attention on preventing and preparing for acts of 
terrorism targeting the United States. This has been a 
bipartisan effort owing in part to the strong and able 
leadership of our ranking member, Jim Turner, and also to the 
recognition by all our members that the security of the 
American people must transcend politics, even in an election 
year. Partisanship will surely cause us to fail.
    The theme of today's hearing is information sharing, which 
was a primary focus of the Commission, as it has been of 
numerous hearings of our committee. In the fight against 
international terrorism there can be no higher priority.
    Nor do we treat this subject narrowly. It encompasses 
fundamental issues of structure, systems, policy, and 
leadership. It is about getting vital information to those who 
need it in time to prevent harm to Americans.
    The 9/11 Commission has done a superb job in investigating 
and recounting for the American people the details of the Al-
Qa'ida attacks on our Nation nearly 3 years ago. In 77 minutes 
on that fateful day, terrorism on U.S. soil took over 3,000 
innocent American lives.
    The report shows in graphic detail how the terrorists 
exploited systemic weaknesses to defeat one U.S. Government 
agency after another. These were agencies that we reasonably 
could have expected to stop the terrorists--the Intelligence 
Community, law enforcement, the Federal Aviation 
Administration, the State Department, and the Department of 
Defense.
    Nor does the report spare the Congress. The Commission 
concludes that the Congress had failed to organize itself to 
deal effectively with post-Cold War national security threats 
in general and international terrorism in particular.
    Your indictment, therefore, is not just of our Intelligence 
Community, but of the way the entire U.S. Government was 
organized with respect to counterterrorism.
    The Intelligence Community does not exist in a vacuum. Its 
priorities and performances are clearly influenced both by 
executive branch structures and by the authorization and 
appropriations committees in the Congress.
    Reforms will not succeed, the report concludes, unless the 
priorities of the President, the Federal Government, and the 
Congress are brought into alignment for the future. And this 
means each branch must be properly organized to do this, which 
is still not the case today.
    President Bush has gotten ahead of this issue by accepting 
two principal recommendations from the Commission. First, with 
regard to establishing the National Counterterrorism Center, 
and second, by proposing a National Intelligence Director. 
These swift and bold decisions are consistent with his repeated 
statements that whatever we have achieved over the past 3 
years, we have much more work to do to protect the American 
people. The President clearly sees the 9/11 Commission report 
as helping toward this end, and so should we here.
    I know the Commission will stay engaged with us as we 
grapple with these active issues in the months ahead. You have 
not just delivered a carefully prepared historical analysis, 
but you have also significantly advanced the long-term 
prospects for fundamental reform.
    Finally, let me turn to the Commission's look at the 
performance of Congress over the past several years. The report 
found Congress wanting in several key areas. Congress, the 
report says, is too much oriented toward domestic rather than 
foreign affairs. Congress has resisted reorganizing itself to 
deal with the post-Cold War threat environment, including 
international terrorism. Congress has focused on selective 
investigations over comprehensive and thorough oversight. And 
Congress has allowed rigid and unchanging committee 
jurisdiction to skew priorities, often against heightened 
security concerns in a changing world.
    That is an unflinching diagnosis. All of us, Republicans 
and Democrats alike, would have preferred a different one. But 
we do hear you, and we must now do something about it.
    The Commission follows this provocative analysis with a 
recommendation that permanent standing committees on homeland 
security be established in both the Senate and the House. These 
far-reaching recommendations I know will be delved into even 
more deeply this morning.
    Let me thank you both once again for coming before our 
committee this morning. I am eager to hear your testimony and 
to remain engaged with you in the challenging year ahead.
    Let me now turn to our distinguished ranking member, Jim 
Turner, for his opening remarks.
    Mr. Turner. Thank you, Mr. Chairman. Thank you for calling 
this very important hearing.
    I want to acknowledge the presence of all of our colleagues 
here today to deal with this very critical issue. And I have 
been a part of several other hearings where many of the family 
members of the families of the 9/11 victims have been with us. 
I want to acknowledge their steadfastness in following this 
issue and working together with the 9/11 Commission to bring us 
to the point where we can make America safe.
    Governor Kean and Congressman Hamilton, we are very pleased 
to have you before us. I know you have had a rigorous schedule 
of testifying. I know, Governor, you are probably tired of 
hearing all of Lee Hamilton's former colleagues brag on him, 
but we want to do that once again here today. I was listening 
to Congressman Hamilton's successor, Baron Hill; in talking 
about him the other day in the Armed Services Committee, he 
pointed out that following Lee Hamilton in office was kind of 
like following Abraham Lincoln in office. Lee Hamilton did such 
an outstanding job for many years leading us, particularly in 
the area of foreign policy.
    So we are very honored by your presence and we thank you 
for being with us. Most importantly, thank you for your 
leadership of a bipartisan commission. Your unanimous report 
creates, I think, the political conditions that are necessary 
to advance meaningful reform. You have invited all to embrace 
your report and its recommendations. And in the partisan world 
of Washington, D.C., you have produced a truly bipartisan 
product. We commend you in that effort. You have not dealt with 
the blame game, wisely recognizing that prior to 9/11 failing 
to take Al-Qa'ida seriously was a pervasive fault.
    Now, here we are almost 3 years after 9/11, and frankly we 
have no excuse. We have heard repeatedly from numerous 
scholarly reports, recommendations for action. Today, we are 
confronted with the clear threat of another major attack on our 
country. The reality of these continued threats should be a 
stark reminder to us that we have much more to do to make 
America safe.
    You have been very clear in your recommendations that just 
moving a few positions around on the organizational chart as 
the proposed National Director of Intelligence will not get the 
job done. You have said we need a grand strategy, a 
comprehensive, long-term approach to address a new enemy, 
militant Islamic jihadism.
    Defeating this enemy, you say, requires a three-pronged 
approach: one, attacking the terrorists more aggressively; two, 
securing our homeland better; and three, pursuing policies and 
initiatives to prevent the rise of future terrorists.
    Only one of your recommendations, I note, deals with the 
role of the military; 21 of your recommendations deal with 
strengthening homeland security, 10 of your recommendations 
deal with preventing the rise of future terrorists. Clearly we 
must transform the military to defeat this new enemy.
    Condoleezza Rice testified to your commission that in June 
of 2001 when she was tasked with drawing up plans to attack Al-
Qa'ida and the Taliban, in her words, quote, ``The military 
didn't particularly want this mission.'' We are trained and 
equipped to fight nations and armies, but the new enemy 
requires new training, new capabilities, and new missions.
    We defeated communism in the last century by maintaining 
superior military capabilities and by projecting our values and 
our ideals as a nation to the rest of the world. When the 
Berlin Wall fell, not one shot was fired. Radical Islamic 
fundamentalism must be defeated by the same force of our ideals 
and our values. Secretary Rumsfeld, in his now famous memo, 
asked this: He said, ``Are we capturing, killing or deterring 
and dissuading more terrorists every day than the madrasas and 
the radical clerics are recruiting, training, and deploying 
against us? The United States is putting relatively little 
effort into a long-range plan, but we are putting a great deal 
of effort into trying to stop terrorists.'' That is from the 
Secretary of Defense.
    The 9/11 Commission gives us a long-range plan to stem the 
rise of future terrorists, and it begins with supporting the 
voices of moderation in the Islamic world. The Commission 
recommends investment in education and economic partnership in 
the Muslim and Arab world with America offering, in your words, 
an example of moral leadership in the world committed to treat 
people humanely, abiding by the rule of law and being generous 
and caring to our neighbors.
    This clearly will require American leadership in building 
strong alliances and coalitions around the world. If our 
government continues to ignore the 10 recommendations of the 
Commission to prevent the rise of future terrorists, we have no 
strategy for victory over terrorism. We will be left to decades 
of fighting the terrorists both abroad and here at home. And 
until we achieve this ultimate victory over terrorism, we have 
no option but to implement vigorously the 21 recommendations of 
your report dealing with securing the homeland.
    I am pleased that we can report to you that our committee 
has already taken action on your recommendation to distribute 
homeland security funds based solely on the assessment of 
threats and vulnerabilities. We acted on this in a unanimous 
and bipartisan way last February. Now this legislation should 
be set for debate on the House floor.
    For over 2 years we have called on the administration to 
close the security gaps facing America as outlined in many of 
your recommendations. The 9/11 Commission has stated that 
unscreened air cargo is a threat to our security. Congressman 
Markey and Congressman Shays have called for action on this for 
over 2 years, yet little has been done to close that security 
gap, and the vulnerability remains.
    The 9/11 Commission has stated that we need a biometric 
interoperable border screening security system. Members of 
Congress on both sides of the aisle have been advocating for 
such a system for many years. Yet the 9/11 Commission has 
concluded that the US VISIT system, initiated by the Department 
of Homeland Security, is built on, and I quote, ``antiquated 
computer environment.'' That will have to be replaced.
    Almost 3 years after 9/11 we still do not have an 
interoperable border security system. We still have not 
achieved integrated information sharing among intelligence 
agencies.
    The 9/11 Commission has noted that even after the deadly 
rail attacks in Madrid, the Department of Homeland Security has 
failed to develop an integrated strategic plan for the 
transportation sector. My colleague, Congresswoman Holmes 
Norton, called for this action months ago in our legislation to 
better secure our rail and public transportation sector, but 
there has been no action. The list could go on.
    The 9/11 Commission report is a wake-up call for our 
government. We need to regain the sense of urgency that we all 
had after September 11th. With 21 recommendations on homeland 
security, we should, Mr. Chairman, schedule hearings on each of 
these recommendations jointly with other committees when 
appropriate to be ready to act on comprehensive legislation 
that addresses each of the Commission's 41 recommendations.
    We also should be proceeding with the suspended markup of 
our Homeland Security Authorization Act. Many of the amendments 
that my colleagues and I would offer to that bill relate 
directly to the recommendations of the Commission.
    Democrats met last week with Governor Kean and Lee Hamilton 
to talk about the report and to let it be known that we are 
ready to get to work. I hope that this committee can provide 
and will provide the leadership necessary over the next few 
weeks to move forward on this important task.
    Governor Kean, Mr. Hamilton, thank you again for your 
leadership in helping make America safe. America is grateful 
for what you and your colleagues have done, and for your 
dedication and your commitment we will be eternally grateful.
    Thank you, Mr. Chairman.
    Chairman Cox. I thank the gentleman.
    I would advise members of the outset that both Chairman 
Kean and Vice Chairman Hamilton have been generous with their 
time today. They are available to be with us all morning, and 
they have requested that they be dismissed at 12:15. In order 
to provide sufficient time for questioning by all members, I 
would ask members to consider waiving or limiting the durations 
of opening statements. If members have written statements, they 
may as always be included in the hearing record.
    The vice chairman of the full committee, the gentlelady 
from Washington State, Ms. Dunn, is recognized for her opening 
statement.
    Ms. Dunn. Thank you, Mr. Chairman. I too thank the 
witnesses for coming yet another time to testify before our 
committee--a very important committee, though, I believe, of 
people who are representative of districts all over the Nation. 
And we have flown in today to make sure that we hear from you 
firsthand. It is a credit to you that you have got so many 
members here today, because we believe that you have done a 
very thoughtful job and have brought sensitivity and attention 
to an issue that we have been dealing with now for almost 2 
years. So thank you for being here.
    The terrorist attacks on September 11th forced all of us to 
think differently about life in America. We realize we faced a 
new enemy, one that is not easily contained or eliminated. That 
day we shifted our focus and our resources. The terrorists 
didn't make us fearful as they had hoped they would do. They 
strengthened our resolve. They have not made us cower. We have 
confronted them with international might. Most of all, the 
terrorists have reminded us of what is great about America: 
freedom, democracy, justice, values that we will always fight 
for.
    These radical groups are creative and enduring in their 
effort to bring down the values of the Western civilization. We 
must be just as unwavering and innovative in our effort to 
prevent them from doing so. The 9/11 Commission's report has 
provided an insightful road map for our continuing effort to 
reform systems and processes that were not designed to confront 
the present enemy.
    Today, we will hear firsthand from Commission leaders as 
well as Federal officials of counterterrorism responsibilities. 
House and Senate leadership are committed to swift action on 
the Commission's report. In the following weeks, the American 
people will see a careful and thoughtful process that takes 
into account the progress that already has been made by the 
administration and the Congress as well as the equally 
thoughtful calls for action in the Commission's report.
    We have a lot of work to do. The President has already 
proposed creating a National Intelligence Director as well as a 
National Counterterrorism Center, two changes suggested in your 
report. It is also important to note that of the 19 
recommendations for intelligence reform issued by the joint 
Senate-House inquiry last year, which are consistent with the 
9/11 Commission's recommendations, Congress and the 
administration already have implemented or addressed all but 
three of those.
    As we take action on the 9/11 Commission's ideas, we will 
also consider the Commission's recommendation to focus 
congressional oversight. Successful reform of Federal 
Government agencies will absolutely depend on effective 
oversight. And the current system which requires Homeland 
Security Secretary Tom Ridge and his chief deputies to report 
to an estimated 88 committees and subcommittees reinforces the 
status quo and is unacceptable. We will continue to seize this 
opportunity for reform. And during our consideration of bold 
proposals, we will not discount the reform that has already 
taken place--the consolidation of 22 Federal agencies within 
the Department of Homeland Security; the establishment of the 
Terrorist Threat Integration Center, centralizing information 
and manpower from several intelligence agencies; the passage of 
Project BioShield--all bold steps that have made us safer than 
we were on 9/11.
    In a Presidential election year, it is especially tempting 
to focus on what has been done wrong and not what has been done 
right.
    As we focus on the Commission's recommendations, I am 
confident that all of us will put politics aside. It would be a 
mistake and a disservice to our constituents to ignore the 
progress we have made since 9/11. Today we welcome ideas for 
continued process.
    Thank you, Mr. Chairman.
    Chairman Cox. I thank the gentlelady. Does the gentleman 
from Mississippi, Mr. Thompson, have an opening statement?
    Mr. Thompson. Mr. Chairman, in the interest of getting to 
the substance of why we are here, I will reserve the time 
allotted to me.
    Mr. Frank. Mr. Chairman, as greatly as I respect my 
colleagues, I would not have interrupted my vacation to come 
listen to us all make speeches. I ask unanimous consent that we 
waive opening statements and get right to the witnesses.

        Prepared Statement of the Honorable Donna M. Christensen

    Thank you Mr. Chairman. I want to, at the outset, commend you Mr. 
Chairman for scheduling a hearing before this committee on the 
recommendations of the September 11th Commission.
    Mr. Chairman, I welcome the opportunity to discuss the Commission's 
findings and recommendations with the Commission's distinguished 
Chairman and Vice-Chairman. They are to be commend for the remarkable 
job they have done, not only in spearheading the drafting of the report 
but also for the generous way that they have given of their time in 
appearing before a number of other committees to press for the 
enactment of their recommendations in their entirety. I also appreciate 
that we will hear from the Mr. Brennan of the TTIC again, as well as a 
comprehensive list of witnesses who will allow us to fully explore the 
need for a better homeland security information sharing system between 
agencies and state and local governments.
    Coming close to the end of the committee listing, I am sure that 
most of the broader questions will have been asked. My interest then is 
in border security, the treatment of the territories and Indian 
reservations, funding and preparedness of first responders, and how we 
regain our position of moral leadership in the world.
    Over the past two weeks, in response to the 9/11 commission report 
and in preparation for this hearing, I convened Town Meetings across my 
Congressional District to gage my constituent's reaction to the 
commission's recommendations. These meetings were hugely successful in 
demonstrating the importance the people of the Virgin Islands place on 
the protection of the community and the United States as a whole.
    Overall we endorse the findings and recommendations of the 
Commission, but stress the need for a planned approach developed on the 
basis of study and research. To the extent we are still not as well 
prepared as we should be and limited in our capacity to adequately 
respond, I believe it is because all along we have ``reacted'' instead 
of ``responded.''
    I daresay, if lack of imagination was a fault before 9/11, it 
continues to be so today, closely followed by being entrenched in the 
old ways things were always done. This and the other legislative body 
bear much of the responsibility for the latter, and I see little signs 
of willingness to change.
    Change was and is needed to meet new threats and new methods of 
attack that are only limited by the imagination, will and ingenuity of 
those who would do us harm.
    If we fail to imagine and change, our constituents will always 
remain at great risk.
    Political posturing which is dominating much of our reaction has no 
place. To eliminate it requires presidential leadership of a kind we 
have not seen in the life of this Committee.
    More specifically, where you address the need for a comprehensive 
border strategy, the 175 miles of unsecured border in the U.S. Virgin 
Islands, my district--a cross over point for illegal entrants from 
distant places remains unsecured. We fully support that all borders 
must be secured.
    We support an all hazard approach that protects our communities' 
safety at all times, for we cannot know where the terrorists will next 
strike or how. This includes a fully prepared and intact public and 
private health system with emphasis on poor and minority communities 
where it is weakest--including Indian reservations, with clear lines of 
authority and accountability.
    One area not specifically iterated in the report, but very relevant 
to improved intelligence, is the need to diversify our intelligence 
workforce if we are ever to penetrate the enemy cells.
    Realizing that this is a report on 9/11, I would nevertheless add 
that the focus of our terrorist identification and eradication cannot 
be focused on Islamic believers only. Continuing to do so leaves every 
other flank open.
    Lastly, and this is my greatest concern--as you have so accurately 
said, we have done nothing to reduce the growth of the numbers of those 
dedicated to doing harm to our citizens and our country.
    We have failed to look within, to go beyond getting back to 
``normal''. It--normal--was and remains not a nice place to be for many 
of us, and the world can see that. Our failure to deal fairly with 
those who are ``different'' right here in the US portends the 
impossible for our dealings with those in foreign lands.
    To gain respect we not only have to reach out with educational, 
political and economic opportunity elsewhere, we must begin that 
process here at home. We have yet failed to do so, and any outreach 
across the seas will be seen for the empty, false gesture that it is.
    So we have a lot of work to do. We are grateful for your service, 
and the blueprint you have so ably provided.
    It remains for the president and us to respond appropriately. The 
only hope I hold out that we will do so is your promise to follow 
through on the recommendations to the end, and the commitment of the 
families of those who were so brutally assassinated on September 11, 
2004, whose efforts made the commission possible.
    Thank you once again Mr. Chairman for the opportunity to give these 
brief opening remarks. I look forward to hearing from our witnesses.

           Prepared Statement of the Honorable Nita M. Lowey

    I want to welcome Commission Chairman Kean and Vice Chairman 
Hamilton to the Committee. I commend you for the thorough and dedicated 
way in which you have carried out your work on behalf of our country. 
It is clear that this Committee, and this Congress, has a great deal of 
work to do.
    I share your commitment to act expeditiously to implement the 
recommended reforms, some of which can be put in place without major 
structural changes and without enacting legislation. It is on these 
recommendations I would like to focus today.
    This Committee has an awesome responsibility as the first oversight 
panel of the Department of Homeland Security. But despite the best 
intentions of many of my colleagues, the Select Committee has not 
become the perfect solution to the question of how to oversee this new 
Department. Instead, this arrangement has turned out to be the perfect 
storm.
    We have been hamstrung by jurisdictional disputes that the 
leadership has been unwilling to resolve. We passed a First Responder 
bill out of Committee five months ago that would have ensured that our 
formula for disbursing homeland security dollars was based on threat, 
population, and vulnerability, just as the Commission has recommended. 
But it has been stalled on its way to the floor by Members who disagree 
with the Commission's recommendation that ``Congress should not use 
this money as a pork barrel.'' We could act on this recommendation 
right now, but we have not.
    Since the summer of 2003, the Department of Homeland Security has 
cited consistent intelligence reports that terrorists remain interested 
in using aircraft as weapons against the United States. A GAO report 
released in June concluded our airports and aircraft are still 
vulnerable--passengers are not checked adequately for explosives, and 
more than 1 million airport workers, many of whom have antiquated 
background checks, enter secured areas each day without being 
physically screened. The Commission recommended that we give priority 
attention to improving screening of passengers and more closely oversee 
screener performance. We could act on this recommendation right now, 
but we have not.
    Our communication systems failed our first responders on September 
11th, leading to many deaths that could have been prevented. In May, I 
introduced the CONNECT First Responders Act, a bill that would fund the 
creation of a nationwide interoperable communications infrastructure. 
The Commission recommended that Congress support efforts to improve 
communications connectivity. We could act on this recommendation right 
now, but we have not.
    The Commission has also made recommendations that are more long-
term, recognizing that homeland security is not only a matter of 
practice; it's a matter of policy. I appreciate the Commission's focus 
on the importance of providing a quality education in the Muslim world 
that teaches tolerance, the dignity and value of each individual, and a 
respect for different beliefs. As Ranking Member of the House 
Appropriations Subcommittee on Foreign Operations, I have worked to 
quadruple U.S. spending on basic education abroad, from $98 million in 
FY 2000 to a total of $400 million for FY 2005. I have always 
maintained that support for this objective is a matter of national 
security--not just a nice thing to do--and I am pleased to have the 
unanimous support of the Commission in this endeavor.
    The Commission's report has provided Congress with a road map. The 
speed and resolve with which we follow this road map will have serious 
consequences for the security of the American people. I urge this 
Committee and this Congress to listen carefully to our witnesses today, 
and to act quickly to make our country more safe.

           Prepared Statement of the Honorable Karen McCarthy

    Thank you Chairman Cox and Ranking Member Turner for convening this 
important hearing.
    On September 11, 2001 the world watched in horror as terrorists 
attacked our country. They were able to invade our country and commit 
these terrible acts of violence.
    The release of the bipartisan 9/11 Commission Report has told us 
what went wrong but most importantly provides us a roadmap to prevent 
this from happening in the future. Their recommendations are the 
actions that we in Congress must take to prepare and prevent another 
attack.
    The Commission found that lack of intelligence information sharing 
between the CIA, FBI and other government agencies was the greatest 
weakness leading to the 9/11 attacks. They found that even when 
intelligence was shared there still was an inability to make sense of 
this information and take immediate action. I strongly agree with the 
Commission's recommendation that the President should lead a government 
wide effort to help fix these critical problems within our intelligence 
gathering organizations. If this had happened before the 9/11 attacks 
many lives may have been saved. These institutions must be able to 
collect, analyze and share intelligence expeditiously and have the 
means to pass on and collect intelligence to and from our state and 
local officials who serve on the front lines.
    The Commission recommends the establishment of a National 
Counterterrorism Center, built upon the foundation of the existing 
Terrorist Threat Integration Center (TTIC). They also recommend the 
consolidation of budgetary and operational oversight of all fifteen 
intelligence agencies and the naming of a new National Intelligence 
Director to unify the intelligence community. As the Ranking Member on 
the Intelligence and Counterterrorism Subcommittee of the Select 
Committee on Homeland Security, I whole heartedly support these 
recommendations.
    The international collection and sharing of information is 
extremely important to stopping terrorists. The Commission recommends a 
global strategy for the United States to ``. . .reach out, listen to, 
and work with other countries. . .'' Congress must embrace this 
strategy. During the first part of August, I joined with my Homeland 
Security Committee colleagues on an intelligence gathering trip to the 
UK and Northern Ireland and the Republic of Ireland. We learned about 
the existence of foreign terrorist cells from their intelligence 
agencies and had a very frank exchange about how we can help each other 
in the fight against terrorism. I was very pleased to see that the 9/11 
Commission Report recommends that United States ``. . .should reach 
out, listen to, and work with other countries. . .'' as a means of 
gathering intelligence.
    Now that the 9/11 Commission has done its job, we need to do ours. 
Today's hearing puts us a step closer to preventing another terrorist 
attack. I urge the leadership of Congress to follow the lead of this 
Committee.
    I want thank the 9/11 Commissioners and the staff for their hard 
work and dedication. This report should become our bible in winning the 
war on terrorism.
    I look forward to hearing from our witnesses today on how we can 
quickly move forward to create a new National Counterterrorism Center, 
name a National Intelligence Director, develop a global strategy for 
working with our allies and implement all of the Commission's 
recommendations. Thank you Mr. Chairman.

        Prepared Statement of the Honorable Louise M. Slaughter

    Thank you, Chairman Cox and Ranking Member Turner for holding this 
timely and important hearing, and thank you Governor Kean and 
Representative Hamilton for joining us.
    I would like to start by giving special recognition to the two fine 
men before us today for their yeoman's work.
    The fortitude and great character that Governor Kean and 
Representative Hamilton exhibited at every point in the process is 
truly remarkable. From the very beginning, we could see that these two 
men took their responsibilities to the 9-11 families and the American 
people very seriously.
    As we are all aware, the process for investigating the attacks was 
not always smooth. In some corners, there were those who tried to 
denigrate the effort to secure key testimony and access to records. 
There were even some who chose to characterize the effort to secure 
this information as partisan. Those critics were blind to what was 
really behind this effort.
    On 9/11, I stood on the steps of the Capitol building, arm-in-arm 
with my colleagues in Congress to sing God Bless America. On that day, 
there was no such thing as Democrat or Republican. We were all just 
Americans. It is that sense of unity and patriotic spirit that guided 
this Commission's work.
    Governor Kean, the other Commissioners, and the Commission staff 
were executing their solemn oath to the 9/11 families and the nation.
    They did not execute their responsibilities to serve the interests 
of any one political party. No, they were on a mission to get to the 
truth to make America safer.
    The 9/11 Commission was not focused on pointing fingers or laying 
blame. Rather, it was focused on providing the truth about what 
happened on that terrible, terrible day to the families of those lost 
in the September 11th attacks and all Americans.
    The 9/11 Commission was also focused on providing us with a plan to 
ensure that our country is never as vulnerable as it was on September 
11, 2001.
    They could not have provided a higher service to this country.
    I am pleased that the reaction to the 9/11 Commission report 
recommendations has been overwhelmingly positive. However, the 
Commissioners are right to be concerned that this report, like so many 
well-regarded reports before it, will be relegated to sitting on a 
shelf in all our offices, and see no action.
    We cannot not--we must not--let that happen.
    My constituents, the 9/11 families, and all Americans expect more 
than cosmetic changes from our government.
    We must act on all 41 recommendations outlined by the 9/11 
Commission--not merely the provisions that the President supports.
    The focus of today's hearing is on information sharing--an area 
that has received significant attention by this panel since the 
Committee's inception in January 2003. The 9/11 Commission's findings 
seem to support what I have come to believe.
    Despite the creation of the Department of Homeland Security in 
March 2003, our information sharing system is weak and the problems of 
interagency coordination that existed on September 11th persist.
    The people I represent in Western New York are the kind of people 
who ``call it like they see it''. When it comes to current state of 
homeland security, they don't know what to think.
    In the wake of the September 11th attacks, they stood ready to 
sacrifice; many going down to Ground Zero to help in the search and 
recovery. They still stand ready to withstand delay and discomfort, if 
it means our country will be safer.
    But today, nearly three years later, they ask me how duct tape will 
make their families safer. They ask me why there are chronic delays at 
the U.S.-Canadian border, even when we're not at a heightened Orange 
Alert. They ask me how confiscating a key-chain pocketknife from an 
elderly man at the airport will make them safer.
    As the Ranking Member of this panel's Rules Subcommittee, I am 
keenly interested in the Commission's views on the weaknesses in the 
current congressional oversight model.
    Today, DHS officials must come before 88 congressional committees 
and subcommittees. How does that impact the Department's ability to 
execute its mission and Congress' ability to conduct oversight?
    When it came to creating DHS, Congress accepted, on a bipartisan 
basis, that the merger of 22 Executive agencies would be required to 
ensure greater coordination and accountability.
    Congress must now put aside its petty jurisdictional fights and 
enhance accountability by adopting a centralized model of oversight.
    This is not just my opinion, it's what the 9/11 Commission 
recommends.
    In fact, the Commission calls on Congress to ``create a single, 
principal point of oversight and review for homeland security.'' By the 
Commission's own admission, ``[o]f all our recommendations, 
strengthening congressional oversight may be among the most difficult 
and important.''
    As someone who has served in this body for 18 years, I must commend 
the Commission for its accurate assessment of the challenges ahead.
    I am interested in hearing from Representative Hamilton, a 34-year 
veteran of the House, on how to overcome the jurisdictional hurdles and 
develop a centralized approach to oversight.
    I am also interested to hear the panelists' views on making this 
Committee permanent--as the primary House Committee in charge of 
overseeing the Department of Homeland Security.
    After months of study, I strongly believe that this Committee is 
uniquely situated to undertake the challenges of enhanced congressional 
oversight. Congress should make this Committee permanent to do just 
that.
    I also must reiterate that Congress must act on all forty-one 
recommendations. For this to be accomplished, Congress will not only 
have to put partisanship aside but also abandon jurisdictional 
wrangling. Such action is essential to giving the American people the 
homeland security they deserve.
    Thank you Mr. Chairman and Ranking Member Turner for holding this 
important hearing.
    Chairman Cox. Is there objection?
    Hearing none, we will move immediately to the testimony of our 
distinguished witnesses, the chairman and vice chairman of the National 
Commission on Terrorist Attacks Upon the United States.

    Chairman Cox. Governor Kean, we will begin with you.

  STATEMENT OF THE HONORABLE THOMAS H. KEAN, CHAIR, NATIONAL 
     COMMISSION ON TERRORIST ATTACKS UPON THE UNITED STATES

    Mr. Kean. Chairman Cox, Ranking Member Turner, 
distinguished members of the House Select Committee on Homeland 
Security, I want to thank you, the ranking member and the 
chairman for their statements. We appreciate that it is a 
wonderful summary of our recommendations and your statements of 
support. I thank you on behalf of the Commission and the 
American people very much.
    We are honored to appear before you today. We want to thank 
you and the leadership of the House of Representatives for your 
very prompt attention to our recommendations. We are very 
grateful to you and the leadership for that attention.
    The Commission's findings and recommendations, as you know, 
were strongly endorsed by all commissioners, five Democrats, 
and five Republicans. We share a unity of purpose and we call 
upon Congress and the administration to display that same 
bipartisanship and that same unity of purpose as we all strive 
to make our country and all Americans safer and more secure. 
How information is shared in our government, and not just at 
the Federal level, but with State and local agencies, is a 
matter of critical importance to homeland security and to 
national security.
    As we looked at the 9/11 story, we found that the failure 
to share information cost us very dearly. All agencies, 
Federal, State, and local, need to have information available 
in a timely manner because they all have responsibilities to 
protect Americans. We need to get this right.
    What we learned in our 9/11 story is that the U.S. 
Government has access to a vast amount of information. We have 
Customs and immigration information, FBI and police reports, 
and so much more. The storehouse of information is immense. But 
the government has very weak systems for processing and using 
that information it possesses, especially when that information 
has to be used across agency lines.
    Our report details many unexploited opportunities to 
disrupt the 9/11 plot, failures to watchlists, failures to 
share information, failures to, as we say, ``connect the 
dots.''
    The story of Hamzi and Mihdhar in Kuala Lumpur in January 
of 2000 is just one of a number of examples. We caught a 
glimpse, we found those future hijackers, but we lost their 
trail somehow in Bangkok. And because information wasn't shared 
when these people came to the United States and were living 
openly on the West Coast, Los Angeles and San Diego, the FBI 
didn't know about it. And the FBI didn't learn until August of 
2001 that Hazmi and Mihdhar were in the United States. And so 
they suddenly started pursuing leads, but that was too late, 
and time on that fateful day just simply ran out.
    Agencies live by the need-to-know rule. They limit the 
sharing of information. Each agency has its own computer 
system, its own security practices, and these are outgrowths of 
the Cold War. Implicit in their practices is the assumption 
that the risk of inadvertent disclosure outweighs the benefits 
of larger sharing among agencies. And we believe, as a 
commission, that that is a Cold War assumption and it is no 
longer appropriate.
    In the 9/11 story we came to understand the huge cost of 
failing to share information across agency boundaries. Yet the 
current practices of government, security practices encourage 
overclassification.
    Now, we understand the critical importance of protecting 
sources and methods. We believe it is also important to share 
information. There are plenty of penalties for unauthorized 
disclosure, but you know there isn't one single penalty for not 
sharing information.
    We believe that information procedures across the 
government need to be changed, that there should be incentives 
provided for sharing information. Intelligence gathered about 
transnational terrorism should be processed, turned into 
reports, and distributed according to the same quality 
standards whether it is collected in Indonesia or Minnesota.
    We believe the President needs to lead a government-wide 
effort to bring the major national security institutions into 
the information revolution. The President needs to lead the way 
and coordinate the resolutions of the legal, policy, and 
technical issues across agency lines so that we can make sure 
in the future that this important information is shared.
    The model is a decentralized network. Agencies would still 
have their own databases, but those databases would be 
searchable across agency lines. In the system, in this system, 
secrets are protected. They are protected, though, through the 
design of the network that controls access to the data. They 
don't prevent people from having access to the network.
    An outstanding conceptual framework for this kind of 
trusted information network has been developed by a task force 
of leading professionals in national security, information 
technology and laws as they are all assembled by the Markle 
Foundation. Its report has been widely discussed throughout the 
U.S. Government, but so far it has just been discussed; it 
hasn't been converted into action.
    The point here is that no single agency can do this alone. 
One agency can modernize its stovepipe, but cannot develop a 
system to replace that stovepipe. Only Presidential leadership 
can develop the necessary government-wide concepts and 
standards.
    In a hearing that Lee Hamilton and I testified at last 
week, a Member of Congress asked us what information about 
terrorism did the pilot of American 11 have available to him on 
the morning of September 11th? And the answer is very simple: 
He had none. Despite his professional training and military 
experience, he was given no useful information to help him or 
the crew to protect the passengers of that plane. In fact, his 
training told him that if there was a hijacking, you submit to 
it, protect the passengers, and eventually perhaps you would 
land in Havana and then go home.
    Now, contrast this with the situation on United 93 when the 
passengers and crew learned from phone conversations with their 
loved ones about the attacks on the World Trade Center. They 
took action as citizens. They saved the Capitol, or the White 
House, we don't know which, from probable destruction. An 
informed citizenry, a citizenry that knows the facts, is this 
Nation's best defense.
    For the same reason, we believe it is imperative that as 
much information as possible be shared with State and local 
authorities. There are a lot more of them than there are 
Federal authorities, and they too can take action to protect 
the homes of their fellow citizens.
    There are some 18,000 State and local law enforcement 
agencies in the United States. If we can harness the awareness 
and experience of these dedicated professionals, as a Nation we 
will greatly enhance our security. Reforms of the kind we 
recommend will push more important information out to State and 
local agencies. The more everyone charged with our security 
knows, the more information they have, and the safer we all 
will be.
    Let me turn for a moment to some of our findings and 
recommendations. As our report makes clear, the decade before 
9/11 border security was simply not seen as a national security 
matter. From a strategic perspective, border policy focused on 
counternarcotics efforts, illegal immigration, and more 
recently perhaps, the smuggling of weapons of mass destruction.
    Our government simply did not exhibit a comparable level of 
concern about terrorists' ability to enter and stay in the 
United States. During that same period, Al-Qa'ida was working 
very hard. They were studying all our systems. They were 
learning how to exploit gaps and weaknesses in our passport 
system and our visa system, our entry systems of the United 
States and other countries. Al-Qa'ida actually set up its own 
passport office in Kandahar and developed working relationships 
with travel facilities, travel agents, some of them witting, 
some of them unwitting, document forgers, corrupt government 
officials to move their people around.
    More robust enforcement of routine immigration laws, 
supported by better information, might have made a real 
difference in stopping these hijackers. Had information been 
shared and these terrorists watchlisted, border authorities 
could have intercepted up to three of those hijackers. Two 
hijackers made patently false statements on their visa 
applications. They could have been shown to be false by U.S. 
Government records, and those records were available to 
consular officials. Many of the hijackers lied about their 
employment or lied about their educational status. Two 
hijackers could have been denied admission to ports of entry 
based on violations of immigration rules themselves governing 
the terms of admission. Three hijackers violated the 
immigration laws after entry. One who said he was going to 
enroll in school and then never did, two by overstays of their 
terms of admission.
    Although the intelligence as to their tactics was not known 
at the time, examining their passports could have allowed 
authorities to detect at least four and possibly up to 15 
hijackers.
    Neither the Intelligence Community, nor the border security 
agencies or the FBI, had programs in place to analyze and act 
upon intelligence about terrorists' travel tactics--how they 
obtained their passports, how they made travel arrangements and 
subverted national laws and processes governing entry and stays 
in foreign countries.
    Now, Congress during the 1990's took some steps to provide 
better information to immigration officials by legislating 
requirements for a foreign student information system and 
entry-exit system. As we know, these programs had not yet 
successfully been completed by 9/11.
    Since 9/11, some important steps have been taken to 
strengthen our border security. The Department of Homeland 
Security has been established, combining the resources of the 
former Immigration and Naturalization Service and the Customs 
Bureau into new agencies to protect our borders and to enforce 
the immigration laws within the United States. The visa process 
and the terrorist watchlist system have been strengthened. DHS 
has begun to implement, through the US VISIT program, a 
biometric screening system for use at the borders.
    Now, we believe, as a commission, there is no question that 
these efforts have made us safer, but they have not made us 
safe. As a nation, we have not yet fully absorbed the lessons 
that we should have learned from 9/11 with respect to border 
security. When they travel, that is the time that terrorists 
are at their most vulnerable. You see, they have to leave safer 
havens where they have been. They have to travel secretly. They 
have to use evasive techniques, from altered travel documents 
to lies or cover stories. Terrorist entry can often be 
prevented and terrorist travel can be constrained by acting on 
this knowledge and understanding it. Targeting terrorist travel 
is at least as powerful a weapon against terrorists as 
targeting their finances. The Commission therefore has 
recommended that we combine terrorist travel intelligence, 
operations, and law enforcement in a strategy to intercept 
terrorists, find terrorist travel facilitators, and constrain 
terrorist mobility.
    Frontline border agencies must not only obtain from the 
Intelligence Community, on a real-time basis, information on 
terrorists, they must also assist in collecting it. Consular 
officers and immigration inspectors, after all, are the people 
who encounter these terrorists. They encounter travelers, they 
encounter their documents.
    Specialists must be developed and deployed in consulates 
and at the border to detect terrorists in their travel 
practices, including looking very carefully at their documents. 
Technology has a vital role to play. Three years after 9/11 it 
is more than time for border officials to integrate into their 
operations terrorist travel indicators that have been developed 
by our Intelligence Community. The Intelligence Community and 
the border security community, they really haven't been close 
partners in the past. This simply must change.
    We also need an operational program to target terrorist 
travel facilitators--forgers, human smugglers, travel agencies 
and corrupt border officials. Some may be found in this 
country. Most will be found abroad. Disrupting them will 
seriously hurt the terrorists. While there have been some 
successes in this area, intelligence far outstrips action. This 
should be rectified by providing the interagency mandate and 
the necessary resources to Homeland Security's enforcement arm, 
immigration and customs enforcement, and other relevant 
agencies, including, by the way, the FBI.
    This problem illustrates the need for a National 
Counterterrorism Center. Investigations of travel facilitators 
invariably raise complicated questions. For instance, should a 
particular travel facilitator be arrested or should he be the 
subject of continued intelligence operations? If he is going to 
be arrested, in which country do you do it? A National 
Counterterrorism Center is needed to bring the numerous 
agencies to the table so that they can talk together in a 
unified way, decide in each case what is the best course of 
action.
    And I now turn to my partner and friend and teacher, Lee 
Hamilton.

    STATEMENT OF THE HONORABLE LEE H. HAMILTON, VICE CHAIR, 
NATIONAL COMMISSION ON TERRORIST ATTACKS UPON THE UNITED STATES

    Mr. Hamilton. Thank you very much, Governor. Let me join 
you in thanking you Chairman Cox, Ranking Member Turner, 
Congresswoman Dunn, for your really superb statements. It was 
very pleasing to us to hear the manner in which you summarized 
our report.
    I want to say just a word, that it has been a high personal 
privilege for me to work with Tom Kean. He is a consensus 
builder, a talent I think that is rare even among politicians 
today. And it has been one of the great privileges of my public 
career to work with Tom.
    And I also want to express a word of personal appreciation 
to each of the members for returning for this hearing in 
August. That is really unprecedented. And Tom and I and the 
Commission are very grateful to you for your interest in our 
report.
    I will begin on screening systems. To provide better 
information to our consular officers and immigration 
inspectors, the government must accelerate its efforts to build 
a biometric entry and exit screening system. This is an area in 
which Congress has been active since the mid-1990's, and it has 
been a frustrating journey.
    Congress first legislated an entry-exit system in 1996 to 
increase compliance with our immigration laws. It was not 
associated with counterterrorism nor with biometric 
identification. As a practical matter, the entry-exit effort 
was not seriously funded until the end of 2002. By that time, 
aspects of the system were directed by four separate laws. The 
establishment of the Department of Homeland Security then 
changed the organizational context for implementing those laws.
    The new department is emerging from its difficult start-up 
period and is, we believe, poised to move forward to implement 
Congress' mandates in this area. We stress four principles that 
we believe must guide our efforts:
    First, the U.S. border security system is effectively a 
part of a larger network of screening points that includes our 
transportation system and access to vital facilities such as 
nuclear reactors. The Department of Homeland Security should 
lead an effort to design a comprehensive screening system, 
addressing common problems and setting common standards with 
system-wide goals in mind.
    Second, a biometric entry and exit screening system is 
fundamental to intercepting terrorists, and its development 
should be accelerated. Each element of the system is important. 
The biometric identifier makes it difficult to defeat a 
watchlist by slight alteration in the spelling of a name, a 
technique relied upon by the terrorists. The screening system 
enables border officials' access to all relevant information 
about a traveler in order to assess the risk they may pose. 
Exit information allows authorities to know if a suspect 
individual has left the country and to establish compliance 
with immigration laws.
    Third, United States citizens should not be exempt from 
carrying biometric passports or otherwise enabling their 
identities to be securely verified, nor should Canadians or 
Mexicans.
    Fourth, there should be a program to speed known travelers 
so inspectors can focus on those travelers who might present 
greater risks. This is especially important for border 
communities.
    We believe that the schedule for completion of this 
biometric entry-exit screening system should be accelerated to 
the extent feasible. This will require additional annual 
funding and a mandate to a central organizational authority 
such as the US VISIT office to manage the effort. We need much 
greater collaboration with foreign governments on border 
security. This means more exchange of information about 
terrorists and passports and improved global passport design 
standards. Implicit in this recommendation is continued close 
cooperation with Mexico and Canada.
    It is especially important to improve screening efforts 
prior to departure from foreign airports, especially in 
countries participating in the visa waiver program. We must be 
able to monitor and respond to entries along our long borders 
with Canada and Mexico, working with those countries as much as 
possible.
    Our law enforcement system ought to send a message of 
welcome, tolerance, and justice to members of the immigrant 
communities in the United States. Good immigration services are 
one way to reach out that is valuable, including for 
intelligence. State and local law enforcement agencies need 
more training and partnerships with Federal agencies so they 
can cooperate more effectively with those Federal authorities 
in identifying terrorist suspects.
    Finally, secure identification should begin in the United 
States. We believe the Federal Government should set standards 
for the issuance of birth certificates and sources of 
identification such as driver's licenses.
    The agenda on immigration and border control, then, is 
multifaceted and vital to our national security. The bottom 
line is that our visa and border control systems must become an 
integral part of our counterterrorism intelligence system. We 
must steer a course that remains true to our commitment to an 
open society and that welcomes legitimate immigrants and 
refugees, while concentrating our resources on identification 
of potential terrorists and prevention of their entry into the 
United States.
    We recommend that homeland security assistance should be 
based strictly on an assessment of risks and vulnerabilities. 
Now, in 2004, Washington, D.C., and New York City are certainly 
at the top of any such list.
    We understand the contention that every State and city 
needs to have some minimum infrastructure for emergency 
response. But Federal homeland security assistance should not 
remain a program for general revenue sharing. It should 
supplement State and local resources based on the risks or 
vulnerabilities that merit additional support. Congress should 
not use this money as a pork barrel.
    The 9/11 attacks showed that even the most vigorous 
emergency response capabilities can be overwhelmed if an attack 
is large enough. We recommend that emergency response agencies 
nationwide should adopt the incident command system. When 
multiple agencies or multiple jurisdictions are involved, they 
should adopt a unified command. Both are proven frameworks for 
emergency response.
    We strongly support the decision that Federal homeland 
security funding will be contingent, as of October 1, 2004, 
upon the adoption and regular use of ICS and unified command 
procedures. In the future, the Department of Homeland Security 
should consider making funding contingent on aggressive and 
realistic training in accordance with ICS and unified command 
procedures.
    The inability to communicate was a critical element at the 
World Trade Center, Pentagon, and Pennsylvania crash sites 
where multiple agencies and multiple jurisdictions responded. 
The occurrence of this problem at three very different sites is 
strong evidence that compatible and adequate communications 
among public safety organizations at the local, State, and 
Federal levels remains an important problem.
    Congress should support pending legislation which provides 
for the expedited and increased assignment of radio spectrum 
for public safety purposes. Furthermore, high-risk urban areas 
such as New York City and Washington, D.C., should establish 
signal corps units to ensure communications connectivity 
between and among civilian authorities, local first responders, 
and the National Guard. Federal funding for such units should 
be given a high priority by Congress.
    The private sector controls 85 percent of the critical 
infrastructure of the United States. The Department of Homeland 
Security's mandate includes working with the private sector to 
ensure preparedness. Preparedness in the private sector and 
public sector for rescue, restart, and recovery of operations 
should include a plan for evacuation, adequate communications 
capabilities, and a plan for continuity of operations.
    As we examined the emergency response to 9/11, witness 
after witness told us that despite 9/11, the private sector 
remains largely unprepared for a terrorist attack. We were also 
advised that the lack of a widely embraced private-sector 
preparedness standard was a principal contributing factor in 
this lack of preparedness. The Commission, therefore, endorses 
the American National Standard Institute's recommended standard 
for private preparedness, and we thank them for developing 
that. We were encouraged by Secretary Tom Ridge's praise of the 
standard and urged the Department of Homeland Security to 
promote its adoption.
    We also encouraged the insurance and credit rating 
industries to look closely at a company's compliance with the 
ANSI standard in assessing its insurability and 
creditworthiness. We believe that compliance with the standard 
should define the standard of care owed by a company to its 
employees and the public for legal purposes.
    Private-sector preparedness is not a luxury, it is a cost 
of doing business in the post-9/11 world. If we ignore it, the 
potential costs in lives, money and national security will be 
inestimable.
    Mr. Chairman, we believe the recommendations we have 
presented this morning, as well as the many other 
recommendations we have made on foreign policy, public 
diplomacy, and transportation security, can make a significant 
difference in making America safer and more secure.
    We also recommend reforms in the structure of the executive 
branch and the Congress. We believe that organizational reforms 
in the absence of implementing the other reforms and 
recommendations in our report will have significantly less 
value than the value of these reforms as a complete package.
    In short, while we welcome each step toward implementation 
of our recommendations, no one should be mistaken in believing 
that organizational reforms alone can address the current 
terrorist threat we face. We are very gratified by the rapid 
response of the President and the White House to our 
recommendations. We welcome the President's support for a 
National Intelligence Director and National Counterterrorism 
Center. We welcome the support of Senator Kerry.
    We look forward to working with you on our recommendations.
    We should seize this historic opportunity and move 
expeditiously. With your counsel and direction, we believe the 
Nation can and will make wise choices.
    And we are pleased now to respond to your questions.
    [The statement of Messrs. Kean and Hamilton follows:]

 Prepared Statement of Chairman Thomas Kean and Vice Chair Lee Hamilton

           The 9/11 Commission's Findings and Recommendations

    Chairman Cox, Ranking Member Turner, distinguished members of the 
House Select Committee on Homeland Security. We are honored to appear 
before you today. We want to thank you and the leadership of the House 
of Representatives for your prompt attention to the recommendations of 
the Commission. We are grateful to you, and to the leadership of the 
House.
    The Commission's findings and recommendations were strongly 
endorsed by all Commissioners--five Democrats and five Republicans. We 
share a unity of purpose. We call upon Congress and the Administration 
to display the same spirit of bipartisanship as we collectively seek to 
make our country and all Americans safer and more secure.
    How information is shared in our government--not just at the 
federal level, but with state and local agencies--is a matter of 
critical importance to homeland security, and to national security. As 
we looked into the 9/11 story, we found that the failure to share 
information cost us dearly. All agencies--federal, state, and local--
need to have information available in a timely manner to protect 
Americans. We need to get this right.

Unity of Effort in Sharing Information
    What we learned in the 9/11 story is that the U.S. government has 
access to a vast amount of information. We have customs and immigration 
information, FBI and police reports, and much more. The storehouse of 
information is immense. But the government has weak systems for 
processing and using the information it possesses, especially across 
agency lines.
    Our report details many unexploited opportunities to disrupt the 9/
11 plot: failures to watchlist, failures to share information, failure 
to connect the dots. The story of Hazmi and Mihdhar in Kuala Lumpur in 
January 2000 is a telling example. We caught a glimpse of the future 
hijackers, but we lost their trail in Bangkok. Agencies did not share 
information. The FBI did not learn until August, 2001 that Hazmi and 
Mihdhar had entered the United States. Late leads were pursued, but 
time ran out.
    Agencies live by the ``need to know'' rule. They limit the sharing 
of information. Each agency has its own computer system and its own 
security practices, outgrowths of the Cold War. Implicit in their 
practices is the assumption that the risk of inadvertent disclosure 
outweighs the benefits of wider sharing. We think this Cold War 
assumption is no longer appropriate. In the 9/11 story we came to 
understand the huge costs of failing to share information across agency 
boundaries. Yet, in the current practices of government, security 
practices encourage overclassification.
    We understand the critical importance of protecting sources and 
methods. We believe it is also important to share information. There 
are plenty of penalties for unauthorized disclosure; there are no 
punishments for not sharing information.
    We believe that information procedures across the government need 
to be changed, to provide incentives for sharing. Intelligence gathered 
about transnational terrorism should be processed, turned into reports, 
and distributed according to the same quality standards, whether it is 
collected in Indonesia, or in Minnesota.
    We believe the president needs to lead a government-wide effort to 
bring the major national security institutions into the information 
revolution. The president needs to lead the way and coordinate the 
resolution of the legal, policy, and technical issues across agency 
lines so that information can be shared.
    The model is a decentralized network. Agencies would still have 
their own databases, but those databases would be searchable across 
agency lines. In this system, secrets are protected through the design 
of the network that controls access to the data, not access to the 
network.
    An outstanding conceptual framework for this kind of ``trusted 
information network'' has been developed by a task force of leading 
professionals in national security, information technology, and law 
assembled by the Markle Foundation. Its report has been widely 
discussed throughout the U.S. government, but has not yet been 
converted into action. The point here is that no single agency can do 
this alone. One agency can modernize its stovepipe, but cannot design a 
system to replace it. Only presidential leadership can develop the 
necessary government-wide concepts and standards.

Sharing Information with State and Local Authorities
    In a hearing last week, a Member of Congress asked us: what 
information about terrorism did the pilot of American 11 have available 
to him on the morning of September 11? He had none. Despite his 
professional training and military experience, he had no useful 
information to help him or the crew protect the passengers or plane.
    We contrast this with the situation on United 93. When the 
passengers and crew learned from phone conversations about the attacks 
on the World Trade Center, they took action. They saved the Capitol or 
White House from destruction. An informed citizenry is the nation's 
best defense. For the same reason, we believe it is imperative that as 
much information as possible be shared with state and local 
authorities. They, too, can then take action to protect their homes and 
fellow citizens.
    There are some 18,000 state and local law enforcement agencies in 
the United States. Harnessing the awareness and experience of these 
dedicated professionals can greatly enhance our security. Reforms of 
the kind we recommend will push more important information out to state 
and local agencies. The more everyone charged with our security knows, 
the more information they have, the safer we will all be.
    We will turn to some of our other findings and recommendations.

Border Control
    As our Report makes clear, in the decade before 9/11, border 
security was not seen as a national security matter. From a strategic 
perspective, border policy focused on counternarcotics efforts, illegal 
immigration, and, more recently, the smuggling of weapons of mass 
destruction. Our government simply did not exhibit a comparable level 
of concern about terrorists' ability to enter and stay in the United 
States.
    During that same period, however, Al-Qa'ida studied how to exploit 
gaps and weaknesses in the passport, visa, and entry systems of the 
United States and other countries. Al-Qa'ida actually set up its own 
passport office in Kandahar and developed working relationships with 
travel facilitators--travel agents (witting or unwitting), document 
forgers, and corrupt government officials.
    More robust enforcement of routine immigration laws, supported by 
better information, might have made a difference in stopping the 
hijackers.
<bullet> Had information been shared and the terrorists been 
watchlisted, border authorities could have intercepted up to three of 
the hijackers.
<bullet> Two hijackers made statements on their visa applications that 
could have been shown to be false by U.S. government records available 
to consular officers.
<bullet> Many of the hijackers lied about their employment or 
educational status.
<bullet> Two hijackers could have been denied admission at the port of 
entry based on violations of immigration rules governing terms of 
admission.
<bullet> Three hijackers violated the immigration laws after entry, one 
by failing to enroll in school as declared, and two by overstays of 
their terms of admission.
<bullet> Although the intelligence as to their tactics was not 
developed at the time, examining their passports could have allowed 
authorities to detect from four to 15 hijackers
    Neither the intelligence community, nor the border security 
agencies or the FBI, had programs in place to analyze and act upon 
intelligence about terrorist travel tactics--how they obtained 
passports, made travel arrangements, and subverted national laws and 
processes governing entry and stays in foreign countries.
    Congress during the 1990s took some steps to provide better 
information to immigration officials by legislating requirements for a 
foreign student information system and an entry-exit system. As we 
know, these programs were not successfully completed before 9/11.
    Since 9/11, some important steps have been taken to strengthen our 
border security. The Department of Homeland Security has been 
established, combining the resources of the former Immigration and 
Naturalization Service and the Customs Bureau into new agencies to 
protect our borders and to enforce the immigration laws within the 
United States. The visa process and the terrorist watchlist system have 
been strengthened. DHS has begun to implement, through the US VISIT 
program, a biometric screening system for use at the border.

Targeting Terrorist Travel
    These efforts have made us safer, but not safe enough. As a nation 
we have not yet fully absorbed the lessons of 9/11 with respect to 
border security. The need to travel makes terrorists vulnerable. They 
must leave safe havens, travel clandestinely, and use evasive 
techniques, from altered travel documents to lies and cover stories. 
Terrorist entry often can be prevented and terrorist travel can be 
constrained by acting on this knowledge. Targeting terrorist travel is 
at least as powerful a weapon against terrorists as targeting their 
finances.
    The Commission therefore has recommended that we combine terrorist 
travel intelligence, operations, and law enforcement in a strategy to 
intercept terrorists, find terrorist travel facilitators, and constrain 
terrorist mobility.
    Front line border agencies must not only obtain from the 
Intelligence Community, on a real-time basis, information on 
terrorists, they must also assist in collecting it. Consular officers 
and immigration inspectors, after all, are the people who encounter 
travelers and their documents.
    Specialists must be developed and deployed in consulates and at the 
border to detect terrorists through their travel practices, including 
their documents. Technology has a vital role to play. Three years after 
9/11 it is more than time for border officials to integrate into their 
operations terrorist travel indicators that have been developed by the 
intelligence community. The intelligence community and the border 
security community have not been close partners in the past. This must 
change.
    We also need an operational program to target terrorist travel 
facilitators--forgers, human smugglers, travel agencies, and corrupt 
border officials. Some may be found here, but most will be found 
abroad. Disrupting them would seriously constrain terrorist mobility. 
While there have been some successes in this area, intelligence far 
outstrips action. This should be rectified by providing the interagency 
mandate and the necessary resources to Homeland Security's enforcement 
arm, Immigration and Customs Enforcement (ICE), and other relevant 
agencies, including the FBI.
    This problem illustrates the need for a National Counterterrorism 
Center. Investigations of travel facilitators invariably raise 
complicated questions: Should a particular travel facilitator be 
arrested or should he be the subject of continued intelligence 
operations? In which country should he be arrested? A National 
Counterterrorism Center is needed to bring the numerous agencies to the 
table to decide on the right course of action.

Screening Systems
    To provide better information to our consular officers and 
immigration inspectors, the government must accelerate its efforts to 
build a biometric entry and exit screening system. This is an area in 
which Congress has been active since the mid-1990's. It has been a 
frustrating journey.
    Congress first legislated an entry-exit system in 1996, to increase 
compliance with our immigration laws. It was not associated with 
counterterrorism, nor with biometric identification. As a practical 
matter, the entry-exit effort was not seriously funded until the end of 
2002. By that time, aspects of a system were directed by four separate 
laws. The establishment of the Department of Homeland Security then 
changed the organizational context for implementing those laws.
    The new Department is emerging from its difficult start-up period 
and is, we believe, poised to move forward to implement Congress's 
mandates in this area. We would like to stress four principles that we 
believe must guide our efforts in this arena.
    First, the U.S. border security system is effectively a part of a 
larger network of screening points that includes our transportation 
system and access to vital facilities, such as nuclear reactors. The 
Department of Homeland Security should lead an effort to design a 
comprehensive screening system, addressing common problems and setting 
common standards with system-wide goals in mind.
    Second, a biometric entry and exit screening system is fundamental 
to intercepting terrorists and its development should be accelerated. 
Each element of the system is important. The biometric identifier makes 
it difficult to defeat a watchlist by a slight alteration in spelling 
of a name, a technique relied upon by terrorists. The screening system 
enables border officials access to all relevant information about a 
traveler, in order to assess the risk they may pose. Exit information 
allows authorities to know if a suspect individual has left the country 
and to establish compliance with immigration laws.
    Third, United States citizens should not be exempt from carrying 
biometric passports or otherwise enabling their identities to be 
securely verified. Nor should Canadians or Mexicans.
    Fourth, there should be a program to speed known travelers, so 
inspectors can focus on those travelers who might present greater 
risks. This is especially important for border communities.
    We believe that the schedule for completion of this biometric 
entry-exit screening system should be accelerated to the extent 
feasible. This will require additional annual funding, and a mandate to 
a central organizational authority, such as the US VISIT office, to 
manage the effort.

International Collaboration
    We need much greater collaboration with foreign governments on 
border security. This means more exchange of information about 
terrorists and passports, and improved global passport design 
standards. Implicit in this recommendation is continued close 
cooperation with Mexico and Canada. It is particularly important to 
improve screening efforts prior to departure from foreign airports, 
especially in countries participating in the visa waiver program.

Immigration Law and Enforcement
    We must be able to monitor and respond to entries along our long 
borders with Canada and Mexico, working with those countries as much as 
possible. Our law enforcement system ought to send a message of 
welcome, tolerance, and justice to members of the immigrant communities 
in the United States. Good immigration services are one way to reach 
out that is valuable, including for intelligence. State and local law 
enforcement agencies need more training and partnerships with federal 
agencies so they can cooperate more effectively with those federal 
authorities in identifying terrorist suspects.
    Finally, secure identification should begin in the United States. 
We believe that the federal government should set standards for the 
issuance of birth certificates and sources of identification such as 
drivers' licenses.
    The agenda on immigration and border control, then, is multi-
faceted and vital to our national security. The bottom line is that our 
visa and border control systems must become an integral part of our 
counterterrorism intelligence system. We must steer a course that 
remains true to our commitment to an open society and that welcomes 
legitimate immigrants and refugees, while concentrating our resources 
on identification of potential terrorists and prevention of their entry 
into the United States.

Setting Priorities
    We recommend that homeland security assistance should be based 
strictly on an assessment of risks and vulnerabilities. Now, in 2004, 
Washington, D.C., and New York City are certainly at the top of any 
such list.
    We understand the contention that every state and city needs to 
have some minimum infrastructure for emergency response. But federal 
homeland security assistance should not remain a program for general 
revenue sharing. It should supplement state and local resources based 
on the risks or vulnerabilities that merit additional support. Congress 
should not use this money as a pork barrel.

Command, Control, and Communications
    The 9/11 attacks showed that even the most vigorous emergency 
response capabilities can be overwhelmed if an attack is large enough. 
We recommend that emergency response agencies nationwide should adopt 
the Incident Command System (ICS). When multiple agencies or multiple 
jurisdictions are involved, they should adopt a unified command. Both 
are proven frameworks for emergency response.
    We strongly support the decision that federal homeland security 
funding will be contingent, as of October 1, 2004, upon the adoption 
and regular use of ICS and unified command procedures. In the future, 
the Department of Homeland Security should consider making funding 
contingent on aggressive and realistic training in accordance with ICS 
and unified command procedures.
    The inability to communicate was a critical element at the World 
Trade Center, Pentagon, and Pennsylvania crash sites, where multiple 
agencies and multiple jurisdictions responded. The occurrence of this 
problem at three very different sites is strong evidence that 
compatible and adequate communications among public safety 
organizations at the local, state, and federal levels remains an 
important problem.
    Congress should support pending legislation which provides for the 
expedited and increased assignment of radio spectrum for public safety 
purposes. Furthermore, high-risk urban areas such as New York City and 
Washington, D.C., should establish signal corps units to ensure 
communications connectivity between and among civilian authorities, 
local first responders, and the National Guard. Federal funding of such 
units should be given high priority by Congress.

Private-Sector Preparedness
    The private sector controls 85 percent of the critical 
infrastructure of the United States. The Department of Homeland 
Security's mandate includes working with the private sector to ensure 
preparedness.
    Preparedness in the private sector and public sector for rescue, 
restart, and recovery of operations should include (1) a plan for 
evacuation, (2) adequate communications capabilities, and (3) a plan 
for continuity of operations. As we examined the emergency response to 
9/11, witness after witness told us that, despite 9/11, the private 
sector remains largely unprepared for a terrorist attack. We were also 
advised that the lack of a widely embraced private-sector preparedness 
standard was a principal contributing factor to this lack of 
preparedness.
    The Commission therefore endorses the American National Standard 
Institute's recommended standard for private preparedness. We were 
encouraged by Secretary Tom Ridge's praise of the standard, and urge 
the Department of Homeland Security to promote its adoption.
    We also encourage the insurance and credit-rating industries to 
look closely at a company's compliance with the ANSI standard in 
assessing its insurability and creditworthiness. We believe that 
compliance with the standard should define the standard of care owed by 
a company to its employees and the public for legal purposes.
    Private-sector preparedness, we believe, is not a luxury; it is a 
cost of doing business in the post-9/11 world. If we ignore it, the 
potential costs in lives, money, and national security will be 
inestimable.

Closing Comments
    Mr. Chairman, we believe the recommendations we have presented this 
morning--as well as the many other recommendations we have made on 
foreign policy, public diplomacy, and transportation security--can make 
a significant difference in making America safer and more secure.
    We also recommend reforms in the structure of the Executive branch 
and the Congress. We believe that organizational reforms, in the 
absence of implementing the other reforms and recommendations in our 
report, will have significantly less value than the value of these 
reforms as a complete package.
    In short, while we welcome each step toward implementation of our 
recommendations, no one should be mistaken in believing that 
organizational reforms alone can address the current terrorist threat 
we face.
    We are gratified by the rapid response of the White House to our 
recommendations. We welcome the President's support for a National 
Intelligence Director, and a National Counterterrorism Center. We 
welcome the support of Senator Kerry.
    We look forward to working with you on our recommendations.
    We should seize this historic opportunity and move expeditiously. 
With your counsel and direction, we believe that the nation can, and 
will, make wise choices.
    We would be pleased to respond to your questions.

    Chairman Cox. I thank you both for your excellent 
statements.
    I would like to begin with the point that Lee Hamilton has 
just made, that organizational changes will not be enough--your 
report makes this very, very clear--unless we also address the 
deep-rooted cultural resistance to sharing that is shot through 
the executive branch. Your report states that, quote, ``The 
biggest impediment to all-source analysis is the human or 
systemic resistance to sharing information.''
    I want to ask you whether or not one of the highest 
purposes, therefore, to which a National Intelligence Director 
might be addressed is enforced sharing. Might we not consider 
that the National Intelligence Director have as his or her 
highest order of business the enforced sharing of information 
across jurisdictional lines?
    You mentioned, Governor Kean, the Markle report, which you 
have also drawn attention to in your Commission report. It is 
something that we have focused on in this committee. We must 
move, in my view, I agree completely, to a trusted information 
network along the lines of the Markle commission has proposed 
because agency-owned databases have to be made accessible 
across agency lines.
    That is a step beyond the TTIC concepts. Might this not be 
something that the National Intelligence Director would be 
tasked with enforcing?
    On the other side of this coin, I would like you to address 
concerns that a National Intelligence Director, to the extent 
he or she has programmatic responsibility, might homogenize the 
requirements that are currently in place across the 
Intelligence Community.
    As you know, we employ enough people in the Intelligence 
Community to populate a midsize U.S. city. There are 15 
separate intelligence agencies, each with their own unique 
capabilities and missions, each of those critical to our 
national security. Currently, our chief national security 
priority is fighting terrorism, but if history is any guide, we 
will in the future at some point in the indefinite future face 
a war between nations. And one of the highest purposes of 
intelligence is to forestall conflict between nations.
    What can we do to make sure that we don't dilute the 
positions on the field played by each of these intelligence 
agencies, to make sure that by funneling everything through a 
single National Intelligence Director we don't--to make sure 
that we maintain the distinct purposes of each of these 15 
agencies in our Intelligence Community.
    Separately, from NID, I would like you to address the 
question of the National Counterterrorism Center, in specifics, 
its relationship to the Department of Homeland Security. As you 
know, Congress created within the Department of Homeland 
Security the Information Analysis and Infrastructure Protection 
directorate with the purpose of fusing both domestic and 
foreign intelligence and then disseminating that to State and 
local government and the private sector. One of the reasons, 
one of the several reasons that CIA was not given this function 
is that there is significant reach into our local communities, 
into the domestic United States, into the private sector beyond 
anything that we have asked CIA to do in the past; and we have 
abiding civil liberties concerns with breaching those walls 
that have been erected in the past for a very good purpose.
    The Department of Homeland Security now having been created 
for that purpose, TTIC now having been created separately from 
it outside the department, we are now faced with a proposal for 
a National Counterterrorism Center. Will it subsume TTIC? Will 
it subsume IAIP? Will it move its analysis directly to State, 
local, and private-sector entities?
    So if you would please address both the National 
Intelligence Director and the National Counterterrorism Center 
proposals and recommendations with those questions in mind, I 
would appreciate it.
    Mr. Hamilton. That is a very formidable list you have us, 
Mr. Chairman. On the first point, you are absolutely right. We 
think that someone has to enforce sharing and that is a 
principal role of the national intelligence director. You have 
a lot of marvelous groups out here in the intelligence 
community who do very good work. The intelligence community is 
organized basically on the method of collection. And they do an 
excellent job in developing information through their 
particular means of collection. What does not happen is that 
intelligence community agencies share that information and our 
analysis of 9/11 was that a principal cause of 9/11 was because 
the intelligence agencies did not share. You have to find some 
way to smash the stovepipes.
    And I think that can be done--has to be done by someone 
above them and therefore, the national intelligence director 
would have that role and it is a critically important role as 
we understand it. You simply got to get a better flow of 
intelligence information across all of the intelligence 
agencies and make that information available, more available 
than it is--has been in the past. I think some progress has 
been made here since 9/11. I know a lot of dedicated patriotic 
officials are trying to do a better job of it, but the 
organization is standing in the way of the sharing.
    Now the second point you raised with regard to homogeneity 
of intelligence is likewise an enormously significant question 
and one that we wrestle with a great deal. We do not believe 
that combining the intelligence agencies under one official 
undermines competitive analysis. Indeed, we want to encourage 
competitive analysis, and I think everybody does. It is a 
question of how best to put the structure together. I don't 
think anyone can claim that the current structure fosters tears 
competitive analysis. We just had the Senate report come out 
the other day on group think. And the whole idea there is that 
everybody is thinking the same way with regard to Iraq and you 
did not have competitive analysis. So it seems to me the status 
quo is not satisfactory with regard to the competitive 
analysis. Under our system, I want to emphasize that we have 
recommended not all of the analysis would fall under the 
director. The State Department would still have the INR. The 
Treasury would still have their intelligence. The Energy 
Department would still have their intelligence. The Army, the 
Air Force, the Navy, the Marine Corps would all have their 
intelligence units.
    So the competitive analysis situation is very lively and 
viable. And the other point I would want to make here is that 
the focus we put on open source information, indeed we make it 
a special part of the national counterterrorism center, calls 
for the development of a new office or agency to collect and 
analyze intelligence that is available on the open source. I 
know that kind of runs counter to what you think with regard to 
intelligence agencies, but if you look back on 9/11, the fact 
of the matter is that almost all of the information that was 
available was available to all of us. All you had to do was 
read the newspaper. The problem was we just didn't put it 
together, none of us put it together, or at least very, very 
few of us put it together. So open source analysis is important 
and will help competition.
    So we don't see any reduction of competitive analysis under 
our plan. We think even more. And we also would mention that 
very same objection was made to Goldwater-Nichols prior to that 
being brought into effect. We think our military is the best in 
the world today. We think it performs far better than ever 
because of the joint command system, and we believe that the 
intelligence community will perform better with joint mission 
centers.
    The final point you made with regard to the NCTC, its 
relationship to the DHS, let me just say that the there are two 
parts of our organizational chart. I don't know if you have 
that in front of you. It perhaps would be helpful if we did 
have it, the DHS, the Department of Homeland Security, is very 
much a part of the national intelligence centers. And they sit 
on the agency or the board where you have the deputy national 
intelligence director, who oversees homeland security. There 
are three deputies to the national intelligence director. One 
relates to the foreign field. That is CIA clandestine services. 
The other relates to defense. That is NSA, NGA, NRO. And the 
third relates to homeland security or homeland intelligence and 
that is where the tie would be to DHS. We think that TTIC is 
the right concept, but it needs to be strengthened.
    Mr. Kean. I would add just very little to that except that 
we believe our proposal will strengthen analysis and enhance 
competitive analysis, right now viewed as marginalized from 
some of the agencies. And it can have dire consequences. An 
example, easy example of not sharing information is when we 
found Moussaoui. The FBI identified him as the guy trying to 
learn how to fly jumbo jets and not much else. That information 
was gathered by the FBI. It got to the CIA. It went right up to 
the director of the CIA. The director of the CIA said that is 
an FBI matter, and so he ignored it. It never got to the FBI. 
If there was at that point a counterterrorism center, that kind 
of information would have surfaced and people would have shared 
information and we believe there would have been fairly prompt 
action. And of course, there was no action on this before 9/11.
    Mr. Hamilton. You mentioned, Mr. Chairman you mentioned 
specifically and I neglected to respond to it, what happens to 
IAIP, the information analysis and infrastructure protection 
agency within the Department within the homeland security, the 
answer is under our proposal, the locus of analysis moves to 
the national counterterrorism center, but IAIP continues to 
exist and continues to support the Department requirements, 
infrastructure protection, support to State and local 
authorities, but the overall analysis moves to the national 
center.
    Chairman Cox. I thank you. We have a great deal more to 
delve into on these subjects, but my time has expired and I 
want to move this along, we are going to be operating on a 
strict five-minute rule to give members who travelled great 
distances to be here, the opportunity to ask their questions. 
And I now recognize Mr. Turner for his questions.
    Mr. Turner. Thank you, Mr. Chairman. Governor Kean, in your 
statement, you say, and I am looking at it here, we believe the 
President needs to lead a government-wide effort to bring the 
major national security institutions into the information 
revolution. And you also say further down in your statement, 
only presidential leadership can develop the necessary 
government-wide concepts and standards. And I hope we don't 
miss that message, because as I have reviewed the efforts to 
bring about an integrated information sharing system, it is 
clear to me that the Congress has made repeated efforts to 
accomplish that. We have passed, as Lee Hamilton said, four 
separate laws mandating an interoperable border security 
system. Back in 2000, Congress created an independent 
commission appointed by the Attorney General to report on how 
border agencies could efficiently and effectively carry out the 
mission of creating an integrated collection and data sharing 
system, including an integrated entry and exit system which was 
mandated by the Congress in 1996. It seems that this law 
creating this independent commission followed 4 years of costly 
delays at the former INS when they failed to develop such an 
integrated entry exit system. Congress authorized the task 
force that was created. It authorized funding for fiscal years 
2001 through 2008. In the first report of that Commission 
issued in December, 2002, the task force included an entire 
chapter on subjects that the task force would continue to 
research through 2003 and 2004, which included the development 
of an interoperable entry exit border system.
    In December of 2002, Attorney General Ashcroft renewed the 
task force charge to study this issue, provided $5.6 million to 
do it and assigned seven new staff divisions to accomplish it. 
And among the most significant efforts of this task force was 
to employ a group of eight scientists from the Los Alamos labs 
to study the 50 major border IT systems that are used in our 
government and to make recommendations. And when they issued 
their report in December of 2003, which, by the way, was on the 
eve of the implementation of this new U.S. VISIT program, these 
Los Alamos scientists stated that most of the existing border 
security systems could be readily integrated into an 
interoperable network so that one query could search numerous 
data bases simultaneously. They cautioned that the underlying 
technical infrastructure at the borders needed to be replaced 
with a more modern foundation in order to achieve 
interoperability.
    It seems clear to me--oh, by the way, this task force was 
dismissed by the Department of Homeland Security after the task 
force warned, in its December 2003 report, that entry-exit U.S. 
VISIT is a critical component of the broader DHS strategy and 
any system that is designed or perceived as a stand alone 
system simply would not fit into a post-September 2001 world. 
The report went on to recommend an independent evaluation of 
U.S. VISIT. It seems very clear that this task force suspected 
that we were once again building another stovepipe. And it 
comes back down to your initial statement that I read when I 
began my question and that is, it takes presidential leadership 
to develop the necessary government-wide concepts and standards 
to have an interoperable system.
    So I ask each of you if you were advising the President 
this morning and he were to say, yes, I will call in all the 
relevant players, the Cabinet secretaries and I will try to 
find out why after 3 years, we haven't created this 
interoperability that is so critical to preventing another 9/
11, I would like you, based on your experience, to tell me what 
kind of excuses would we get from the relevant players for not 
moving forward more expeditiously to solve this problem? Where 
is the problem? You say it is presidential leadership. But even 
if the President were to lead, what kind of excuses would he 
get for this problem not being solved today?
    Mr. Hamilton. Well, first excuse would be need to know, I 
believe, because that is so embedded in our intelligence 
community today and we don't mean to dismiss that. That can be 
very important in protecting sources and methods. So you have 
to get a balance here. You have to get a balance on need to 
know on the one hand and need to share on the other. But the 
way we produce our intelligence in each of these areas, HUMINT 
over here, satellites over here, interceptions over here and 
other means, they all kind of hanging on to that information. 
And because the need to know philosophy is so deeply embedded 
in the intelligence community, they hang onto it. And they say, 
we are the only ones that really have to know this information. 
Now that is understandable and it probably historically has 
validity to it, but we are in a different world now with 
terrorism. And we think that you have to elevate the need to 
share up to the need to know and maybe the balance has to tip a 
little towards need to share because it was precisely the lack 
of sharing of information that Tom has cited just a moment ago 
that created the circumstances that permitted 9/11 to occur. In 
addition to this, as we say in our report, there is this very 
strong urge, which every one of you has countered to 
overclassify. Look, a document becomes secret before a person 
has the authority to classify or not classify. He or she looks 
at that document. There is no incentive for that person to make 
it public. The incentive is to classify it and protect himself 
from the possibility of the information getting out and causing 
a problem, so they stamp it secret. And we pile up enormous 
amounts of information, warehouses of information that are 
secret because of the incentives are all on the side of 
classification.
    Now this is a problem we think that no agency can deal 
with, no agency can solve this problem. It has to be done above 
an agency. And it has some very tough problems in it. There are 
technical problems, there are legal problems, there are 
political problems. And I think only the President can resolve 
those matters and has to resolve them, I believe, or you will 
not get the kind of information rights management that we think 
is necessary to protect ourselves.
    Chairman Cox. The gentlelady from Washington is recognized 
for her questions.
    Ms. Dunn. Thank you, Mr. Chairman. Congressman Hamilton, 12 
years ago, as you may recall, you and I served together on the 
joint committee for the organization of Congress. Our report 
included specific recommendations on consolidation within the 
committee structure. You devote some of your report to this 
subject, specifically noting that congressional oversight for 
intelligence and counterterrorism is dysfunctional. My question 
to you and certainly Governor Kean, please jump in because you 
have been through this thing for the past many months, and we 
are very intrigued to hear the results of your experience on 
this, if you were in charge of organizing Congress to provide 
particular focus to this new threat of terrorism, where would 
you start?
    Would you, for example, divide the responsibilities for 
oversight and authorization in appropriations? What would you 
do with the terrorist watchlist, which is not currently under 
the aegis of our Select Committee on Homeland Security? What 
kind of a committee would you see happening? Would it be a 
joint committee between the House and the Senate? And I would 
suggest to you that just as you see what we are going through 
today with such a massive committee, it is hard for us to bore 
in and spend the time we need to spend to get precise answers 
and to follow up. It is very challenging. But the goal of all 
of us is to provide focus. I think, for example, that if 
something else does happen here in the United States, people 
will turn to Congress and say they had the chance to do the 
best job they could ever do to put such an oversight committee 
together. And so I am asking for your experience and for your 
thoughts as you have heard from other groups you have testified 
before and from the people who testified before your committee 
in the many, many hearings you have held, what is your 
suggestion to do with Congress?
    Mr. Kean. Well, we have general, what we have said has got 
to be consolidated. The importance came to me and I got this 
from the outside in that in this whole area, normally in areas 
other than intelligence, there is a lot of oversight from the 
press and from the public. People press in. People want 
questions answered. When you get into the counterterrorism 
area, so much of it is secret that that whole area doesn't 
exist. So you depend much more heavily on the Congress to do 
the oversight than you do than in almost any other area of 
government. And if the Congress can't get it done, nobody gets 
it done. If these agencies are allowed to go their own way or 
make use of multiple jurisdictions or not answer the questions 
properly from the Congress, then there is no oversight at all.
    And we suggest in the report that--particularly homeland 
security where there is mention, they are responsible to 88 
different committees. That doesn't mean oversight at all. What 
it does mean is that people who should be spending their time 
protecting us all are spending an enormous amount of time of 
time testifying before a whole vast majority of committees. We 
suggest consolidating homeland security into a committee in the 
House and committee in the Senate. We suggested intelligence 
doing something radical and that is taking the authorization 
and budget functions and combining them into one committee 
because we sense the intelligence committee without any budget 
authority doesn't really have the clout with the intelligence 
community that they need to do their job.
    So it is moving in those directions so there is more 
concentrated oversight that can really understand these 
organizations, which are very complicated. Lee Hamilton knows 
more about this than I will ever learn in a lifetime, but he 
tells me that in the intelligence area, it is 4 years, 6 years 
before you really understand these agencies and are really able 
to ask the intelligent questions. So it is a question of 
consolidation. More authority for the committees.
    Mr. Hamilton. I think Tom has made the essential points. I 
must say, I have considerable sympathy for the Congress in 
putting this together, because Congresswoman Dunn, you and I 
served on the Joint Reform Committee and I might say that when 
the Democrats controlled the Congress, we weren't all that 
successful in making these reforms. It is very tough to do. I 
appreciate that. Very difficult to do, because when you are 
talking about reform of committee jurisdiction, you are talking 
about allocation of power, and power is the name of the game. 
Now what we are saying to you here is that this threat of 
terrorism is so urgent, so long-term, so difficult that not 
only must we do some reorganization of the executive branch, we 
also have to reorganize the Congress as well. And I will be 
quick to admit that it is a lot easier to say this from outside 
the body than from inside the body.
    But I think you folks are at a crunch point. And I think 
you are exactly right when you say that if another incident 
were to happen and the Congress had done nothing to put its own 
house in order, I think the institution, and maybe some of you 
individually would be heavily criticized for not acting. In 
other words, I think there is a political risk here. I may be 
wrong about that. I don't think so. I certainly don't think 
that the particular suggestions we made are carved in granite. 
You have to analyze the situation, understand the internal 
dynamics better than I do and you have to figure it out, but 
you have to get your house in order so you can have robust 
oversight of the Department of Homeland Security.
    The Department of Homeland Security needs your advice and 
counsel. And they want to be able to come--as Secretary Ridge 
said to us, I want to be able to come to one body of expert 
members of the Congress and lay out my problems to them and 
tell them what we have done and tell them what we haven't done 
and get their advice and counsel, rather than going to 88 
subcommittees, which Tom mentioned, 88 subcommittees. That 
really is absurd. And it is not fair, it simply is not fair to 
the executive branch to make them do that, I don't believe.
    So we say OK, we have to have robust reform. Let me tell 
you what I did in the Senate. I was making a presentation on 
this for the Senate not long ago, and I asked them how long did 
you spend in the appropriations committee on review of the 
intelligence budget? And one Senator spoke up and said 10 
minutes. The defense subcommittee appropriations in the United 
States Senate spent 10 minutes reviewing what we all know to be 
a $40 billion budget. I used that illustration in another group 
of senators a day or two later. And one Senator got up and say 
Hamilton, you are all wrong, you greatly exaggerated it. It was 
5 minutes. Now nobody can say that is robust oversight. And it 
is a very, very serious matter. So you work it out. We have 
made our suggestions on it. You know this place better than I 
know it, now.
    But I think it is important for the Congress to get itself 
in shape so that it can perform one of its constitutional 
duties, which is oversight.
    Chairman Cox. The gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. And let me welcome 
the two gentlemen here this morning. Let me join my colleague, 
Ms. Dunn, in saying that the notion that we have all these 
jurisdictional issues before us is a real problem and it is 
both--it is a bipartisan problem. Mr. Hamilton, you are 
absolutely correct. This institution loves power, individuals 
love power and the homeland security issue is really one that 
should not be about power, but one about the people and how we 
can secure the homeland.
    So I will join you and other colleagues who testified 
before this committee that we ought to have a standing 
committee with all the jurisdictional authorities right within 
the committee. So I appreciate your comments on that respect. 
But there are some other issues associated with your report. 
One, it has to do with transportation. Many individuals in the 
public would like for people to try to prioritize 
transportation problems. Did you all look at transportation and 
try to give it a pecking order in terms of security or what did 
you do?
    Mr. Kean. I don't think we gave it a pecking order, but 
what we did was identify the various problems that had to be 
addressed in the transportation and security areas. And we are 
spending most of the money now on air safety, but we recognize 
that the transportation of containers, transportation of people 
via rail or subway, there are a number of other areas we have 
got to give if not equal attention to at least more attention 
to than we are giving them right now.
    Mr. Hamilton. Mr. Thompson, I think we look quite a bit at 
the transportation sector and there are so many possible 
recommendations that you could make there. We did not try to do 
that. But what we did say is that you have to plan. We have 
been doing is planning on planning for the last 3 years. We 
have got to put into place plans and it has to be done 
urgently. A comprehensive plan for the entire transportation 
system that Tom mentioned, aviation, rail, all the rest of it, 
and likewise, sector plans so that you have some way of 
measuring what you have done, you know what your goals are, you 
establish your priorities, you do your budgeting and all the 
things that are necessary in good planning, we are not there 
yet.
    We heard yesterday from the assistant secretary, Asa 
Hutchinson. We are moving forward on this. And I think some of 
these plans will be ready by the end of the year. We think it 
is terribly important to have integrated security plans for all 
of these modes of transportation. And the other things we 
mentioned were with regard to aviation security was to make 
sure you had layers of security, not just one checkpoint. What 
happened with the 9/11 terrorists was there was no layered 
security.
    They had to get by one principal problem and that was the 
check-in. And incidentally, a number of them were screened 
twice, but we didn't stop them. But I think everybody 
acknowledges that in order to have an effective security 
system, you have to have layers of checks and so we emphasized 
that. We put a lot of emphasis on explosives, because we think 
that is a very major problem in transportation security today 
and recommended among other things, for example, that every 
airplane have an explosive proof container on it and very few 
airplanes have that today.
    So those are some of the comments we made with regard to 
aviation security and rail security. But we didn't try to deal 
with it comprehensively but picked out two, three things that 
we thought were especially important.
    Chairman Cox. The gentleman from Texas, Mr. Smith. If the 
gentleman would suspend in order to permit time for all 
members' questions, I would ask that both members and our 
witnesses observe the green, amber and red lights that are 
there for your convenience. The gentleman from Texas.
    Mr. Smith. Chairman Kean, my first question is addressed to 
you and this goes to the statement on page 1 of your testimony 
today where you say the failure to share information cost us 
dearly. Today as we sit here, does ICE within the Homeland 
Security Department, the FBI and the CIA have the computer 
interface capability to exchange information, not whether they 
should exchange any and all information, but do they have the 
ability to exchange information?
    Mr. Kean. No.
    Mr. Smith. Do you have any idea when they will have that 
ability?
    Mr. Kean. No. We don't know what the timetable is. We know 
they are working on it, but we have not been given a timetable.
    Mr. Smith. Mr. Hamilton, page 3 of your testimony suggests 
pretty strongly that if a previous administration had enforced 
the immigration laws then in effect, we might have stopped the 
terrorist attack from occurring. You specifically refer to a 
number of laws, including laws--one law passed in 1996, 
Immigration Reform Act, which called for a entry-exit system, 
called for standardized birth certificates, called for better 
scrutiny of student visas.
    And you give examples, in fact, there on page 3 of your 
testimony that pretty clearly implied that a majority of the 
terrorists might have been apprehended or at least not admitted 
had those and other laws been enforced. You then say that 
eventually in 2002, they were implemented or beginning to be 
implemented or enforced then. But we did have a terrorist 
attack in 1993. The basement of the World Trade Center was 
attacked. You are suggesting something pretty seriously.
    If the Clinton administration had enforced the 1996 law 
which was passed by the House by a 3-to-1 margin, and in the 
Senate by a 9-to-1 margin, we might have avoided the terrorist 
attack; is that right?
    Mr. Hamilton. We certainly say that more robust enforcement 
of routine immigration laws supported by better information 
might have made the difference. Tom and I have been very, very 
careful not to say that if this step or that step had been 
taken, it would have prevented 9/11. Causation is much too 
complex to draw that conclusion.
    Mr. Smith. You said might have stopped. That is a very 
astounding statement. And is there any good explanation as to 
why the previous administration didn't enforce a lot of these 
laws considering the overwhelming support in Congress and 
considering the wake-up call we had in 1993?
    Mr. Hamilton. Two administrations have not enforced the 
1996 law with regard to entry and exit systems.
    Mr. Smith. The current administration is enforcing that.
    Mr. Hamilton. I think our enforcement is better, and I 
agree with that, because we have learned a lot. Why didn't we 
enforce it back then, the reason is that none of us thought 
that this could happen. We just didn't expect it. And I think 
that made us all kind of lax probably in enforcement. What we 
are saying today--
    Mr. Smith. Let me interrupt you quickly. The 1996 bill was 
passed just a couple of years after the 1993 World Trade Center 
bombing. It seems to me that we were pretty much on notice that 
we should start enforcing immigration laws especially those 
that were passed by Congress. Is there any good explanation as 
to why we did not?
    Mr. Hamilton. I thought I just answered that. Any reason we 
why we did not enforce?
    Mr. Smith. 1993. We passed major legislation in 1996. It 
was ignored. I know we are talking in retrospect, but it seems 
to me that was a dangerous position.
    Mr. Hamilton. I think in retrospect, it is easy to see 
there should have been a much more robust enforcement of our 
immigration laws.
    Mr. Smith. Let me squeeze in one more question. The 
Commission relied upon an individual foreign national security 
advisor to provide the Commission with information as to 
whether the previous administration had--how they had handled 
the Al-Qa'ida terrorist threat. Don't you think there was some 
conflict of interest on relying upon a national security 
advisor with a previous administration to tell the committee 
whether or not the previous administration had, in fact, 
handled the Al-Qa'ida threat well or no? Wasn't there some 
conflict of interest relying on a biased source there?
    Mr. Hamilton. We took the testimony of hundreds of people 
and I don't think we relied on anyone. We tried to sort through 
all of it. And we certainly gave the national security advisors 
of both administrations ample opportunity to defend their 
administrations and they both did a very good job of it.
    Mr. Smith. My time is up. Thank you, Mr. Chairman.
    Mr. Pascrell. Mr. Chairman, point of inquiry?
    Chairman Cox. Gentleman of New Jersey.
    Mr. Pascrell. I must say after that line of questioning--
    Chairman Cox. If the gentleman is not stating a procedural 
inquiry, the gentleman is going to recognize the gentlelady 
from California.
    Mr. Pascrell. We have not had time for questions at our end 
many, many times on both sides. And I think that the line of 
questioning is improper and does not sit well--with the 
findings of this--
    Chairman Cox. The gentleman will suspend. The gentleman 
will suspend.
    Mr. Pascrell. You can suspend all you want.
    Chairman Cox. The Chair will take this opportunity to 
announce that in order to permit time for all members to ask 
questions, we are going to proceed in the order of questioning 
for this panel that we have been following until 12:15 when our 
panel members must leave, and then the testimony of the second 
panel. We will continue in that order without interruption. So 
we will not resume with questions from the chairman and ranking 
member until every member has had an opportunity to ask 
questions. The gentlelady from California is recognized for her 
questions.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you again, 
gentlemen. I had the pleasure of questioning you last week in 
the defense committee. I have two questions, one for Governor 
Kean and one for my former colleague and let me say them both. 
The first one would be to Governor Kean. It is about the whole 
issue that you wrote about with respect to the relationship of 
strengthening and in some cases repairing our relationships 
with other countries. In your report, you recommend the 
formation of a flexible contact group of leading coalition 
governments. Can you elaborate more on what you meant by this; 
how do you see this contact group functioning; what would be 
its relationship to other multinational groups, like NATO, for 
example?
    And then to my former colleague, great again to see you. If 
you take a look over there on the majority side right after Ms. 
Dunn, you will see a lot of empty seats. Those are all chairmen 
of other committees. I also sit on the subcommittee of this 
group, which is the rules subcommittee, the one tasked with 
trying to figure out how we make this or if we make this a real 
standing committee with real jurisdictional power. When we had 
testimony before that rules subcommittee, most of those 
chairmen said make this go away. Comes back to that power 
struggle that you were talking about.
    So I would like to ask you, after all of the experience 
that you have had and the changes that you were able to 
construct within the Congress, how do we get these gentlemen to 
sit here and have a real discussion about not having 88 
subcommittees for the homeland security agency to report before 
the Congress?
    Mr. Kean. I guess I will start. Our recommendation was that 
there should be some sort of a forum. We have no forum now for 
talking with the countries of the Arab world. We meet a number 
of times a year with the European union and we have an 
organization to discuss with them. The Asian countries and we 
have a forum to discuss things with them. If you take the 
countries of the Muslim world, there is no forum of that kind 
and there is no occasion to get together with them to share our 
thoughts and share our differences and get to know each other 
in that kind of a relationship. And so the point of that 
recommendation is just to suggest that such a forum be created. 
And that we as a country, therefore, would have the ability to 
have the same kind of conversations with that part of the world 
as we do with other parts of the world.
    Mr. Hamilton. I am not sure I can be helpful to you in 
trying to figure out the best way to deal with your very real 
problems of jurisdiction, except I would recommend to you the 
Tom Kean approach. Tom deserves much of the credit for the fact 
that we had a consensus report. And it is worth looking at why 
we were able to reach it and I think it may have some lessons 
for the Congress. The first rule was that we are going to agree 
on the facts. It is amazing how often we disagree on facts. And 
the Commission again and again--somebody would say, what is the 
fact, what is the fact here? And we would kind of suspend 
everything in the work of the Commission until we agreed upon 
the fact.
    So you have to figure out what the problems are and what 
the facts are. And then if you can get an agreement on the 
facts, it becomes not a cinch, but it becomes easier to get 
agreement on recommendations. But it can only be done with 
extended dialogue and deliberation. One of the things that 
really boaters me about the Congress today, looking at it from 
my posture is how difficult it is for you to deliberate, and 
that really is what the body is all about or should be, 
deliberation. But your schedules are so hectic and the time 
that you have to sit down with your colleagues and work through 
difficult problems is limited. I think one of the things you 
really have to do is to figure out how to engage in dialog with 
one another. And so much of the activity on the floor of the 
House, you are just kind of reading speeches and making 
speeches past one another. That is not deliberation. That is 
not dialog. That is not the way the body is supposed to work. 
And so I have that advice for you. And it all came about 
because of the remarkable leadership that Tom Kean showed in 
bringing a very disparate group of commissioners together. It 
is a hard business and it is tough to do and takes a lot of 
time.
    Chairman Cox. The gentleman from Connecticut, Mr. Shays.
    Mr. Shays. Thank you very much, Mr. Chairman. I just want 
to say to both of you as the chairman and vice-chairman, I am 
in awe of the work you did on the 9/11 Commission. I am 
absolutely in awe of it. I am grateful that you made it 
unanimous and you didn't have to work hard to do that part. I 
mean, you had to work hard to make sure it didn't become 
partisan. And it is very clear that you put criticism on 
previous administrations, the present, Congress, our oversight 
and yet, you did it in a way that I thought was helpful in our 
getting and moving forward.
    I believe some of this can be done in executive order, 
regulation, law and House and Senate rules. And I just want to 
say publicly that I will not, and if I am reelected and in a 
position to vote on the rules, I am not going to vote for any 
House rule that doesn't include a permanent committee on 
Department of Homeland Security, for instance. I just simply 
will vote against any rule. I will not vote for a rule that 
places our country in jeopardy because we don't have the good 
sense to make this a permanent committee.
    And I think my colleague is correct that when she points 
out that the people who aren't here today are the Chairmen of 
the other committees. It is outrageous. We have to put this 
aside and do what is right and have a permanent committee. Lots 
of things to talk about with the limited time I have, I would 
like you both to address the whole issue of overclassification. 
And I would like you to just tell me when you see what is the 
incentive for change? I mean, we all know that we have too much 
classification. We read documents. And I think, Governor Kean, 
you told me that you just were amazed at the fairly average 
stuff you read that was classified.
    So what is the incentive, though, that we put in to change 
that? We are going to have a hearing, my subcommittee is going 
to have a hearing on this next week, called too many secrets, 
overclassification, it is a barrier to information sharing. But 
I don't know what the incentive is. Tell me what the incentive 
is so we don't have so much overclassification?
    Mr. Kean. It is hard. I will tell you, Congressman, you are 
absolutely right, coming from the outside, it just absolutely 
amazed and appalled me the amount of information I read that 
was stamped, classified, top secret, all these stamps on it and 
then you would read it and it wasn't anything you hadn't read 
in the newspapers. And I was asking one of my watches that we 
used to call them and I said, why would 300 pages of it--why is 
it classified? And he said because he didn't know it was true 
when he read it before.
    That is no answer. That is no answer. I think this 
overclassification is hurting us terribly right now. The public 
is not an enemy, it is an ally in this war against terrorism. 
The more they know, the more they can help us. The more local 
law enforcement knows, the more they can help us. I don't know 
whether you have somebody with all the incentives to declassify 
that you now have to classify. What Congressman Hamilton said 
before was absolutely right. If you have a document, you get in 
no trouble for classifying it secret. You might get in trouble 
if you don't. So everything is stamped secret. You have to 
somehow put the motivation on somebody to look at all this 
stuff and say why shouldn't the American people have this 
information? Why shouldn't it be in the paper? Wouldn't it help 
if it was? Knowledge is power.
    Mr. Shays. It would strike me that if you didn't classify 
as much, you would then know what are those classified pieces 
of information that have to be shared from one agency to 
another. So it seems to me like a huge issue. I have been 
wrestling with what the incentives are.
    Mr. Hamilton.
    Mr. Hamilton. Congressman Shays, I am immensely pleased to 
learn that you are having a hearing in this area because it 
really does need to be explored and we need to get some more 
ideas into it. And what I am going to suggest may not be too 
palatable to this group. But my experience is the Congress has 
just defaulted on the question of classification, just been too 
timid and has said in effect, Mr. President, you deal with it. 
The President today--and look, presidents have many things on 
their plate. Presidents of the United States do not sit around 
stamping documents secret. They have the authority, but they 
delegate that authority all over the place so that every 
department of government you go into, they have classifiers 
whose job it is to stamp documents secret. And believe you me, 
they have got a good stamp.
    I think the Congress has to assert itself and begin to find 
ways and means of setting standards, for example, for when a 
document should be classified and when it should not be 
classified. Now I don't suggest that is easy. It will be a 
tough task. It hadn't been done before. But I think the 
tumidity of the Congress, the willingness just to defer to the 
President, whoever the President is, the authority to stamp--to 
delegate this authority without any real review by the Congress 
is a major default of responsibility.
    So I will be following your hearings. I would like to 
hear--we did not have time, I guess, maybe that is not a very 
good excuse--we did not get into the question of what 
incentives, the one you are raising--it is a hard one to 
answer--I would like to see what you come up with.
    Chairman Cox. The gentleman's time has expired. I will 
interject at this point that the comments that have been made 
about chairmen of other committees should be clarified by 
observing that the questioner himself is the vice chairman of 
the Full Committee on Government Reform and Oversight and top 
representative of that committee on the select panel. He is, of 
course, here today and has endorsed the concept of creating a 
permanent homeland security committee. Likewise, the chairman 
of the Committee on Intelligence who, with his ranking member, 
has strongly endorsed a permanent--
    Mr. DeFazio. Mr. Chairman, we are running out of time. You 
said there would be no extraneous statements. Could we move on? 
We are not going to have a chance to ask questions.
    Chairman Cox. I appreciate the gentleman. I think we wish 
to point out that the chairman of the Intelligence Committee 
has recused himself from today's hearing because he has been 
nominated as Director of Central Intelligence, and likewise, 
the chairman of the Committee on Armed Services strongly 
supports the recommendations of this commission. The gentleman 
from the State of Washington, Mr. Dicks is recognized.
    Mr. Dicks. I, too, want to thank the chairman and vice-
chairman for their great work for the country--
    Chairman Cox. Would the gentleman yield for just a moment? 
I failed to recognize that Mr. Goodlatte, the chairman of the 
Committee on Agriculture is present.
    Mr. Dicks. I want to thank you for your great service and I 
know particularly Lee Hamilton chaired the intelligence 
committee. I served for 8 years on the Intelligence Committee. 
One of the things that Secretary Kissinger reminded us of 
yesterday was that one of the biggest breakdowns is not 
necessarily in the collection of the information, but in the 
assessment of that information and it in almost every one of 
these intelligence failures we have had, we have had the 
information.
    Either we have collected it through our national, technical 
means or we had information like that from the FBI field 
offices, but it was the failure of higher-ups who got that 
information to act upon it. When we think about this whole 
issue, we need to remember that. In many of these cases, we had 
the information. It is tragic, but we had it and we just didn't 
act on it. The group think, you know, like that which occurred 
going into the Egyptian-Israeli of 1973.
    Another classic example was right before Desert Storm and 
Desert Shield. The information was there. We saw the tanks 
being fueled, but the President was talking to leaders in the 
region and they said Saddam won't do it and he did it. And to 
President Bush's great commendation, he came out and said this 
wasn't an intelligence failure but a failure to act on the 
intelligence.
    But I think that is one thing we need to consider here. I 
think John Hamre has made an important point in his statement. 
Remember, this is the start of the debate. This is far too 
important a point on whether we create a national intelligence 
director and how that is done because you have the classic 
problem here. 80 percent of the intelligence budget is in the 
Defense Department. 20 percent is over at CIA. So how do you 
work out an arrangement so the Director of the Central 
Intelligence Agency, who has community-wide responsibility, can 
actually have authority over this budget? Hamre puts out a 
pretty good point.
    You could put the NRO, the NSA, NEMA and the interspacial 
group all together and put the intelligence director over that 
so you would have diversity and you would have the CIA and 
director of CIA. You would have the DIA over in the Defense 
Department and their services.
    So I think that deserves some consideration. Another idea 
here that we need to think about in trying to figure out a 
solution is there is a model where the head of the NRO, Peter 
Teets, is also the assistant secretary of the Air Force for 
science and space. You could have a model where the director of 
the Central Intelligence Agency would also be the deputy 
Secretary of Defense for intelligence. He would still have to 
work out his arrangement with the Secretary of Defense, but you 
could have then one person in charge of the entire intelligence 
community in terms of formulating the budget and the policy, 
but also he would have to coordinate with the Secretary of 
Defense, which is the situation that we have today.
    So there is some concern, I think, about if we create a new 
national intelligence director, then we are going to have to 
create a new bureaucracy and all the staff to support that 
person. And what does the Director of the Central Intelligence 
Agency do besides run the CIA as part of this operation? I like 
the idea of the center. I think it is good. But I make the 
point. All this discussion about information sharing and 
tearing down the stovepipes, we have done a lot of that work. A 
lot of these interagency centers can get the work done. But 
don't forget, it is the failure of assessment. That is where 
the real failures have occurred in our history. I just would 
make that point.
    Mr. Hamilton. Well, Congressman Dicks, the two articles 
that you referred to by former Secretary Kissinger and John 
Hamre, need to be looked and studied carefully because both are 
highly respected figures who have had a lot of experience in 
this field. Secretary Kissinger obviously is correct when he 
says we have got to get the assessments right. The question I 
raise about that is how can you possibly get the assessment 
right if you don't have accurate sharing? You have to have the 
sharing of the information so that the analyst is able to see 
what these various agencies of intelligence have done. You have 
to pool that information. You have to bring it together 
somewhere or you cannot get an accurate assessment.
    And that is what we are saying. We are saying we have to 
share that information and only then can the analysts have a 
chance of getting an accurate assessment. There is no quarrel 
with the idea that you have to put emphasis on assessment. I 
think he is exactly right in many respects. We have put most of 
our resources in intelligence on collection. And we collect so 
much data that we can't process it all.
    Mr. Dicks. That is true. As you well know, there is only a 
fraction of this information that is analyzed in real-time, and 
that is a major problem. The assessment thing has to be 
considered. I agree completely with you on the information 
sharing, and I think that is a great concept. But it is the 
assessment phase, getting the equipment and getting the 
information so you can analyze this information as much as 
possible in real-time and then having people who are smart 
enough to be able to conclude that something is happening and 
convince their superiors to act upon it. Don't forget that 
part.
    Chairman Cox. The gentleman from--
    Mr. Kean. May I say one comment? You are absolutely right 
on the assessment side. And we think the director of the CIA is 
going to have a full-time job rebuilding the CIA. It will take 
5 years to do that. We hope he can do it faster, but that is 
going to be a full-time job, getting diversity, language skills 
and getting the right people on board. So we think that is 
very, very important. And looking at the assessment, I will 
tell you, having read, I guess, the highest level briefings 
that were given to two presidents, I will say only as a citizen 
coming from the outside, I think our intelligence agencies 
failed two presidents.
    Neither president had the information that he needed to 
assess the situation properly and make correct decisions. So I 
think the one thing we cannot do is allow a lot of status quo 
to exist.
    Chairman Cox. The gentleman from Michigan, Mr. Camp.
    Mr. Camp. Thank you, Mr. Chairman, and thank you for your 
service in making our country safer. My question is this, you 
both referred to our porous borders and some of the things we 
have done to address that issue. Certainly creating the 
Department of Homeland Security is one of those things to 
secure our borders. There is this U.S. VISIT program. The 
administration is ahead of the congressionally-mandated 
schedule. But my question is this recent change. As you know, 
border protection could deport at airports and seaports people 
found illegally. Now that has been extended to those found 
within 100 miles of our border. It is a new responsibility of 
our border protection. Is that something you would agree with? 
Is that moving in the right direction in terms of trying to 
address our border issue?
    Mr. Hamilton. Mr. Camp, I am not clear on what change you 
are talking about.
    Mr. Camp. The law was that if someone was found within 100 
miles of our border, border patrol did not have the authority 
to deport people. However, if they were at a airport or seaport 
they were immediately deported to another country. There has 
been an administrative change allowing now inspectors at our 
borders to deport people who are found in this country 
illegally. Is that the sort of thing that would fit in with 
attempts to address our porous border?
    Mr. Hamilton. That is the so-called expedited removal 
program that was announced this week. That was announced after 
the Commission had completed its work. We do want to emphasize 
the need for terrorists' travel intelligence and operational 
strategy in this. And that step when I read it, I thought my 
reaction was positive to it. Of course it is implemented and 
makes all the difference, but it is a means of making a 
decision on site as I understand it, is that correct, to act?
    Mr. Camp. Yes, it is.
    Mr. Kean. It does give us an opportunity. Everybody who we 
catch who crosses the border on phony documents we shouldn't 
just send them back. We should get those documents, find out 
where those documents came from. Because if we can crack these 
illegal terrorist facilitators who are doing this work, we will 
go a long way to stopping the problem.
    So I think we should look at any of these people we catch 
as not just somebody but as an opportunity to learn more.
    Mr. Camp. My second question is on the issue of airline 
security and particularly the No-Fly Lists and attempting to 
compare every passenger list with comprehensive lists or 
terrorist lists. This has been done primarily by the airlines. 
Recently, there is a suggestion to move that to TSA. And I 
would like to get your comments. It would seem to me that if 
the more everyone knows, the safer we are, I don't see why the 
airlines should not have a role in that as well. But I would be 
interested in both of your comments in that area.
    Mr. Hamilton. One of the recommendations we made was that 
you have to have an improved No-Fly List and you have to have 
an improved automatic selectee list and that we ought not to 
delay the development of those while the argument goes on about 
the successor to the CAPS program.
    We believe the screening function should be performed by 
the TSA, not by the air carriers. It certainly has to utilize 
the set of terrorist watchlists, all of them, that we have that 
are maintained by the Federal Government; and air carriers 
should be required to supply information that is needed for the 
system.
    Mr. Camp. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Cox. The gentleman from Massachusetts, Mr. Frank.
    Mr. Frank. In your report you have a great deal about the 
FBI and quite thoughtfully note that there were past problems 
with the FBI in terms of getting into impingement on political 
freedom. And I was struck by the thoughtfulness with which you 
said that your recommendations--essentially, you rejected the 
notion that there should be a new agency that would take a big 
chunk out of the FBI but did say quite thoughtfully that you 
are expressing the hope that the FBI will be able to reform. We 
all share that hope.
    I must say that my hope in that regard was given a little 
bit of a jolt yesterday when I read the New York Times article 
by Eric Lichtblau headed ``FBI goes knocking for political 
troublemakers.'' FBI officials, it says, are urging agents to 
canvas their communities for information about planned 
disruptions aimed at the convention and other coming political 
events.
    Essentially what it says is that a significant number of 
FBI agents are questioning people about whether or not they 
know whether or not somebody is going to do something violent 
at the Republican convention. They had apparently done it with 
regard to the Democratic convention. The New York Times in 
today's editorial says, quite accurately, I believe, these 
heavy-handed inquiries are intimidating and they threaten to 
chill freedom of expression. They also appear to be a 
spectacularly poor use of limited law enforcement resources.
    You pay some attention, I was pleased to see, about privacy 
and civil liberties. I wonder if you have any reaction to this. 
I mean, the notion the FBI is out there asking people if they 
plan to do things, there is a troubling tendency here to take 
the doctrine of preemption, which seems to me controversial 
enough in the international area, and apply it domestically. It 
is none of the business of law enforcement in the United States 
to preempt people of what some might think are whacky political 
views and I might think because they might be about to do 
something.
    We have this new notion of free speech zones. Many of us 
had always thought that the free speech zone was called the 
United States of America, and efforts to kind of make it 
anything less than that were grave error.
    In your judgment--you spent a great deal of time on this--
is there any reason why we should be having the FBI going 
around anticipatorily asking people if they know anybody who 
plans to divert attention? Is the FBI that deep in extra agents 
that they got people with nothing else to do for the summer to 
go out and do this? I wonder if this in your mind raises the 
concern that it raises in mine.
    Let me read, in your report, on page 75, you note Attorney 
General Levi, who did great work when he was under Gerald Ford 
in this regard, tried to clean it up and then talked about 
Attorney General Smith's revision. But this is the key point: 
Smith's guidelines, like Levi's, took account of the reality 
that suspicion of, quote, terrorism like suspicion of, quote, 
subversion could lead to making individuals targets for 
investigation more because of their beliefs than because of 
their acts. I am wondering if you think have we gotten that out 
of our system? Is it coming back?
    Mr. Kean. I don't know the facts other than what you have 
read behind this particular case. What we do believe is that, 
as we try to protect ourselves, there is always the danger as 
we get into these new methods of protection that our civil 
liberties will be jeopardized; and we have recommended creating 
something that does not exist right now, which is a board 
within the executive branch to examine these various things 
where in cases like this are raised to actually look and see is 
this getting unnecessarily into the jeopardies of our--
    Mr. Frank. Thank you, Chairman Kean. I would hope very 
strongly that we would make that part of any report. I hope it 
will get the attention.
    Mr. Chairman, I ask unanimous consent to put into the 
record the New York Times article and the editorial.
    Chairman Cox. Without objection.
    [The information follows:]

               Copyright 2004 The New York Times Company

                           The New York Times

                         August 16, 2004 Monday

                          Correction Appended

                          Late Edition--Final

SECTION: Section A; Column 2; National Desk; Pg. 1

LENGTH: 1605 words

HEADLINE: F.B.I. Goes Knocking for Political Troublemakers

BYLINE: By ERIC LICHTBLAU

DATELINE: WASHINGTON, Aug. 15

BODY:

    The Federal Bureau of Investigation has been questioning political 
demonstrators across the country, and in rare cases even subpoenaing 
them, in an aggressive effort to forestall what officials say could be 
violent and disruptive protests at the Republican National Convention 
in New York.
    F.B.I. officials are urging agents to canvass their communities for 
information about planned disruptions aimed at the convention and other 
coming political events, and they say they have developed a list of 
people who they think may have information about possible violence. 
They say the inquiries, which began last month before the Democratic 
convention in Boston, are focused solely on possible crimes, not on 
dissent, at major political events.
    But some people contacted by the F.B.I. say they are mystified by 
the bureau's interest and felt harassed by questions about their 
political plans.
    ``The message I took from it,'' said Sarah Bardwell, 21, an intern 
at a Denver antiwar group who was visited by six investigators a few 
weeks ago, ``was that they were trying to intimidate us into not going 
to any protests and to let us know that, `hey, we're watching you.' ''
    The unusual initiative comes after the Justice Department, in a 
previously undisclosed legal opinion, gave its blessing to 
controversial tactics used last year by the F.B.I in urging local 
police departments to report suspicious activity at political and 
antiwar demonstrations to counterterrorism squads. The F.B.I. bulletins 
that relayed the request for help detailed tactics used by 
demonstrators--everything from violent resistance to Internet fund-
raising and recruitment.
    In an internal complaint, an F.B.I. employee charged that the 
bulletins improperly blurred the line between lawfully protected speech 
and illegal activity. But the Justice Department's Office of Legal 
Policy, in a five-page internal analysis obtained by The New York 
Times, disagreed.
    The office, which also made headlines in June in an opinion--since 
disavowed--that authorized the use of torture against terrorism 
suspects in some circumstances, said any First Amendment impact posed 
by the F.B.I.'s monitoring of the political protests was negligible and 
constitutional.
    The opinion said: ``Given the limited nature of such public 
monitoring, any possible 'chilling' effect caused by the bulletins 
would be quite minimal and substantially outweighed by the public 
interest in maintaining safety and order during large-scale 
demonstrations.''
    Those same concerns are now central to the vigorous efforts by the 
F.B.I. to identify possible disruptions by anarchists, violent 
demonstrators and others at the Republican National Convention, which 
begins Aug. 30 and is expected to draw hundreds of thousands of 
protesters.
    In the last few weeks, beginning before the Democratic convention, 
F.B.I. counterterrorism agents and other federal and local officers 
have sought to interview dozens of people in at least six states, 
including past protesters and their friends and family members, about 
possible violence at the two conventions. In addition, three young men 
in Missouri said they were trailed by federal agents for several days 
and subpoenaed to testify before a federal grand jury last month, 
forcing them to cancel their trip to Boston to take part in a protest 
there that same day.
    Interrogations have generally covered the same three questions, 
according to some of those questioned and their lawyers: were 
demonstrators planning violence or other disruptions, did they know 
anyone who was, and did they realize it was a crime to withhold such 
information.
    A handful of protesters at the Boston convention were arrested but 
there were no major disruptions. Concerns have risen for the Republican 
convention, however, because of antiwar demonstrations directed at 
President Bush and because of New York City's global prominence.
    With the F.B.I. given more authority after the Sept. 11 attacks to 
monitor public events, the tensions over the convention protests, 
coupled with the Justice Department's own legal analysis of such 
monitoring, reflect the fine line between protecting national security 
in an age of terrorism and discouraging political expression.
    F.B.I. officials, mindful of the bureau's abuses in the 1960's and 
1970's monitoring political dissidents like the Rev. Dr. Martin Luther 
King Jr., say they are confident their agents have not crossed that 
line in the lead-up to the conventions.
    ``The F.B.I. isn't in the business of chilling anyone's First 
Amendment rights,'' said Joe Parris, a bureau spokesman in Washington. 
``But criminal behavior isn't covered by the First Amendment. What 
we're concerned about are injuries to convention participants, injuries 
to citizens, injuries to police and first responders.''
    F.B.I. officials would not say how many people had been interviewed 
in recent weeks, how they were identified or what spurred the bureau's 
interest.
    They said the initiative was part of a broader, nationwide effort 
to follow any leads pointing to possible violence or illegal 
disruptions in connection with the political conventions, presidential 
debates or the November election, which come at a time of heightened 
concern about a possible terrorist attack.
    F.B.I. officials in Washington have urged field offices around the 
country in recent weeks to redouble their efforts to interview sources 
and gather information that might help to detect criminal plots. The 
only lead to emerge publicly resulted in a warning to authorities 
before the Boston convention that anarchists or other domestic groups 
might bomb news vans there. It is not clear whether there was an actual 
plot.
    The individuals visited in recent weeks ``are people that we 
identified that could reasonably be expected to have knowledge of such 
plans and plots if they existed,'' Mr. Parris said.
    ``We vetted down a list and went out and knocked on doors and had a 
laundry list of questions to ask about possible criminal behavior,'' he 
added. ``No one was dragged from their homes and put under bright 
lights. The interviewees were free to talk to us or close the door in 
our faces.''
    But civil rights advocates argued that the visits amounted to 
harassment. They said they saw the interrogations as part of a pattern 
of increasingly aggressive tactics by federal investigators in 
combating domestic terrorism. In an episode in February in Iowa, 
federal prosecutors subpoenaed Drake University for records on the 
sponsor of a campus antiwar forum. The demand was dropped after a 
community outcry.
    Protest leaders and civil rights advocates who have monitored the 
recent interrogations said they believed at least 40 or 50 people, and 
perhaps many more, had been contacted by federal agents about 
demonstration plans and possible violence surrounding the conventions 
and other political events.
    ``This kind of pressure has a real chilling effect on perfectly 
legitimate political activity,'' said Mark Silverstein, legal director 
for the American Civil Liberties Union of Colorado, where two groups of 
political activists in Denver and a third in Fort Collins were visited 
by the F.B.I. ``People are going to be afraid to go to a demonstration 
or even sign a petition if they justifiably believe that will result in 
your having an F.B.I. file opened on you.''
    The issue is a particularly sensitive one in Denver, where the 
police agreed last year to restrictions on local intelligence-gathering 
operations after it was disclosed that the police had kept files on 
some 3,000 people and 200 groups involved in protests.
    But the inquiries have stirred opposition elsewhere as well.
    In New York, federal agents recently questioned a man whose 
neighbor reported he had made threatening comments against the 
president. He and a lawyer, Jeffrey Fogel, agreed to talk to the Secret 
Service, denying the accusation and blaming it on a feud with the 
neighbor. But when agents started to question the man about his 
political affiliations and whether he planned to attend convention 
protests, ``that's when I said no, no, no, we're not going to answer 
those kinds of questions,'' said Mr. Fogel, who is legal director for 
the Center for Constitutional Rights in New York.
    In the case of the three young men subpoenaed in Missouri, Denise 
Lieberman, legal director for the American Civil Liberties Union in St. 
Louis, which is representing them, said they scrapped plans to attend 
both the Boston and the New York conventions after they were questioned 
about possible violence.
    The men are all in their early 20's, Ms. Lieberman said, but she 
would not identify them.
    All three have taken part in past protests over American foreign 
policy and in planning meetings for convention demonstrations. She said 
two of them were arrested before on misdemeanor charges for what she 
described as minor civil disobedience at protests.
    Prosecutors have now informed the men that they are targets of a 
domestic terrorism investigation, Ms. Lieberman said, but have not 
disclosed the basis for their suspicions. ``They won't tell me,'' she 
said.
    Federal officials in St. Louis and Washington declined to comment 
on the case. Ms. Lieberman insisted that the men ``didn't have any 
plans to participate in the violence, but what's so disturbing about 
all this is the pre-emptive nature--stopping them from participating in 
a protest before anything even happened.''
    The three men ``were really shaken and frightened by all this,'' 
she said, ``and they got the message loud and clear that if you make 
plans to go to a protest, you could be subject to arrest or a visit 
from the F.B.I.''

URL: http://www.nytimes.com

CORRECTION-DATE: August 17, 2004

CORRECTION:

    A front-page article yesterday about efforts by the F.B.I. to 
interview prospective political demonstrators in advance of the 
Republican National Convention in New York misidentified the Justice 
Department office that found the bureau's monitoring of previous 
protests to be constitutional. It is the Office of Legal Counsel, not 
of Legal Policy. A caption with a picture of four Denver residents who 
were questioned in the effort referred incorrectly to two of them in 
some copies. Sarah Graves, not Christopher Riederer, is the housemate 
of Sarah Bardwell.

GRAPHIC: Photo: F.B.I. agents and Denver police officers visited Sarah 
Bardwell, right, and a housemate, Sarah Graves, and two neighbors, 
Christopher Riederer, second from right, and Blake, who would not give 
his last name, at their homes to ask them about political and antiwar 
protest activities. (Photo by Carmel Zucker for The New York Times)(pg. 
A11)

LOAD-DATE: August 16, 2004

               Copyright 2004 The New York Times Company

                           The New York Times

                        August 17, 2004 Tuesday

                          Late Edition - Final

SECTION: Section A; Column 1; Editorial Desk; Pg. 20

LENGTH: 542 words

HEADLINE: Interrogating the Protesters

BODY:

    For several weeks, starting before the Democratic convention, 
F.B.I. officers have been questioning potential political 
demonstrators, and their friends and families, about their plans to 
protest at the two national conventions. These heavy-handed inquiries 
are intimidating, and they threaten to chill freedom of expression. 
They also appear to be a spectacularly poor use of limited law-
enforcement resources. The F.B.I. should redirect its efforts to focus 
more directly on real threats.
    Six investigators recently descended on Sarah Bardwell, a 21-year-
old intern with a Denver antiwar group, who quite reasonably took away 
the message that the government was watching her closely. In Missouri, 
three men in their early 20's said they had been followed by federal 
investigators for days, then subpoenaed to appear before a grand jury. 
They ended up canceling their plans to show up for the Democratic and 
Republican conventions.
    The F.B.I. is going forward with the blessing of the Justice 
Department's Office of Legal Counsel--the same outfit that recently 
approved the use of torture against terrorism suspects. In the Justice 
Department's opinion, the chilling effect of the investigations is 
``quite minimal,'' and ``substantially outweighed by the public 
interest in maintaining safety and order.'' But this analysis gets the 
balance wrong. When protesters are made to feel like criminal suspects, 
the chilling effect is potentially quite serious. And the chances of 
gaining any information that would be useful in stopping violence are 
quite small.
    The knock on the door from government investigators asking about 
political activities is the stuff of totalitarian regimes. It is 
intimidating to be visited by the Federal Bureau of Investigation, 
particularly by investigators who warn that withholding information 
about anyone with plans to create a disruption is a crime.
    And few people would want the F.B.I. to cross-examine their friends 
and family about them. If engaging in constitutionally protected speech 
means subjecting yourself to this kind of government monitoring, many 
Americans may decide--as the men from Missouri did--that the cost is 
too high.
    Meanwhile, history suggests that the way to find out what 
potentially violent protesters are planning is not to send F.B.I. 
officers bearing questionnaires to the doorsteps of potential 
demonstrators. As became clear in the 1960's, F.B.I. monitoring of 
youthful dissenters is notoriously unreliable. The files that were 
created in the past often proved to be laughably inaccurate.
    The F.B.I.'s questioning of protesters is part of a larger campaign 
against political dissent that has increased sharply since the start of 
the war on terror.
    At the Democratic convention, protesters were sent to a depressing 
barbed-wire camp under the subway tracks. And at a recent Bush-Cheney 
campaign event, audience members were required to sign a pledge to 
support President Bush before they were admitted.
    F.B.I. officials insist that the people they interview are free to 
``close the door in our faces,'' but by then the damage may already 
have been done. The government must not be allowed to turn a war 
against foreign enemies into a campaign against critics at home.

URL: http://www.nytimes.com

LOAD-DATE: August 17, 2004

    Mr. Frank. One last question. I was struck when you talked 
about the failure of immigration enforcement to exclude some of 
the people who came in. I was involved to state my role during 
the 1980's and 1990's trying to change the rules. I thought 
they were unduly restrictive on political grounds of people 
coming in. I take it from reading your report that you don't 
find that the problem is in the definition statutory of who can 
be excluded but rather in the failure to use that definition 
appropriately. Am I reading that accurately?
    Mr. Kean. I think you are reading that accurately. We had a 
wonderful example of an immigration official in Orlando, 
Florida, who simply asked a couple of questions. A lot of these 
people just automatically granted access even to those that 
made false statements.
    Mr. Frank. Can I just say that the key point is that under 
the statutes as they now exist those people were excludable if 
the right procedures had been followed. It is not that the 
statute allows--
    Mr. Kean. No, they were excludable, and they were not. I am 
saying there was at least one case of a very alert Customs 
agent who simply started asking questions, and that was 
probably the 20th hijacker who was excluded because of a good 
civil servant doing his job.
    Mr. Frank. We have FBI agents asking too many questions and 
immigration officials not asking enough. Maybe they can trade 
off.
    Chairman Cox. The gentleman from Virginia, the 
distinguished chairman of the Committee on Agriculture, Mr. 
Goodlatte.
    Mr. Goodlatte. Mr. Chairman, thank you very much for 
holding this very important hearing. Thank you for the 
excellent work that both of you and your colleagues have done 
in preparing this report and providing us with many thought-
provoking ideas that the Congress and the executive branch need 
to act upon and act upon aggressively.
    I would like to follow up on two areas that have been 
talked about thus far. Governor Kean, you mentioned in your 
opening comments and in the report your note that in the past 
the wall that we have built between intelligence-gathering 
agencies like the CIA and law enforcement agencies like the FBI 
was due to the risk of inadvertent disclosure that outweighs 
the benefit of sharing information with other agencies.
    That certainly is one of the concerns, certainly, on the 
part of intelligence agencies why we had that wall, but it was 
not by any means the only reason. Another reason that the wall 
was built up was to address the concern about the use of 
intelligence gathering which is done with regard to foreign 
nationals but necessarily involves also gathering information 
about U.S. citizens when those foreign nationals have 
communications with them and so on. Even when done properly, 
information is gathered, and the concern was then that law 
enforcement agencies which could abuse that information would 
not have access to it.
    Obviously, there is a big flaw in that; and September 11th 
is the greatest proof of that flaw. But, nonetheless, while we 
did in the PATRIOT Act, I would note, partially tear down that 
wall to enable the sharing of that information, we have also 
been careful to make sure that we not have the kind of abuses 
that some have suggested could occur.
    I wonder if you have additional comments that you might 
make or recommendations that you might make to how the Congress 
can assure the public that the action taken as a part of the 
PATRIOT Act was a sound one for the reasons of September 11th 
but not one that should cause them concern that their civil 
liberties are going to be abused.
    Mr. Kean. You know, in that regard I would say there is 
probably no substitute for the oversight of the committees. I 
mean, that is another argument for really having very, very 
vigorous oversight on the part of the Congress, to make sure 
that the public can be assured that it is being done properly.
    Mr. Goodlatte. Thank you.
    Congressman Hamilton.
    Mr. Hamilton. Well, we think the provisions of the PATRIOT 
Act that facilitate the sharing of information between the law 
enforcement people on the one side and the intelligence on the 
other are very beneficial and very important in terms of a 
counterterrorism strategy overall. We are not experts on the 
PATRIOT Act, and there are many provisions of the PATRIOT Act, 
but this provision we think is very, very important.
    Mr. Goodlatte. Let me follow up also on the questions 
related to immigration. I was pleased to hear you both say that 
more robust enforcement of routine immigration laws--and the 
example you just cited is clearly one of those--is very 
important. I wonder how serious you are about that. This is, as 
you probably know, a major political issue here in the 
Congress. There are very widely differing opinions about what 
types of overall reforms, some related to national security, 
some related to a whole host of other interests, should take 
place. But we have been unable to reach conclusions about that 
except the law that we passed in 1996 that did provide for 
greater crackdown on illegal immigration.
    Nonetheless, since that time I would argue, in part because 
of lack of enforcement of our current immigration laws, we have 
seen the number of illegal immigrants in the country rise. 
Obviously, not all of those are threats to our national 
security, but it is very difficult when have you a lack of 
information because people are operating below the radar screen 
which ones are and which ones are not of concern to the country 
because of national security. How aggressively should we be 
enforcing our immigration laws overall to avoid that very type 
of problem when that individual presented himself to that 
particular immigration officer in Florida, that officer had no 
reason before asking the questions whether that particular 
person was a threat.
    We also have millions of people who never check in with an 
immigration officer to go through that kind of questioning who 
are here in this country, some of which have malicious intent; 
and I wish you would comment on the need to enforce our 
immigration laws overall and address this problem.
    Mr. Hamilton. I want to say, first of all, in responding to 
your question, that we were given a mandate and we did not 
construe that mandate to mean that we should review all of 
these immigration questions that you have presented.
    Mr. Goodlatte. I understand. I am talking about enforcement 
of current law.
    Mr. Hamilton. I think the enforcement has to be very 
robust. Let me say that we believe that border security is a 
part of national security and that we have to have an 
integrated, modern border and immigration system. You can't 
look at them as two separate things. You have got to have a 
border and immigration system that meshes. We make three 
specific recommendations, and they are fairly broad, but there 
is where we focused our interest.
    Number one, we said you must move towards a biometric entry 
and exit system as soon as you possibly can. We think that is 
absolutely essential to getting control of the border and to 
providing an integrated border immigration system. So number 
one is the adoption of a biometric entry exit system.
    Number two is to have accessible files on visitors and 
immigrants so that officials at all points who deal with people 
coming into this country--Customs, Border Patrol, immigration, 
visas, passports, whatever--you have to have an accessible file 
that people can tap into to learn about that person. Is that 
person who he says he is or she is? And we have got to be able 
to put that all together and integrate it.
    And the third thing we say is you have to use intelligence 
on indicators of the terrorist travel tactics. Terrorists are 
great travelers. They have all kinds of tactics which we have 
already referred to earlier in our report, and you have got to 
get intelligence on those tactics so that you can effectively 
defend your borders.
    We do not, Mr. Goodlatte, get into more detail on 
immigration than that. What we have suggested is--calls for 
major change, and I must say it is not inexpensive. It is going 
to cost a lot of money.
    Mr. Kean. It is probably the largest expense of all of our 
recommendations.
    We also believe, by the way, as we move in this direction 
if possible it be coordinated with other countries, 
particularly like the European Union who have the same interest 
we do. And because the terrorists are so vulnerable when they 
are traveling, if we could have a biometric system as 
integrated with as many countries as possible, it is going to 
make the terrorist's job a lot tougher.
    Chairman Cox. The gentlelady from California, Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman.
    I would first like to observe that many members of this 
committee in the lower rows here have traveled across the 
country today to participate, and I would urge you to gavel 
each person's questions closed at 5 minutes sharp, including 
the answers, because it is really unfair to other members that 
they will have so little time.
    Chairman Cox. I appreciate the gentlelady's comments.
    Ms. Harman. And please gavel me closed. I don't plan to 
exceed the 5 minutes.
    I would like to welcome our witnesses. I have had a lot of 
time to talk to them, to read their report carefully. I think 
it is an exceptionally good report. I think we will be 
measured, all of us in this committee, all of us in Congress, 
and the President, by whether we step up and act on the 
recommendations, not just talk about them but act on the 
recommendations.
    If there are representatives of the 9/11 families in the 
audience today, as there have been in so many hearings, I would 
like to welcome you and tell you that, certainly speaking just 
for me, I will do everything I can to make sure that these 
recommendations are acted on in a timely way in this term of 
Congress.
    I just want to mention several things. I was one who 
testified before the Rules Committee as a ranking member of the 
Intelligence Committee. I testified in favor of making this 
committee permanent, making it have real jurisdiction so that 
it could truly authorize a real homeland security budget. That 
will mean other committees giving up jurisdiction. I think we 
should be for that.
    Similarly, I feel that the Intelligence Committee--realize 
I have an interest in it, but even if I were not a member--
should have real jurisdiction and should have, as both 
witnesses have testified, control over both the authorization 
and appropriations of a standalone intelligence budget. We do 
not have that. In fact, the defense appropriations budget is 
already law. It appropriates funds for intelligence programs 
that have not yet been authorized. I think that that is a sad 
commentary on the state of power of the Intelligence Committees 
in the Congress.
    At any rate, I want to focus today on one of what I think 
are two glaring gaps. One glaring gap is information sharing. 
We have had lots of conversation about the need--and I share 
this--for a national intelligence, a national counterterrorism 
director, technology reforms and so forth. These are great 
ideas.
    I want to talk about the other glaring gap, and that is 
interoperable communications. Congressman Hamilton mentioned it 
this morning. Congressman Kean testified about it yesterday. 
There is a recommendation in your report that specifically says 
Congress should support legislation to expedite the assignment 
of radio spectrum. Legislation introduced in the House 17 
months ago by Congressman Curt Weldon and me has been 
languishing because of jurisdictional disputes in various 
committees. It would close the gap and make certain that 
adequate spectrum is available by the end of 2002 which was the 
promise--2006, excuse me, a promise Congress made in 1997.
    My question to you is, when you say we should expedite the 
assignment of radio spectrum, are you talking about closing the 
loopholes and making certain that that spectrum is available by 
2006 or are you trying to argue that we should transfer that 
spectrum even sooner?
    Mr. Kean. As soon as possible.
    Let me tell you what she is talking about. We have been 
told by respondents--firemen, policemen, first aid people--who 
respond to the scene that they do not now have the ability to 
communicate with one another and therefore save lives together. 
It puts their lives in jeopardy, and it puts people's lives in 
jeopardy. They can't do it because they don't have enough 
spectrum for their radios. This is a plea that came to us 
particularly from the New York Police Department and Fire 
Department but a number of others, also.
    I recognize this is a tougher one because I guess you would 
be taking on the National Association of Broadcasters. They win 
most of their fights. But it is absolutely essential for the 
protection of the American people.
    I can't tell you how important that is. Talk at home, talk 
to your responders, talk to your fire and police, talk to the 
people in your districts, because this has to be done. This is 
something which will not only in case of a terrorist attack but 
in case of the kind of terrible tragedy we had in Florida with 
the hurricane, in case of any other emergencies like that, 
giving spectrum to our public safety officials is just going to 
make your constituents and our countrymen and women a lot 
safer.
    Ms. Harman. Governor, I thank you.
    I would like to quote Senator McCain from yesterday. He 
said, ``I have been on this committee''--that is the Commerce 
Committee--``for 18 years and they''--that is the 
broadcasters--'' won every time. Maybe we will have a victory 
on behalf of the American people. I surely hope so.''
    Thank you, Mr. Chairman.
    Chairman Cox. I agree.
    The gentleman from New York, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    First of all, I want to thank Governor Kean and Congressman 
Hamilton for the great job they have done. The country owes you 
a tremendous debt.
    Also, as someone who lost well over 100 friends, neighbors, 
and constituents on September 11th, I want to thank 
Congresswoman Sanchez and Congressman Shays for the remarks 
they made about the importance that Congress has to give to 
this committee and to this entire issue of homeland security. I 
think it is really unfortunate that too many Members of 
Congress are still living back on September 10th, 2001. If 
another attack does come, we haven't done our job. There will 
be no forgiving any of us for not having moving forward when we 
should have.
    Congressman Hamilton, I think my main question is to you. 
You touched on this before, but it is often the whole issue of 
TTIC and the National Counterterrorism Threat Center. I would 
ask you--first of all, I read the report. I am not certain 
exactly what you mean by saying that you would build on TTIC. 
In other words, will it still be there? Will it continue to 
function?
    Second, if you could give us your analysis of the job that 
TTIC has done and is doing and how you expect that to be 
improved by the National Counterterrorism Threat Center. How 
and why will there be a better job done in the future than 
there will be now under TTIC?
    Mr. Hamilton. I think TTIC is a valuable concept. It is 
working reasonably well. We are concerned that the people that 
are assigned to TTIC are not at the highest level. In other 
words, it tends to be junior level people; and it doesn't quite 
have the overall clout that you want.
    What you have today is a lot of different fusion centers 
around the government, and TTIC is one among several fusion 
centers, maybe even one among many. What we are suggesting here 
is a National Counterterrorism Center which would take the lead 
on strategic analysis and develop net assessments, and it would 
really have--it would not--it would replace all of the other 
fusion centers. This would be the center that you would look to 
for your strategic analysis, the President and Members of 
Congress, and to make assessments and to provide warnings of 
possible terrorist attacks. It would have the responsibility of 
tasking collection requirements.
    In other words--and that is a terribly important role in 
the Intelligence Community--to say, OK, you are going to go 
after this, you are going to use these assets to go after this 
kind of intelligence. And it would be--it would have that 
responsibility both inside and outside the United States. It 
would be a very--it would absorb and we think strengthen the 
analytic talent that exists today in TTIC and not just TTIC but 
the Counterterrorism Center, the DIA's Joint Intelligence Task 
Force combating terrorism. So it is a newer and much more 
powerful fusion center.
    In addition to what I have said, it would have not just 
responsibilities in intelligence but it would have 
responsibilities in operational planning as well. And this is 
an important concept that we borrow completely from the 
military. It is not just an intelligence entity, it is a place 
where you pool and collect and analyze all of the intelligence 
from the various intelligence agencies of the United States, 
but, beyond that, it is an operational center in the sense that 
it plans operations.
    The Governor mentioned early on in his testimony the case 
of these two muscular hijackers in San Diego. We had bits and 
information--bits and pieces of information about them. Nowhere 
did it all come together. Nobody was in charge in the sense of 
managing the case. And that is what you need. You need someone 
to step forward and say we are going to manage the case.
    George Tenet was informed in August of 2001 about Moussaoui 
in Minneapolis. We asked him about it; and he said, first of 
all, he assigned some of his people to work with the FBI on it. 
Then we said, did you talk to the President about it? And he 
said, no, and said this was the FBI's case.
    I don't think that answer was wrong. It was the FBI's case, 
but clearly insufficient. What was the problem? The problem was 
nobody was managing the case. Nobody was saying to themselves, 
I know about these two fellows out on the West Coast. I know 
this about them. I know that about them. It raises red flags. 
And somebody has got to take hold of that and management case, 
plan it operationally. And that is what this counterterrorism 
would do.
    They are appointed by the President. It reports to the 
National Intelligence Director. It is a very, very important 
center. May I say that it is not just a center that deals with 
counterterrorism--excuse me, beyond that, we create centers for 
other threats. Because the same thing is needed with regard to 
other threats. WMD or maybe you put China or maybe you put the 
international crime and narcotics on the list. Whatever you 
think the major threats to the national security are, we create 
a center, if you would, to deal with it. Those would change 
from time to time, and the responsibility would be not just to 
pool all of the intelligence you have got but to operationally 
plan it and to see that the policy decisions of the President 
and the National Security Council are in fact carried out.
    Chairman Cox. The gentleman from Maryland, Mr. Cardin.
    Mr. Hamilton. It is a very new concept, and it is not easy 
to get hold of.
    Mr. Cardin. Thank you, Mr. Chairman.
    Let me also offer my congratulations to Governor Kean and 
to Congressman Hamilton for their extraordinary service to our 
country. I also want to compliment the other members of your 
Commission for the extraordinary work that you were able to do. 
It is a very professional document.
    I hope the fact that we are holding these August hearings, 
which are extraordinary for Congress to do, means that we will 
have action in September establishing a single point, single 
person for the collection and analysis of intelligence 
information and strengthening the entire process for dealing 
with intelligence information and protecting us.
    I also cannot help but look at a comparison to the Cold 
War. Growing up in the Cold War, the fear of communism and the 
Soviet Union really prevailed throughout our community, similar 
to how the fear of terrorism is today. We developed a strategy 
in the Cold War to develop a very strong national defense, and 
we did that in the United States. But we also recognized we 
couldn't win the war on terrorism alone and the war against the 
communists alone, that we needed to develop international 
support. We worked with our friends in Europe, and we developed 
NATO, which was a way of shoring up our defense in Europe, and 
we shared a lot of information with the Europeans. And we won.
    We developed a war of ideas, and we used new technology at 
that time to get information behind the Iron Curtain that there 
was a better way of life, with democratic principles and 
respect for human rights that led to economic advancements. And 
more and more people, more and more nations agreed with us; and 
we won the Cold War.
    So I guess my point is, I looked at your report, and I am 
impressed by your commitment to expand our efforts 
internationally. Yes, we need to develop our capacities here 
for sharing information, but we also need to work with our 
friends around the world to share information. The people who 
travel to the United States, the terrorists go through other 
countries; and we need to share that information.
    In 1975, we developed the Helsinki Accord, the organization 
for security and cooperation in Europe to develop an 
international regional forum to share a commitment towards 
democratic principles and respect for human rights. It helped 
us during the Cold War with a forum that we could go to 
challenge the actions of other countries and to help people who 
in their own countries were fighting a battle of ideas.
    There is interest in the Middle East to do that, to develop 
forums where we can show hope to people and look at longer-
range solutions to this battle.
    So I just really wanted to give you an opportunity to 
underscore the importance not just for us to look inward at our 
own Nation to improve the collection of intelligence 
information and to deal with a better sharing of information, 
but this battle, if we are going to win it, also has to be 
engaged internationally with the U.S. leadership working with 
our friends around the world, particularly in the Middle East.
    Mr. Kean. Congressman, thank you very much for making that 
point. Because that is a very strong and important area of our 
recommendations and hasn't received the focus, frankly, that 
some the rest of it has. We have got to have a consistent 
message going out to that part of the world. And it is a 
message of hope. You are absolutely right. Bin Laden's message 
is one of despair that leads eventually to death. That is what 
he is talking about. If we don't have a message to these people 
to show there is a better life, that we can actually provide a 
path to that better life, that we are on their side, not 
somebody else's side, we are not going to win this.
    Because, as Secretary Rumsfeld said to us once, you know we 
can kill these terrorists, but if they are being created faster 
than we kill them, we are not going to win this one. That is 
one thing, the message of hope, certainly working with our 
friends and allies who have some of the same interests we do 
and share the same hopes and dreams and way of life and ideals, 
getting those across. We have specific recommendations, as you 
know, for some of the most important countries, we believe--
Saudi Arabia, Afghanistan, Pakistan. The emphasis on those 
three countries in our report is very, very important.
    We believe the whole way in which we do business in that 
part of the world, once we get a consistent message, has got to 
change--if we are, for instance, upset, as we should be, that 
these madrasas that kids are going to in that part of the world 
are teaching hate and teaching hate of the West and all of 
that, well, there has got to be some alternative. A lot of the 
young children are going to those madrasas because there is no 
other school. There is other opportunity for parents to send 
them anywhere except the madrasas. All right, let's help these 
countries to build alternatives.
    There are a number of recommendations along this area in 
our report. We believe, frankly, they are among the most 
important recommendations.
    Thank you very much for bringing them to our attention.
    Chairman Cox. The gentleman from Georgia, Mr. Linder.
    Mr. Linder. I want to thank you both for being here and for 
your service to our country. We appreciate it.
    Lee, you mentioned something about biometrics early on. It 
strikes me that the terrorists need access to our traveling 
systems, our airplanes, our trains, and if we could get to 
biometric identifiers on people who are not risks quickly, 
could we spend more of our time on those who might be risks and 
cannot be identified with the biometrics? Would you expand on 
that?
    Mr. Hamilton. You always have a tension here. Most of the 
people that come into this country are peaceful and have good 
intent. The overwhelming number that come into the country do. 
You have a lot of people who come into the country every day to 
work and go back and you have to develop systems that sort 
these people out very quickly. That is one of the goals, I 
think, of the biometric entry exit system.
    We have to develop the technology and the skill to let the 
peaceful people, if you will, through quickly and the person 
who is a regular commuter across the international boundary, to 
let him go through quickly; and we think the biometric system 
integrated with both border security and immigration is the way 
to do that. It is the quickest way to do it.
    To pick up on the previous question, you have to have 
international cooperation on that. We want to develop a 
biometric system that is internationally recognized. Now, that 
is not going to be done in the next year or two, but it ought 
to be the goal in the long term, and it is the way to assure 
fluid commerce.
    We are very concerned about the anecdotal, I guess, 
information we were getting about the number of scholars who 
are not coming into the country and the number of students who 
are not coming into the country. This is a serious matter for 
us in the long term, and we have to figure out a system. Now, 
we have talked to all of the top officials about this. They are 
very alert to it. They know the importance of it. So I think 
the system will move forward. But we have got to accelerate it. 
If we don't, we are going to be denying ourselves and this 
country a lot of talent that we need.
    Mr. Linder. Governor, you think alluded twice to are we 
staying ahead, are we killing more terrorists than we are 
creating or than are being created? You referred to the 
madrasas. I would like to ask you very bluntly, can we deal 
with this without dealing directly and frontally and bluntly 
with Saudi Arabia?
    Mr. Kean. No. And the relationship with Saudi Arabia has 
got to change. Our relationship in the past with Saudi Arabia, 
to be very blunt, is, as I understand it, has been oil. That 
has been the relationship with Saudi Arabia. Allies to the 
royal family, they ensure us enough oil, and that has sort of 
been the relationship.
    That can't be the relationship anymore. We have got to 
continue to work with the royal family. There is no question 
about it. But we got to work with the royal family to bring 
some changes in that country.
    It seems they are now recognizing that their way of life, 
the royal family's leaders of Saudi Arabia, is under attack; 
and these Islamic militants would like to overthrow them just 
as much as they would like to injure us at the moment. So they 
are, of necessity, our allies; and they also realize the need 
for change within their own borders. We have got to work with 
them on that. We have got to help them on that. We have got to 
work with them instituting the changes that are possible and 
then try to push and shove a little bit and get a few more 
changes to the system.
    Because if Saudi Arabia--I mean, we identified those three 
countries--Saudi Arabia, Pakistan, Afghanistan--because if any 
one of them went the wrong direction, we would have a world of 
trouble on the international stage and in the terrorist 
problem. So, yes, the relationship with Saudi Arabia has to 
change, must change.
    Chairman Cox. The gentlelady from New York, Mrs. Slaughter.
    Ms. Slaughter. Thank you, Mr. Chairman. I am so happy to 
see both of you here this morning.
    I think the whole world owes you thanks for what you have 
done. I want to express my thanks to your amazing staff as 
well. The report that they have produced is unequal to any 
report I have seen in three legislatures, and I am very 
grateful for that.
    Personally. I lost any confidence I might have had that our 
intelligence agencies were any good when the CIA let Aldrich 
Ames sit with them for 8 years as a Russian spy and the FBI let 
Robert Hanssen do the same thing here in the shadow of the 
Capitol. It certainly was not lost on me that if they couldn't 
even find spies in their midst that worked with them on a daily 
basis that they probably weren't doing a great deal to protect 
us. So I was not surprised at that.
    I agree with you absolutely about congressional oversight. 
We have got to get some control in this House and make this a 
strong committee that really has the jurisdiction it needs to 
see to give the American people and the rest of the world 
confidence that we are doing our part to keep America secure.
    In that regard, I have only got one complaint. I represent 
Niagara Falls, New York; and you have recommended that DHS lead 
the effort for the comprehensive integrated system. I would 
like to ask you to reconsider that. After 3 years, DHS has 
still not given us a threat assessment. At this point, Wyoming 
is getting the same amount of aid from our national security as 
New Yorkers on a per capita basis. This makes no sence since 
all of us are aware that if terrorists strike, two things they 
are going to want to do is, one, kill as many people as 
possible and, two, cause as much economic damage as possible. 
And while I don't mean to denigrate Wyoming, that is not likely 
to happen there.
    On our border, since 9/11 there has been a complete backup 
of both commerce and people at our border crossing. It it takes 
about five hours to get across. At the same time, you can still 
come across in a rowboat from Canada to the United States at 
many, many points; and people do that. DHS' plan for security 
on the Great Lakes was to set up something that would require 
every boat on the lake to report to a video phone somewhere, 
many, many of them 60, 70 miles apart, which are continuously 
out of order.
    Now what people tell me is that fewer than 5 percent even 
attempt to use those video phones. The only thing that people 
who do not do so have to worry about, in some of our rural 
counties, is that the sheriff might somehow pluck them up from 
all of the hundreds of boaters who are there.
    It simply does not work; and, beyond that, it doesn't make 
any sense.
    At the same time, we have tightened up so much on our 
border on our side you cannot come in from Canada literally for 
hours. I am meeting tomorrow with my Canadian counterparts to 
see what we can do. DHS has come up with a Nexus card, which I 
think Congressman Hamilton referred to, which would work except 
it costs $80 for 5 years and nobody will pay. In addition, in 
my area, you can only buy it in Canada.
    So these are some of the things that we should be able to 
deal with, but at this point I would like to see if you would 
re-consider your border recommendation and see if one of the 
national laboratories or NIST or GAO or somebody could develop 
a better border plan do that in a hurry. Because we can't wait 
3 more years for something like that.
    So that is my major concern at this point having--
representing one of those border States, I need to tell you 
that what DHS is doing there simply does not work.
    Citizens tell me that in these rural towns, they see boats 
come in, cars drive on the bridge, pick up somebody or 
something from that boat and go away all night long. By the 
time they call the sheriff, they are long gone.
    So this is a wide-open area which is of some concern. What 
the answer is eludes me, but I am very much concerned that 
after 3 years I think that all that we have accomplished there 
basically is to aggravate almost everybody who lives in that 
area. Most of these people cross this bridge almost on a daily 
basis; and if they try to get to the Nexus lane, they can't. 
They are tied up so much in traffic.
    So these are some of the things on a local basis that we 
are trying to deal with. My sense about DHS is 170,000 people 
trying to learn how to get along. I am not sure they are 
anywhere near close to that at this point.
    So I just throw that out for your recommendation. But, 
beyond that, I cannot tell you how impressed I am on the work 
that you have done. Like Congressman Shays, I will certainly 
pledge to you my strong support that we will get your 
recommendations enacted into law. Thank you very much for what 
you have done and I appreciate, despite all that other work you 
have done, that you continue to make all these rounds and talk 
to all of us. Thank you both very much.
    Mr. Kean. Thank you very much.
    Chairman Cox. The gentleman from Arizona, Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman; and, gentlemen, I 
would like to echo the appreciation of the others on the panel. 
I greatly appreciate the work you have done. I think it is a 
great contribution to our efforts here in the Congress to move 
forward and to improve homeland security.
    I want to begin with a question that goes to kind of one of 
the thrusts of the report. A great deal of your recommendations 
go to restructuring, restructuring particularly of the 
Intelligence Community, and not substantive recommendations. 
Some have criticized that. One prominent individual within the 
CIA has criticized that rather strongly. Others have said that 
at least a flaw they see in your overall report is its failure 
to emphasize revitalizing the clandestine service to infiltrate 
and destroy terrorist organizations, as opposed to making 
structural or restructuring recommendations.
    I would like to give you a chance to respond to that and 
tell us why you think focusing on restructuring is important 
and, second, how important you personally believe it is to 
increase our efforts through the clandestine service to 
infiltrate and destroy terrorist organizations.
    Mr. Hamilton. We put a lot of emphasis on strengthening 
human intelligence, and I think that is part of the 
conventional wisdom today. Everybody agrees with it. I don't 
know anybody that disagrees with it.
    Now, there are two problems with it. One is that it is 
very, very tough to penetrate these cells; and that is why you 
have to have a lot more diversity into the CIA. But these cells 
are very small. I suspect they are the most difficult 
intelligence targets there to penetrate. We must not have 
exaggerated expectations about our ability to do it.
    I am all for doing it, I am all for strengthening the human 
intelligence, and it clearly needs to be done. But may I cite 
to you when I was chairman of the Intelligence Committee back 
in the late 1980's and the early 1990's that we were talking 
about strengthening human intelligence. This is not a new idea. 
It is just very hard to do. And Tenet testified before us that 
it will take him at least 5 years from now to get intelligence 
clandestine service where he wants it to be.
    The second problem that I think we often overlook with 
regard to intelligence HUMINT, human intelligence, is you are 
asking a person to live a very dangerous life for a very long 
period of time, away from family, away from country, and it is 
not the easiest thing to recruit those kind of people. They 
have to be absolutely fluent in the language. They have to be 
able to be absorbed into the culture so that nobody would 
recognize them.
    So I am all for human intelligence. I think it needs to be 
strengthened, but I also think we have to have some reasonable 
expectation of its limitations.
    The second point about why did we put so much emphasis on 
the structure, I would only say to the person that made that 
criticism they haven't read the report. Look, we talk in here 
about the military actions that are necessary, attacking the 
Usama bin Ladens of the world, of not providing any 
sanctuaries. We have a whole chapter devoted to American 
foreign policy and how you prevent the growth of terrorism, how 
you have got to engage with ideas, how our policies have to 
understand the--we have to understand the consequences of our 
policies. We talk about the elements of a coalition strategy, 
public diplomacy, scholarship exchanges, agenda of opportunity, 
a better vision. We talk about how to stop terrorist financing 
or use terrorist financing to your advantage; and we have a 
whole list of recommendations, many of which we have been 
talking about today, about how to protect ourselves better.
    So I understand that a lot of the discussion in the public 
press and in the media has been on institutional reform, and 
that is understandable because--but--
    Mr. Shadegg. I have just a little bit of time. Let me get 
in one other question.
    Under the structure you envision there will be--several 
agencies will be able to search the database--we are talking 
about intelligence-gathering agencies--the database of other 
agencies. I think that is clearly necessary. But my question 
is, is not that or did you give thought to the fact that might, 
in fact, be a disincentive for the agencies to put information 
into their database and--since human nature being what it is--
and are there recommendations you think within your report that 
go to that particular point?
    Mr. Hamilton. It is a good point, and what it means is you 
have to have someone above the agency who has the power to 
impose rules and regulations to force that sharing. I think you 
put your finger on a very good point. It is not automatic that 
you get the sharing, and the tendency of keeping the 
information you have got from everybody else is a very human 
one and a very strong one. The only way I know you can deal 
with it is through superior authority.
    Mr. Shadegg. I thank you for your report.
    Chairman Cox. The gentleman from Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Chairman, thanks 
for convening the committee during the August recess.
    I have several questions. Stansfield Turner and others have 
postulated that a number of the more urgent reforms and 
requirements that you are putting forward in terms of a 
National Intelligence Director, budgetary control, basically 
putting someone in charge and making the agency share could be 
done by executive order or modification of Ronald Reagan's 
executive order regarding the intelligence services. So that 
would be one question, to comment on whether or not, given the 
fact Congress won't act at least until September, very likely 
may be not even until later than that, shouldn't the President 
look at implementing some of these changes more quickly by 
executive order?
    The second would be, you commented on interoperability and 
the focus was on spectrum, but I would like you to focus, if 
you could, on cost of interoperability. Because that seems to 
me to be the major barrier to all of the first responders I 
talked to. In fact, the President's budget this year zeroed out 
interoperability funds from the Federal Government. What 
priority would you put on that since you have talked about the 
fact that the funds are spread widely, but would you put a 
priority on a national interoperable communications system for 
all level of government since you rightly pointed out that 
Federal, State, and local are the eyes and ears and first 
responders are the State and local and they need to be there.
    So, first, the executive order; second, interoperability; 
and then, third, if you could just come back to--I continue to 
be frustrated. I thought I was told at an aviation hearing that 
we now had an integrated watchlist or it was announced actually 
at a hearing by Admiral Stone, as I recall, that by the end of 
that month--and I believe that was the month of June--that 
there would be an integrated watchlist available so that the 
agencies and the TSA could access that.
    If you could comment on those three things.
    Mr. Kean. I guess I will start.
    While some of it could be done by executive order, we felt 
very strongly--we talked about this and talked about this on 
the Commission--that the Congress really ought to--is it ought 
to be law and Congress ought to have the input and Congress 
ought to be the designer and it ought to be permanent. And that 
things done by executive order are not permanent and sometimes 
they are not agreed to by the Congress and that creates all 
sorts of problems. So we felt very strongly in the Commission 
as we talked about it that this really should be 
congressionally inputted.
    Mr. DeFazio. Quickly, because I hope you can cover the 
other two points, but I mean is it urgent that we begin to 
force the coordination more quickly and that perhaps at least 
as an interim step the President could appoint somebody or 
could force that change in terms of authority to the CID?
    Mr. Kean. He could do anything, I guess, in consultation 
with the Congress. My worry is if you start to put a new system 
in place or a new individual in place or what have you and then 
the Congress comes along behind that--for instance, a person 
who we would recommend should be Senate confirmed because it is 
such an important position. So you put somebody in, it is 
just--it raises problems that we would much rather have the 
Congress to obviously act with due deliberation but act as 
hastily as possible because we believe that until this 
information is shared the American people are not going to be 
as safe as they should be.
    As far as the cost of trying to make a communication 
system, we leave it--we believe it is a national priority. 
These first responders and people who are going to come to 
national emergencies need help and everything we can do to help 
them I think we ought to do.
    And the third point.
    Mr. DeFazio. Watchlist. We have been told it was going to 
be up and running.
    Mr. Hamilton. Our impression is we do not have a totally 
integrated watchlist, and there is still a number of different 
watchlists, and we are urge, of course, that it be integrated.
    Mr. DeFazio. Thank you. Thank you, Mr. Chairman.
    Chairman Cox. The gentleman from Indiana, Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman. I want to pursue a 
little bit the biometric indicators on the licenses. We have 
had a little bit of discussion about this, mostly as it relates 
to borders.
    A couple of premises. One is that not every terrorist is 
going to cross the border. Some may already be here. second, 
they may even in fact, since they don't seem in a rush, get 
themselves into regular crossings and get into the fast pass 
lanes, get secured. It seems to me, in addition to kind of the 
way we are doing it now, the random or unexpected or occasional 
terrorist, we also have to have a system that has biometric 
indicators or other things more than just that.
    Could you elaborate a little bit more on whether you see 
this as a watermark, whether you see this as indicators, what 
type of things, whether you see this for all citizens, for 
people who have Green Cards? And also address the question, as 
many cities in Indiana and other places are starting to accept 
non-American identification, which would include setting up a 
bank account which would make it very difficult for us to track 
financial funding, be able to go to a store to pick up 
precursor chemicals for bombs using a non-American ID, could 
you elaborate more in detail and specific how we should start 
to address this question?
    Mr. Hamilton. I don't think, Mr. Souder, that we consider 
ourselves any kind of experts on what kind of a biometric 
screening system you have. It is a complicated, technical 
question; and you do want to try to begin to implement the 
system as soon as you can and not wait for the perfect system 
to come along.
    What we say is that the goal is an effective biometric 
entry/exit screening system, that it needs to be compatible 
with other countries to the extent possible so that we can 
exchange information about these people that cross 
international boundaries. We need to have border officials who 
have access to interoperable--access I guess to all of the 
information about an individual traveler; and we think it is 
just common sense to have a modern, integrated border 
immigration system.
    Now, all of that, of what I have said to you, are kind of 
general principles and statements. That is as far as the 
Commission went in addition to saying that you have got to have 
all of the intelligence you can about individual travelers. 
When you get into the questions you are raising about the kinds 
of biometric systems and all, we did not address those.
    Mr. Souder. Don't you agree it isn't just a matter of 
travelers? They may already be here. People can move and get 
work permits and say something more than a passport. Don't we 
need a system internally as well? Can you comment on how can 
you track intelligence if you can't track the individuals? What 
good will a national intelligence center do if people can start 
bank accounts and pick up bomb supplies and we don't know who 
they are?
    Mr. Hamilton. Well, it is a very important point because 
what we know is that the terrorists are very good at exploiting 
the gaps. And if we have a marvelous system that works at the 
borders but it doesn't catch the illegals and it doesn't catch 
other people who come in different ways, it is not going to 
work. And that is really what we mean by the word integrated. 
It has to include all of the ways that we check on people 
coming into this country.
    Mr. Souder. Mr. Hamilton, I have a question. As a fellow 
Hoosier, one of the difficult things we have, and you have this 
in your report, that we have to put the money to targeted 
higher-risk areas. Bottom line what that means is moving money 
from Indiana to the East Coast and hardening targets in the 
East Coast, which potentially leaves us more vulnerable in 
Indiana. We saw the incident in Ohio, that it can move to other 
places.
    How do you advise those of us who are in those places to 
deal with this difficult political question? It is fine to say 
that is the case, but the terrorists may move around. They are 
going to go to softer targets. You may get copycats. What do 
you recommend we say, those of us who already see a lot of our 
dollars go to the East and West Coast?
    Mr. Hamilton. There are limited resources, and you have to 
make some tough judgments. I think it is likely that every 
State could make a claim for some of these funds. But to 
suggest that you are going to predict a rural county in 
southern Indiana--I will say southern rather than northern 
Indiana--to the extent that you protect New York City or 
Washington, D.C., just doesn't stack up with the intelligence 
information.
    So you have a limited number of dollars. You can't protect 
against every threat, you cannot protect against every tactic 
that a terrorist will use, and you have to make some very tough 
judgments as to where you put those dollars. I know that those 
are very difficult judgments to make because you are dealing 
with a question of priorities, and priorities is always the 
toughest question in government. Where do you put limited 
resources?
    The intelligence chatter is very clear. The intelligence 
chatter is that New York and Washington, D.C., are the primary 
targets and, therefore, the bulk of your resources have to go 
there. I know that may not be an easy message for somebody from 
Indiana because they see it, but I also think that there are 
many facilities--I mentioned in the testimony 85 percent of the 
facilities that need protection are in the private sector. You 
folks know better than anybody what facilities in your district 
need protecting, and I suspect some Federal funds should be 
made available for these most vulnerable facilities. You have 
to also take into account not just the vulnerability of the 
facility but how much damage would be done if the facility, in 
fact, were attacked.
    Mr. Hamilton. How many lives would be lost, what are the 
risks, all of those things have to be sorted through, and so we 
say money should be distributed largely on a risk assessment 
basis.
    Mr. Kean. There are two targets that come over and over and 
over again. These people want to kill as many of us as 
possible, so they are going to pick targets where the most 
people are. And second, they talk about the symbols of America. 
And so where those symbols are located are where the targets 
will be. We have to direct our resources to the places where 
those large numbers of people congregate and where the symbols 
exist.
    Chairman Cox. The gentlelady from New York, Ms. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman. And I want to join my 
colleagues in welcoming you, Chairman Kean and my good 
colleague, Lee Hamilton. I really appreciate your last 
comments, because it is an excellent segue way to several of 
the issues that many of us have been working on as New Yorkers. 
First of all, I would like to generally ask you to continue 
your involvement, to continue using your clout and influence in 
implementing the recommendations that don't require overall 
structure change. I support the structure change, but for those 
of us who have been trying to move some of these issues 
forward, we share the frustration of many here in this Congress 
that we can't get it done.
    First of all, John Sweeney and I and others have been 
working on formula change. We have not been able to get that 
done. I won't repeat the statistics. You know, and Louise 
Slaughter mentioned it as well, when you compare the per capita 
of New York to the other areas, it should be an embarrassment 
to all of us: $10.12 compared to the $38 to other parts of the 
country. So please continue your advocacy. Whether it is done 
through the Congress or executive order, it must be done and it 
must be done as soon as possible, and I know you agree.
    second, many of us have been talking about airport 
security. In your report, you say, quote, ``It must take into 
consideration the full array of possible enemy tactics, such as 
the use of insiders.'' Did the Commission intend for airport 
workers, cabin cleaners, maintenance crews, caterers who are 
currently permitted to bypass metal detectors, or should 
everyone have to go through metal detectors? And I have been 
repeatedly told by TSA it is too inconvenient and costly to 
screen airport workers despite the fact that 100 percent of 
workers are physically screened at airports like Heathrow, 
almost 100 percent at Charles de Gaulle. This doesn't make 
sense to me. If you could, continue to weigh in on that issue, 
because I am sure you agree that everyone should be going 
through metal detectors. And I--as a New Yorker, it disturbs me 
that currently, we are so worried about security in the New 
York area, yet thousands of people are going through airports 
every day with antiquated identification badges.
    I also would like to comment on your eloquent statements 
about education. You are very well aware that the whole budget 
for the foreign aid appropriations bill is $19.3 billion--I 
happen to be the ranking member--and the budget for the 
military is upwards of $416 billion.
    We managed to get education dollars from $100 million to 
$400 million. I would be interested to know whether you think 
the current estimate of $10 billion or more should be validated 
by this committee and this Congress by adding dollars to our 
overall allocation for education. The $19.3 billion goes, as 
you know, to HIV-AIDS, goes to all the work of US-AID, goes to 
education. I would like to hear your recommendations.
    And since my time is running out, if you could comment on 
the formula change, if you could comment on airport security in 
particular, the fact that thousands of people are not going 
through the metal detectors with their badges; and third with 
regard to our foreign aid budget.
    Thank you very much.
    Mr. Kean. Everybody should go through metal detectors, my 
belief, without exception.
    Mrs. Lowey. Do we have to wait for structural change or do 
you think it can be implemented now, or can it be implemented 
by executive order? We can't seem to move the FAA or TSA, and 
business keeps talking about an inconvenience. How can we get 
that done now?
    Mr. Kean. You probably could answer it better than I could. 
I don't know how you can do these things by executive order, or 
whether you can, or whether you have to have something through 
the United States Congress. I don't have the expertise to 
answer that, but it should be done. No question about it.
    I believe that if we are going to create fewer terrorists, 
change minds in the Arab world, we have got to change--we just 
can't be viewed as a military power. We have to get back to 
some of the things we used to do in the Cold War, to try to win 
that Cold War and change minds, and that involves not only 
education expenses, but cultural exchanges, ways in which there 
are student exchanges, ways in which we allowed these people to 
get to know us and we get a better understanding of them. We 
have to get into those soft areas.
    We have got to get into them. We have to let these people 
know who we are, and we have to understand in a much better way 
who they are. And I am not talking about the small percentage 
who want to kill us, but I am talking about the much larger 
percentage that don't really like us at all because of what 
they know of us right now, but if we are able to send a 
different message, might like us a bit better.
    And the third question--
    Mrs. Lowey. The formula.
    Mr. Kean. My view and the Commission's view: You have to 
put the money where the greatest danger is, and that is 
measurable due to the chatter we hear and the estimates from 
the intelligence agencies. We know where the greatest danger is 
and that is where the money ought to go.
    Mr. Hamilton. Let me add to what Tom has said. What you are 
really wrestling with here is, what should the elements be of a 
counterterrorism policy. And the answer to that is that it 
takes a lot of elements. And if you think only in terms of one 
or two of those elements, you are not going to get it together.
    You have to have military force. You have to have covert 
actions and the right kind of diplomacy, the right kind of 
public diplomacy, the right kind of law enforcement. You have 
to have the right kind of action in the Treasury Department to 
trace the flow of monies.
    And I think the risk that you face in thinking about 
counterterrorism policy is that you grab on to one or two of 
those and say you are going to solve counterterrorism with 
covert action or with military action or with educational 
reform.
    You are not going to do it. You have to get the whole thing 
in balance and integrate it, and that is the big challenge of 
counterterrorism policy.
    With regard to the education matter, we think that is a 
very, very important part of it. I want to pick up on what Tom 
has said. The challenge to American foreign policy is not the 
Osama bin Ladens. We know what we have to do with them. We have 
to remove them. We have to kill them. We think and we believe 
that is a very small portion of the Muslim world.
    The challenge to American foreign policy is the great vast 
number of Muslims who are sympathetic to Osama bin Laden, who 
may admire him, but do not support the idea of violence. And 
that is--if you are going to win the war on terrorism, you have 
got to prevail, you have got to persuade those people that we 
offer a better vision and an agenda and an opportunity for 
them.
    Now, you work all the time with the foreign aid budget and 
you know the limitations of that budget, but you also know the 
importance of it. You cannot solve the problem of these schools 
in Saudi Arabia and Pakistan in the United States--can't do it. 
You have money in the foreign aid budget today for Pakistani 
schools. What is it, 100 million or so?
    Mrs. Lowey. Out of the 600 million about 30 million is 
going to education.
    Mr. Hamilton. It is a drop in the bucket, isn't it? But it 
does say to these people who are seeking a better life, who 
want some of the same things you and I seek, that we are on 
their side and we are trying to help them with their problem; 
and that is a very important message to convey.
    Fundamentally, Pakistan has to solve its own education 
program and so does Saudi Arabia. As Tom said a moment ago, you 
have to push and prod them in that direction. And we certainly 
do, and we could maybe encourage them a little bit with a few 
million dollars here and there, but we cannot solve their 
problem. But we want to let them know that it is not only in 
the American national interest that they reform their school 
systems; it is in their national interest that they do it, and 
if they don't do it with all of the technology available today 
to let these people know that their life is pretty miserable, 
if they don't begin to deal with those problems, they are not 
going to be in charge.
    Chairman Cox. The gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you very much. And gentlemen, thank you 
very much for your patience with us here today. Your dedication 
to helping us better understand these issues is greatly 
appreciated. Thank you for your assistance in helping make 
America safer. We appreciate that as well.
    Let me say that over the last 3 weeks as I sat here 
listening to each of you, I know we have talked about 
information sharing, the need for information sharing, the 
management and direction that information sharing should take.
    We have talked about the overclassification of information, 
but you do not make a recommendation; in fact, you oppose a 
recommendation for an internal MI5-style intelligence agency 
which would look at domestic or U.S. citizens' intelligence. I 
want to build on that concept, because I think the confluence 
of understanding your recommendations and our taking action has 
to understand a better--little bit better, this idea. Because 
what I see is an agency, the FBI, as needing some reform 
itself, because we have a construct in the FBI today which says 
that when we gather intelligence information in FBI, we are 
focused on prosecution and criminal action cases, rather than 
on anti terrorism intelligence.
    Now, the focus on prosecution is highly appropriate for a 
law enforcement agency, but it is not appropriate for 
intelligence gathering in a counterterrorism, antiterrorism 
type environment. Should we, and here is my question and I will 
leave it to one question--should we divide the FBI into two 
intelligence-type agencies leaving to it law enforcement for 
the conviction and prosecution and that construct, and giving 
it an additional role, a different agency, which is 
intelligence gathering for antiterrorism?
    What are your thoughts on that?
    Mr. Kean. Under the reforms that the director is trying to 
implement in the FBI, that would in a sense be a division in 
the FBI, an important division of the FBI, and that would be 
their job. Their job would be to collect information against 
terrorist efforts.
    We on the Commission wrestled with this FBI problem, 
because the history of the FBI and the culture of FBI is as you 
so correctly stated. As you know, you break down the door, you 
make the case and you take somebody to trial and convict them. 
That is not gathering information for counterterrorism 
purposes.
    There is now a large part of the FBI that is starting to be 
devoted to collecting information for counterterrorism 
purposes. But it is being done from a very top-down reform by 
Director Mueller. Our concern on the Commission was that this--
these reforms were based on the work of two or three people at 
the very top, and if they were to retire, to leave or die or 
whatever, that the FBI culture would go right back to the way 
it was.
    So we think it is very important and this again comes to 
oversight. I don't think you have to create something 
different, but you have to systematize these reforms. You have 
to make sure that the FBI doesn't slide back. The people that 
go into the intelligence gathering side have to have the same 
chances at promotion, same chances of salary increases, same 
chances to get to the top of the FBI as the people under the 
old J. Edgar Hoover side. If that doesn't happen, then it is 
not going to work.
    So we endorsed the director's reforms with the proviso that 
the Congress in particular look and make sure that these 
reforms are implemented not only under this director, but with 
future directors. Because without it, it doesn't work. That was 
basically the view we came to.
    Mr. Hamilton. I think the Commission believed that there is 
a very important synergy between intelligence gathering on the 
one hand and law enforcement on the other, and you ought not to 
put a wall between them. The guy out here who is trying to 
prosecute somebody collects a lot of information. The fellow 
out here who is doing some surveillance on a prospective 
terrorist is also collecting a lot of information. And you want 
to make sure that they are talking to one another and that 
there is interaction between them and that you not build that 
wall too solidly. So that is what we are really driving at.
    Now, when you talked about the FBI collecting all 
antiterrorist intelligence, you are not talking about the 
foreign side?
    Mr. Gibbons. No.
    Mr. Hamilton. I may have misunderstood. We do think this 
synergy is very, very important and each benefits from the 
other in effect.
    Mr. Gibbons. Thank you.
    Thank you, Mr. Chairman.
    Chairman Cox. The gentleman from New Jersey, Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. I want to express to 
Mr. Hamilton the honor of having served with him in this 
institution, and on behalf of our fellow New Jerseyans, express 
our pride to Governor Kean and the work you have done here. We 
are proud of you.
    One of the most compelling parts of your report is the 
riveting discussion of those moments on the morning of 
September 11th when there were still two planes in the sky and 
there was a muddled and dysfunctional series of communications 
among decision makers as to what to do about those two planes. 
And in your report you address that, I think, in two places. 
One is in Recommendation 26 about incident command systems and 
the other is in Recommendation 40 about the role of the 
Northern Command.
    I want to ask you this question based upon this chilling 
hypothetical. If we knew right now that someone had hijacked a 
tanker truck on the New Jersey Turnpike filled with chlorine 
gas and that the person was headed toward Washington, D.C., on 
I-95 and that their intention was to blow up that chlorine 
tanker truck and in fact create a chemical weapon on the 
Capitol Mall, and we had to make a decision about what to do 
about that truck right now, who should be in charge of making 
that decision and what should the chain of command be?
    Mr. Kean. Under the present system or under the system we--
    Mr. Andrews. What does the Commission believe it ought to 
be?
    Mr. Hamilton. The question of who is responsible for 
defending us at home?
    Mr. Andrews. During an imminent ongoing emergency.
    Mr. Hamilton. Very tough question. We think there are two 
answers. One is the Department of Defense, the Northern 
Command, and the second is the Department of Homeland Security. 
They both have the responsibility and the authority for 
defending the country. Now they have to work that out, how that 
authority is split.
    I don't know the answer to your question specifically.
    Mr. Andrews. As my colleague knows, one of the vexing 
questions here is the doctrine of posse comitatus and how it 
would play into the answer of this question.
    I don't want in any way to erode our important tradition of 
separating the military from the control of civilian life. I 
think that is one of the key precepts of the country. On the 
other hand, just because something is taking place on or above 
our soil does not mean it is a domestic matter. And I think 
that is one of the key issues we have to grapple with.
    My own suggestion is that we have to revisit the doctrine 
of posse comitatus in this terrible new world. We need to do so 
in a way that doesn't undermine civil liberties, but sorts this 
question out.
    To answer my own hypothetical, if a decision were made to 
take paramilitary action to stop that truck, scramble a 
helicopter and shoot the driver of the truck, that is a 
function that I want the Department of Defense to lead and be 
responsible for. On the other hand, I think it has to be under 
extremely egregious and emergent circumstances like those on 
the morning of 9/11.
    I think one of the most chilling things I read in your 
report is that the order that was given by President Bush to 
Vice President Cheney and then passed down the command to--as I 
understand it, to intercept and shoot planes that were hijacked 
was not communicated to the pilots in the cockpit; that they 
received an order that they should identify tail and type of 
the airplanes, but that is it.
    That could have been--and I ascribe no fault here, but I 
blame all of us--that could have been a terrible 
miscommunication. I am interested in the Commission's thoughts 
on how to fix it.
    Mr. Kean. I had exactly the same reaction you did.
    And there is another part to that story, that the Secret 
Service had some control of National Guard planes that they 
sent up, and they had the order to shoot. So the National Guard 
planes, without getting an order from the President, might have 
shot these planes that were supposed to have orders from the 
President to shoot, wouldn't have shot.
    So we are told in questioning that that command and control 
problem has been straightened out. We hope it is true, but that 
was a moment for me, too, when I heard that information.
    Mr. Andrews. This fall, the GAO will be issuing a report 
that examines in the war game context whether the problems have 
been straightened out, and we are anxiously awaiting that 
report and we would be interested in the Commission's review of 
it.
    Mr. Kean. Command and control, that whole day in the fog of 
war, as the President told us, Air Force One didn't work 
properly. The President was not--did not have the communicative 
skills above Air Force One as commander in chief. Now he told 
us as a commission when we met him that that has been 
straightened out.
    We have to be sure of these things. It is too important for 
the defense of this country that these things cannot occur that 
way again.
    Mr. Hamilton. I want to amend. I think I said there are two 
people who had the responsibility to defend, the Department of 
Defense and Department of Homeland Security.
    The Department of Defense would only defend in the event of 
a military attack, I think. And what you described, the example 
you gave about the truck on the turnpike, I think probably 
would not qualify as a military threat.
    As a practical matter, if something like that happened, we 
would put every resource we had into it to try to stop it. That 
would include local sheriffs, National Guard and probably some 
military components as well.
    Mr. Andrews. The question is not how we categorize it, but 
how we stop it.
    Mr. Hamilton. Mr. Chairman, we are hitting 1:00 and I had 
kind of planned finishing at 12:15 or 12:30.
    Chairman Cox. I understand and I want to at this point 
recognize that we have members on both sides of the aisle who 
have not yet had the opportunity to put questions, but out of 
courtesy to both of you, we will adjourn this panel at this 
time. And we want to thank you very much for the extended 
period of time that you have spent with us this morning. I know 
that when Congress reconvenes in 2 weeks that you will be 
available to continue to work with us on the implementation and 
further consideration of your recommendations.
    At this time--
    Ms. Jackson-Lee. Mr. Chairman, I have an inquiry, please. 
This is such a moment in history and time for this committee, 
and I respect the gentlemen's time and I am always grateful for 
their work.
    My request to the chairman, because other members have not 
had a chance to inquire and other members may have been on 
other committees, that the gentlemen be asked to come back. 
This is crucial. We are not acting, we are only hearing and 
listening. This committee is burdened with the responsibility 
of doing something. And I would ask respectfully if we could 
inquire of the gentlemen through the committee and have them 
come back to the Homeland Security Committee, the very 
committee you have asked to take up the responsibility 
singularly of oversight of the Homeland Security Department.
    And I ask the chairman for a response, and I know the 
gentlemen may not have their schedules, but looking at the 
smiling face of the Governor, it looks as if we can work that 
out. You are cutting us off from doing the questions with 
respect to the gentlemen's time, and I do respect their time. 
Mr. Chairman. I yield back to the chairman.
    Chairman Cox. I know that both the chairman and vice 
chairman have committed to continue to work with this 
committee, both formally through the hearing process and 
informally. As part of the latter, I hope that members who have 
additional questions will feel free even before Congress 
reconvenes. And the hearing record will be held open for that 
purpose.
    Ms. Jackson-Lee. Will the gentleman extend an invitation to 
the Chair and Cochair? That is my inquiry and my question, and 
I think they would be receptive to that invitation. This is a 
work in progress and it is not complete.
    Mr. Shays. Would the gentleman yield? It may be if these 
gentlemen cannot attend that--we had Mr. Lehman and Senator 
Kerrey come before us and they likewise did an excellent job 
and I think that is the strength of this Commission. There are 
other members who could come before us as well.
    Ms. Jackson-Lee. I would welcome that. I welcome any 
opportunity for us to pursue the work of the Commission. I 
think the two Chairs, Cochairs have done an excellent job. I 
think we should do that.
    Chairman Cox. Well, I don't wish to speak for our 
witnesses, but I know that they have on multiple occasions 
extended their full cooperation to this committee, and I expect 
they and their staff and other commissioners will continue to 
do so.
    We will be seeking that cooperation. It is a vital concern 
to our Nation. It is a point that I know we are in complete 
accord on.
    There being no further questions at this time, I thank you, 
Mr. Kean and Mr. Hamilton, for your testimony. And at this time 
you are excused, and I call up our second panel. Members should 
be advised as we call up the second panel, following the 
testimony of this panel, questioning will resume with Ms. 
Granger and Ms. Holmes Norton; and we will proceed, continuing 
in the order that we have already adopted.
    Our witnesses on this second panel will include Hon. J. 
Cofer Black, Counterterrorism Coordinator for the Department of 
State; Patrick Hughes, Assistant Secretary For Information 
Analysis for the Department of Homeland Security; John Brennan, 
Director of the Terrorist Threat Integration Center; and 
Maureen Baginski, the Executive Assistant Director for 
Intelligence for the Federal Bureau of Investigation.
    Some of our witnesses are involved in White House 
discussions today on the very proposals for restructuring the 
Intelligence Community that are the subject of this hearing.
    Members are informed that Mr. Hughes must depart no later 
than 2:45 p.m. today. Mr. Brennan will be with us until 3:45 
p.m. We will do our best to get as much questioning done as we 
can today before those deadlines.
    As the witnesses take their seats, I ask members to take 
their seats. The chairman will recognize first Mr. Black and 
Mr. Hughes, Mr. Brennan and Ms. Baginski. I think our panel is 
now all seated.
    Chairman Cox. Welcome, Ms. Baginski, Mr. Brennan, General 
Hughes, Mr. Black. Thank you very much for being with us. We 
look forward to an opportunity to have significant discussion 
with you.
    I know that you have offered to forgo your opening 
statements and go directly into questions. We would like, 
nonetheless, to have you put a summary of your statement on the 
record; members, I think, will benefit from that. And we will 
begin with the Counterterrorism Coordinator for the Department 
of State, Cofer Black.
    Mr. Black, your statement, please.

STATEMENT OF THE HONORABLE J. COFER BLACK, COORDINATOR, OFFICE 
  OF THE COORDINATOR FOR COUNTERTERRORISM, U.S. DEPARTMENT OF 
                             STATE

    Mr. Black. Mr. Chairman, thank you very much, distinguished 
members of the committee. Thank you for the opportunity to 
testify on the recommendations of the 9/11 Commission. I will 
attempt to summarize my formal, written statement and ask that 
you include my full testimony in the record.
    Today's hearing offers a timely opportunity to examine 
broad recommendations to reorganize the national security 
institutions of the U.S. Government in order to combat 
terrorism. I welcome the invitation to contribute to this 
important debate on how to protect American citizens at home 
and abroad.
    Following the September 11 attacks, the administration 
developed the National Strategy for Combating Terrorism, which 
outlines the broad policy framework for coordinated actions to 
prevent terrorist attacks against the United States, its 
citizens, its interests and its friends around the world. The 
national strategy is premised on the systematic application of 
the key elements of national security, diplomacy, financial, 
law enforcement, military and intelligence and information 
sharing. Today I would like to address the process in place at 
the Department of State.
    The Bureau of Intelligence and Research, or INR, is the 
Department's liaison to the Intelligence Community at large. My 
office works closely with INR, with the Bureau of Diplomatic 
Security's Office of Intelligence and Threat Analysis, to 
assess the current intelligence information related to 
terrorist threats overseas and at home. Through these 
relationships, the State Department has ample opportunities to 
provide input to the U.S. Government's process for collecting 
and analyzing intelligence for counterterrorism purposes.
    Finally, as a participant in the National Security 
Council's Counterterrorism Security Group, I have frequent 
interactions with other interagency officials who shape and 
direct the counterterrorism policies of the U.S. Government.
    The State Department will play a crucial role in the 
President's strategy to implement reforms that will make 
Americans safer at home and abroad. I look forward to the role 
that the Department and my office will play in this process 
through the intra--and interdepartmental relationships briefly 
outlined in my testimony today.
    Mr. Chairman, with this background and experience in mind, 
I will conclude my formal testimony. Thank you again for the 
opportunity to appear before your committee. I will be happy to 
take questions.
    Chairman Cox. Thank you.
    [The statement of Mr. Black follows:]

            Prepared Statement of the Honorable Cofer Black

    Chairman Cox, Distinguished Members of the Committee, thank you for 
the opportunity to testify today on the recommendations of the 9-11 
Commission to reorganize the national security institutions of the U.S. 
Government to better combat terrorism. In light of the testimony you 
will hear from my co-panelists and other witnesses, I will keep my 
remarks brief.
    Following the September 11 attacks, the Administration developed 
the National Strategy for Combating Terrorism, which outlined the 
policy framework for coordinated actions to prevent terrorist attacks 
against the United States, its citizens, its interests, and its friends 
around the world. Our work to implement the National Strategy will 
ultimately create an international environment inhospitable to 
terrorists and all those who support them. We have implemented this 
strategy to act simultaneously on four fronts:
        <bullet> Defeat terrorist organizations of global reach by 
        attacking their sanctuaries, leadership, finances, and command, 
        control and communications;
        <bullet> Deny further sponsorship, support, and sanctuary to 
        terrorists by cooperating with other states to take action 
        against these international threats;
        <bullet> Diminish the underlying conditions that terrorists 
        seek to exploit by enlisting the international community to 
        focus its efforts and resources on the areas most at risk; and
        <bullet> Defend the United States, its citizens, and interests 
        at home and abroad.
    Today's hearing offers an opportunity to examine the 9-11 
Commission's recommendations on information and intelligence sharing. I 
welcome the invitation to contribute to this important national debate 
on how better to protect American citizens at home and abroad. The 
National Strategy for Combating Terrorism is premised on five key 
elements of national security--diplomatic, financial, law enforcement, 
military, and, as we will discuss today, intelligence and information 
sharing.

Intelligence Analysis and Information Sharing
    When discussing ways to improve information and intelligence 
sharing for counterterrorism, it is important to consider the 
foundation upon which we must build, in this case, the elements of 
intelligence analysis in place at the Department of State. The 
Department's Bureau of Intelligence and Research (INR) is one of the 15 
members of the U.S. Intelligence Community. My colleagues in INR share 
my opinion that we need to do much more to make it easy, not just 
possible, to share information across agencies, with state and local 
officials and with our foreign allies. This is especially important to 
the State Department because widespread, timely, and routine 
information sharing facilitates decentralized and competitive 
intelligence analysis crucial to our mission. My office also works 
closely with the Bureau of Diplomatic Security Office of Intelligence 
and Threat Analysis (DS/ITA), which focuses specifically on threats 
against U.S. interests, to assess the current intelligence information 
on terrorist threats overseas and at home.
    We also agree with the 9-11 Commission's recommendation to move 
from a system based on ``need-to-know'' to one based ``need-to-share,'' 
consistent, of course, with the 9-11 Commission's recommendation to 
``safeguard the privacy of individuals about whom information is 
shared.'' Mechanisms for separating content from source information 
could help with classification levels. This is already accomplished to 
a certain extent with tear lines. Web-based systems will undeniably be 
part of the solution, given the ubiquitous nature of this technology. 
By following the progression of technology advances in the open market, 
information sharing can be made technologically easier and less 
cumbersome.

The Counterterrorism Security Group
    Intelligence sharing within the Department and with other agencies 
was a reality before September 11, but it has since improved. Deepening 
our intelligence sharing through personnel liaison, we have provided 
the Terrorist Threat Integration Center (TTIC), among others, with 
State Department detailees, and we host detailees from the CIA and 
other agencies as well. In addition to the intelligence analysis work 
of INR and DS/ITA, S/CT and the Assistant Secretary for the Bureau of 
Diplomatic Security participate in the Counterterrorism Security Group 
(CSG). The CSG is chaired by the National Security Council and serves 
to share information and coordinate the response to terrorist threats 
against U.S. interests domestically and abroad. Each morning we join 
the NSC-chaired meeting of high-level representatives from the Homeland 
Security Council, the Departments of Defense, Justice, Treasury, and 
Homeland Security, the CIA, FBI, and TTIC. A staff-level meeting of CSG 
participants is conducted every afternoon.
    Within the CSG structure, the Department has frequent and direct 
interactions with the other senior interagency officials who shape and 
direct the counterterrorism policies of the U.S. Government. Through 
these relationships, we have ample opportunity to provide input to the 
U.S. Government process for collecting and analyzing intelligence for 
counterterrorism purposes. The quality of information exchange and 
effectiveness has improved significantly since 9/11 partly because the 
CSG mechanism promotes proper coordination among agencies regarding 
terrorist threats globally on a daily basis.

Other Department Contributions to Information Sharing
    Since 9/11, the Department of State's Bureau of Consular Affairs 
has worked with other agencies to make significant improvements to our 
ability to share information. Thanks to this new level of 
collaboration, the data holdings in the Department's consular lookout 
system now total almost 18 million records on people potentially 
ineligible to receive visas, nearly triple what we had prior to 
September 11. We now have more than eight million records from the FBI 
alone in our system. In fact, the majority of the data in the consular 
lookout system now derives from other agencies, especially those in the 
law enforcement and intelligence communities. Information sharing, of 
course, must be mutual.
    The Department now provides access to 75 million visa records in 
our consular database so that Department of Homeland Security officers 
at ports of entry can view the electronic files of every passenger with 
a visa entering the United States. This database permits detailed 
examination of the information in near-real time for all visas issued, 
including the photographs of nonimmigrant visa applicants. We are also 
sharing our consular database with the National Targeting Center, a 24/
7 operation of Customs and Border Protection in DHS.
    The Department of State joined in the establishment of the 
Terrorist Screening Center (TSC), which integrates terrorist watchlists 
and serves as the centralized point of contact for everyone from the 
U.S. police officer on the beat to the consular officer in the farthest 
reaches of the globe. Together with TTIC, which maintains the principal 
database on known and suspected international terrorists in a highly 
classified form, we rely on the TSC to ensure that consular officers 
have access to the information they need to scrutinize applications and 
deny visas to those who would do us harm. These institutions rest on a 
foundation that the Department laid in the form of TIPOFF, a pioneering 
system in the use of classified information for screening purposes. 
Much of the cost of developing and operating TIPOFF was funded through 
the Border Security Program, which the Bureau of Consular Affairs 
manages for the Department. The TIPOFF database with its approximately 
120,000 records, more than double the amount since September 11, is now 
housed at TTIC. TTIC and TSC together eliminate the stovepiping of 
terrorist data and provide a more systematic approach to posting 
lookouts on potential and known terrorists.

Conclusion
    The President indicated in his speech on August 2nd support for the 
key recommendations of the 9-11 Commission, including the establishment 
of a National Intelligence Director and a National Counterterrorism 
Center. The Department of State will play a crucial role in the 
President's plan to implement reforms that will make Americans safer at 
home and abroad. I personally look forward to the role that the 
Department and my office will play in this process, through the intra- 
and interdepartmental relationships briefly outlined in my testimony 
today.
    With this background and experience in mind, I will conclude my 
formal testimony. Thank you again for the opportunity to appear before 
the Committee. I would be happy to take your questions.

    Chairman Cox. General Hughes.

 STATEMENT OF LIEUTENANT GENERAL PATRICK M. HUGHES, USA, RET., 
 ASSISTANT SECRETARY FOR INFORMATION ANALYSIS, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Hughes. Good day, Mr. Chairman and members of the 
committee. It is a privilege to appear before you today as I 
have in the past. And today, I would like to just give you a 
short version of my views.
    We are very supportive of efforts to improve and enhance 
the Intelligence Community that are ongoing in the aftermath of 
the 9/11 Commission's report and recommendations. Today's 
hearing, I think, is in the context of information sharing and 
improvements; and in that category, the glue that links and 
holds our national intelligence and counterterrorist activities 
together is indeed the professional exchange of information 
that empowers knowledge and action, often referred to as 
``information sharing,'' but we would like to include the idea 
of ``collaboration'' in the construct.
    We are supporting making information readily available 
rapidly to all who need it to accomplish their mission, while 
at the same time facilitating interaction to better understand 
and use the knowledge that collaboration produces while always 
protecting sources and methods.
    It is a very simple philosophical underpinning; and I think 
I will give the rest of my time back to you, sir, and say I am 
willing to answer any questions you have today.
    Chairman Cox. Thank you.
    [The statement of General Hughes follows:]

                Prepared Statement of Patrick M. Hughes

    Good morning Chairman Cox and distinguished members of the 
Committee. I am privileged to appear before you today to discuss the 
role of the Office of Information Analysis (IA), within the Information 
Analysis and Infrastructure Protection Directorate (IAIP) of the 
Department of Homeland Security (DHS), as well as IA's intelligence, 
coordination, and information sharing efforts to date.
    September 11, 2001 forever transformed our nation. In one moment, 
we came face to face with a known enemy. . .on American soil. . .and a 
changed condition threatening to our way of life. This day seared 
images of devastating loss and destruction into our national 
consciousness, images that we--I--will never forget. I was present at 
the Pentagon minutes after the plane struck and I saw once again 
something I have become all too familiar with over the years. . .the 
violent outcome of a terrorist attack against unwarned unprotected 
people. The anguish and fear of the moment was written on the faces of 
many of my colleagues who never dreamed that their place of work in a 
bastion of Democracy would be struck. Our co-workers, soldiers all, lay 
in the wreckage. The damage was done.
    However, on that day, something far greater than fear and something 
much stronger than despair took root. An unshakeable faith in our 
fellow citizens, in our ideals, in our nation and an unwavering 
determination to protect and preserve what we stand for as a country 
emerged from the destruction, to guide our efforts in the fight against 
terrorism and the quest to preserve liberty. I am at my place of work 
at the Department of Homeland Security because of that motivating set 
of beliefs.
    In the aftermath of 9/11, the Department of Homeland Security was 
envisioned, formed, and is now in operation. Standing up the 
Department, the largest reorganization of government in fifty years, 
has been a great undertaking. Many employees of DHS have assumed new 
responsibilities, and all have put in long hours to ensure that while 
our strategies may change to meet the terrorist threat, our course as a 
nation will remain constant. President Bush's decision to establish the 
Department has enabled us to unify our resources into one team, to 
ready ourselves against our enemy, and to ensure the highest level of 
protection for our country and the citizens we serve.
    I became a direct part of this Department's effort when I became 
the Assistant Secretary for Information Analysis, part of the 
Information Analysis and Infrastructure Protection Directorate, on 17 
November 2003. Through the Homeland Security Act of 2002, IAIP is 
charged with integrating relevant information, intelligence analyses, 
and vulnerability assessments (whether such information, analyses, or 
assessments are provided or produced by the Department or others) to 
identify protective priorities and support protective measures by the 
Department, by other executive agencies, by State and local government 
personnel, agencies, and authorities, by the private sector, and by 
other entities.
    The philosophical underpinning of IA as an integral part of the 
IAIP Under-Secretariat of DHS is to provide the connectivity, the 
integration, the communication, the coordination, the collaboration, 
and the professional intelligence work necessary to accomplish the 
missions of, and the products and capability necessary for the 
customers and the leadership of DHS. Simply put, we perform the 
intelligence and threat analysis of Department of Homeland Security.
    IAIP is moving forward in carrying out our statutory 
responsibilities which include:
        <bullet> Providing the full range of intelligence support to 
        senior DHS leadership and component organizations and to state 
        and local and private sector respondents
        <bullet> Mapping terrorist threats to the homeland against 
        assessed vulnerabilities to drive our efforts to protect 
        against terrorist attacks
        <bullet> Conducting independent analysis and assessments of 
        terrorist threats through competitive analysis, tailored 
        analysis, and an analytical red cell
        <bullet> Assessing the vulnerabilities of key resources and 
        critical infrastructure of the United States
        <bullet> Merging the relevant analyses and vulnerability 
        assessments to identify priorities for protective and support 
        measures by the Department, other government agencies, and the 
        private sector
        <bullet> Partnering with the intelligence community, TTIC, TSC, 
        law enforcement agencies, state and local partners, and the 
        private sector, as well as DHS' components to manage the 
        collection and processing of information within DHS involving 
        threats to the Homeland into usable, comprehensive, and 
        actionable information
        <bullet> Disseminating time sensitive warnings, alerts and 
        advisories to federal, state, local governments and private 
        sector infrastructure owners and operators
    It is the mandate to independently analyze, coordinate, and 
disseminate information affecting the homeland that makes IA unique 
among its Intelligence Community partners. The analysts within 
Information Analysis are talented individuals who draw on intelligence 
from other components within DHS, IA's fellow Intelligence Community 
members, the Terrorist Threat Integration Center (TTIC), and federal, 
state and local law enforcement and private sector entities. The 
analysis produced is coordinated with the vulnerability assessment and 
consequence predictions identified by the Infrastructure Protection 
half of the IAIP Directorate.
    The Office of Information Analysis communicates timely and valuable 
threat products to state and local officials, federal sector specific 
agencies (as indicated in Homeland Security Presidential Directive-7, 
``Critical Infrastructure Identification, Prioritization, and 
Protection''), and the private sector as is appropriate. The 
relationship IA and indeed the entire Department of Homeland Security 
has with these contacts results in the IAIP Directorate being in the 
position to effectively manage information requirements from the state 
and local governments and private sector entities that are vital to 
protecting the homeland. DHS will continue to work in close 
communication with these officials, as well as with the other 
organizations it receives inputs from, to maintain the effective 
relationships that have been established.
    IA is the heart of the intelligence effort at DHS. It is 
responsible for accessing and analyzing the entire array of 
intelligence relating to threats against the homeland, and making that 
information useful to first responders, state and local governments, 
and private sector officials. As such, IA provides the full-range of 
intelligence support to the Secretary, DHS leadership, the 
Undersecretary for IAIP, and DHS components. Additionally, IA ensures 
that the best intelligence information informs the administration of 
the Homeland Security Advisory System.
    Central to the success of the DHS mission is the close working 
relationship among components, the Office of Information Analysis and 
the Office of Infrastructure Protection (``IP''), and the Homeland 
Security Operations Center (HSOC), to ensure that threat information 
and situational awareness are correlated with critical infrastructure 
vulnerabilities and protective programs. Together, the three offices 
provide real time monitoring of threat information and critical 
infrastructure to support the Department of Homeland Security's overall 
mission. This permits us to immediately respond to and monitor emerging 
potential threat information and events, and to take issues or 
information for more detailed analysis and recommendations for 
preventive and protective measures. The integration of information 
access and analysis on the one hand, and vulnerabilities analysis and 
protective measures on the other, is the fundamental mission of the 
IAIP Directorate.

IA and TTIC
    The close professional associations that have been forged between 
the two offices will allow both organizations to work on complimenting 
each other in the best interest of the nation's security. For example, 
IA is responsible for translating the analysis done at the TTIC into 
actionable data for State, territorial, tribal, local, and private 
sector officials responsible for homeland security. From a personal 
standpoint, I believe both organizations are fulfilling their missions 
and enriching both each other and the wider Intelligence Community. My 
relationship with TTIC Director John Brennan could not be better. At 
present, we talk at least daily and as specific threats pertinent to 
the homeland arise. This opinion is backed by the tremendous track 
record of success TTIC has in supporting the Department of Homeland 
Security and its needs. As partners, IA and TTIC spend much time 
communicating, both through the DHS representatives located at TTIC and 
through direct communication of leadership.

IA and TSC
    The Office of Information Analysis has a similarly productive 
relationship with the Terrorist Screening Center. While both perform 
duties that result in information being passed to local first 
responders and State, territorial, tribal, and local officials, both 
entities have separate missions. IA provides the full spectrum of 
information support necessary for the operation of the Department of 
Homeland Security and for the benefit of Federal, State, territorial, 
tribal, local, and private sector officials throughout the United 
States, to secure the homeland, defend the citizenry and protect our 
critical infrastructure. In contrast, the TSC is in the process of 
developing a fully interoperable watch list database which will provide 
immediate responses to border-screening and law-enforcement authorities 
to identify suspected terrorists trying to enter or operate within the 
United States.
    Just as TTIC plays a vital role in supplying its federal partners 
with the broad threat picture, the TSC has quickly become an essential 
resource for local law enforcement, its federal government 
contributors, and other users. Through the matching and cross-
referencing of lists, the TSC is allowing those personnel on the front 
lines of the fight against terrorism to access the information they 
need to identify and detain suspicious individuals.
    DHS, IAIP, and especially IA will continue to work with the TSC to 
coordinate information sharing efforts and to establish requirements 
for accessing information. IA and the TSC will grow together in their 
effort to serve the people and guardians of this nation.

Improving Information Sharing and Collaboration
    While existing relationships are gaining momentum every day, we 
must assure that we formalize a process which will improve information 
sharing and collaboration. The Department is charged with this 
responsibility by law and by Executive Order.
    Our goal is to effectively, efficiently, and synergistically pass 
and receive information in all of its forms for the benefit of the 
United States Government, our State, tribal, territorial, local, and 
private sector partners, and other DHS entities. In order to achieve 
this goal we must develop technical and procedural transparency and 
interoperability in mind to the greatest extent possible. However, the 
most significant impediments to information sharing are not 
technological, they are legal and cultural. We needed to start with the 
``business case'' and work toward a common, integrated, and rational 
vision for the Department. That is precisely what we are doing.
    Information sharing involves working with the Department of Justice 
(DOJ), Federal Bureau of Investigation (FBI), and Department of Defense 
(DOD), the Central Intelligence Agency (CIA), the State Department and 
others. For instance, as part of this effort, the DOJ and DHS 
information sharing staffs are working hard to bring the Homeland 
Security Information Network (HSIN), Law Enforcement Online (LEO), and 
the Regional Information Sharing System (RISSNET) together with the 
goal of making the systems more compatible as quickly as possible. As 
we rely on existing systems, we recognize the significant work needed 
ahead to achieve compatibility and interoperability to meet the 
challenges faced by DHS.

In Conclusion
    The Office of Information Analysis' unique position, roles and 
efforts have lead to many challenges. However, the work is not done. 
These challenges now lead us to the next logical step in protecting the 
nation, its people, and its infrastructure. Following careful review of 
the 9/11 Commission report, President Bush announced his support for 
the creation of National Intelligence Director (NID) and the 
establishment of the National Counterterrorism Center (NCTC). We at the 
Department of Homeland Security look forward to continuing to work with 
the Congress to take these important steps in preventing terrorist 
attacks against the United States.
    The Department of Homeland Security is a prime example of how 
changes have already been made to the Intelligence Community and the 
counterterrorism community as they existed before September 11th, 2001. 
The creation of the NID and NCTC will enhance DHS' ability to better 
identify threats and map those threats against vulnerabilities. 
However, these are not the only recommendations the Commission made. 
The Commission also recommended continued improvements in information 
sharing among agencies involved in national security. DHS, especially 
the IAIP Directorate, plays a central role in this effort as we 
continue the work of communicating both with our partners in the 
federal government as well as with the State, territorial, tribal, 
local, and private sector officials charged with protecting the people 
and infrastructure of this country.
    Building up the IA office, increasing our information capabilities, 
and coordinating information sharing across the entire federal 
government are monumental tasks. And, while we have accomplished much 
in a short period of time, we continue to press forward to strengthen 
this vital office and our ability to support the overall DHS mission of 
securing our homeland. In order for the Office of Information Analysis 
to accomplish its unique mission, we need the right organizational 
structure, qualified and cleared personnel, resources, and technical 
capabilities.
    We are working hard to coordinate and integrate the intelligence 
and information necessary to protect our people and our critical 
infrastructure. Yet, we still have much work to do. We have made 
tremendous progress and the dedication and devotion to duty of those 
who do the work of intelligence at DHS is unparalleled.
    We are meeting threats to the homeland with determination and 
dedication to lead this nation to a higher level of protection every 
single day. The sheer depth and breadth of our country means that one 
slip, one gap, one vengeful person, can threaten the lives of our 
citizens at any time, in any number of ways. There are no guarantees, 
but I firmly believe the American people are more secure and better 
prepared than before September 11th 2001, directly because of the 
Department of Homeland Security.
    A brief note about the threat: it is real. Terrorists are at work 
around the world and when they succeed it seems our best efforts in 
intelligence, security, defense and protective measures have somehow 
failed, despite the many successes we have against terrorists. We 
continue to receive substantial information concerning terrorist intent 
to strike us again in our homeland. As we approach the period of our 
national political process and the many associated events, it is my 
view that we are entering a period of significant risk, perceived by 
those who would strike us as an opportunity to tear our societal and 
cultural fabric. We cannot relax, we cannot falter, we cannot live in 
fear. Instead, we who do the work of intelligence and law enforcement 
must persevere and provide insight and knowledge to those who lead and 
decide.
    We have accomplished much in IA since our inception and we are on 
course with our partners and colleagues to continue to achieve. We are 
fully connected to the U.S. Intelligence Community and well informed. 
We are integrated into the workings of the domestic security structure. 
We are connected with law enforcement. We have working analysts poring 
over the detail of intelligence and law enforcement reporting to 
discover the hidden patterns and concealed threads of terrorist 
activity and the manifestation of other threats to America from crime 
with national security implications and from other disasters and 
threatening conditions that come our way. We have a sense of purpose 
and we have embarked on what has likely never been done before with 
regard to information fusion. . .to fully understand the threat and the 
conditions extant in the ``new normal'' United States context that we 
see now and in the future. The 9-11 attacks, the December 2003--
February 2004 period of heightened concern, the recent attack in Madrid 
and potential but largely interdicted attacks elsewhere, and the fact 
of anthrax and ricin attacks here in the United States, combine to form 
this ``new normal'' condition of constant possibility that we cannot 
ignore.
    At the same time we are--I am--most mindful of the need to protect 
the civil liberties and personal privacy of our citizens and to 
preserve and defend our Constitution and our way of life. In the end, 
we are--I am--focused on defeating the terrorists before they can 
strike. That is why we exist.
    Chairman Cox and Members of the Committee, this concludes my 
prepared statement. I would be happy to answer any questions you may 
have at this time.

    Chairman Cox. Mr. Brennan.

   STATEMENT OF JOHN O. BRENNAN, DIRECTOR, TERRORIST THREAT 
                       INTEGRATION CENTER

    Mr. Brennan. Good afternoon, Mr. Chairman and members of 
the committee. It is a pleasure to appear before you today to 
talk about information sharing and homeland security. And I 
would like to offer just a few brief ideas, as well as lessons 
learned from the TTIC experience on information sharing.
    In order to minimize the potential for dangerous seams and 
coverage as well as to optimize the use of finite resources, we 
must continue building and implementing a national framework 
for the origination, analysis and dissemination of terrorism 
information by the U.S. Government. The delineation of such 
responsibilities must be as unambiguous and as straightforward 
as possible to ensure we continue building an agreed-upon 
information sharing architecture, both horizontal and vertical, 
that is based on a clear understanding of who is responsible 
for what.
    Such an architecture must include an overall Intelligence 
Community business model framework to ensure comprehensive, 
robust and as appropriate, alternative terrorism capability; a 
national information sharing framework based on increased 
clarity of mission roles and responsibilities, including an 
understanding of the information needs of the Federal 
Government, State and local officials and law enforcement and 
the private sector; an overall blueprint for information 
technology systems, including strategic prioritization, 
implementation schedules and sunset requirements for legacy 
systems that impede interoperability; community-wide standards 
for reporting formats, dissemination requirements, 
interoperable hardware and software; and role-based data 
access.
    There are important lessons in the establishment of TTIC. 
Assignees to TTIC retain authorities to home organizations, 
which allows TTIC to access more information than in any single 
government department or agency.
    Now, a key TTIC objective has been to develop an integrated 
information technology architecture so its sophisticated 
analytic tools and search capabilities can be applied against 
the many terabytes of data available to the Federal Government. 
We must be able to cross-check these different data sets which 
are collected by departments and agencies statutorily 
authorized to do so. Our approach for this is called the 
Sanctum architecture, which will allow analysts to conduct 
simultaneous and federated searches against data sets resident 
on separate networks. By the end of this month, we will be able 
to conduct federated simultaneous searches against the data 
contained in six separate networks, and other networks will be 
added throughout the year.
    An additional challenge is dealing with disparate 
information technology systems and nonstandardized information 
technology practices, processes and procedures, including a 
plethora of legacy information systems and networks that impede 
interoperability. This is not to say that there should be a 
single integrated database of all terrorism information in the 
U.S. Government. However, overall guidelines for U.S. 
Government information technology systems and enforced 
community-wide standards regarding metadata tagging, security 
practices and procedures would go a long way toward 
implementing an overall national framework that promotes 
interoperability and information sharing.
    And I look forward to taking your questions.
    [The statement of Mr. Brennan follows:]

                   Prepared Statement John O. Brennan

    Good afternoon, Chairman Cox, Ranking Member Turner, and the 
Members of the House Select Committee on Homeland Security.
    I appreciate the opportunity to join my colleagues from the 
Departments of State and Homeland Security, and the Federal Bureau of 
Investigation, to discuss progress made, lessons learned, and areas 
that might be strengthened regarding information sharing and associated 
activities to protect U.S. interests at home and abroad from the 
terrorist threat.
    Significant progress has been made on information sharing 
throughout the Federal government and beyond since the tragic events of 
September 11, 2001. The implementation of streamlined processes and 
procedures, enhanced partnerships bridging organizational boundaries, 
and the deployment of new technologies have enabled the integration and 
dissemination of information on terrorist threats to U.S. interests at 
home and abroad in a more timely and comprehensive manner than ever 
before. Likewise, the Department of Homeland Security (DHS) and the 
Federal Bureau of Investigation (FBI) are expediting the provision of 
terrorist threat-related and associated information to state and local 
government officials, the private sector, and law enforcement entities.
    As we collectively continue efforts to improve information sharing, 
as well as move toward implementing recommendations made by the 9/11 
Commission, I offer some core concepts as well as lessons learned based 
on the experience establishing the multi-agency joint venture known as 
the Terrorist Threat Integration Center (TTIC).
    It is my personal opinion that in order to minimize the potential 
for dangerous seams in coverage as well as to optimize the use of 
finite analytic resources, we must continue building and implementing a 
national framework for terrorism analytic responsibility in the U.S. 
Government. The delineation of substantive responsibilities for 
terrorism analysis among the various members of the Intelligence 
Community must be as unambiguous and as straightforward as possible, 
while still allowing alternative views to be heard. An unambiguous 
delineation of roles and responsibilities is critical to ensure that we 
continue building an information-sharing architecture--both horizontal 
and vertical--that is based on a clear understanding of who has 
responsibility for analytic ``output.'' With well-defined 
responsibilities, we will have a system that identifies ``who'' is 
responsible for providing ``what'' to ``whom.'' We must continue 
progress already made in clarifying roles and responsibilities and the 
building of an information-sharing architecture, with particular 
emphasis on establishing:
        <bullet> An overall Intelligence Community business model 
        framework to ensure comprehensive, robust, and, as appropriate, 
        redundant terrorism analysis capability.
        <bullet> A national information-sharing framework based on 
        increased clarity of mission roles and responsibilities, with a 
        common understanding of the information requirements of 
        individual U.S. Government components and beyond. This 
        information-sharing framework should extend beyond the 
        Intelligence Community and where appropriate, include linkages 
        to state and local officials and law enforcement; commercial 
        industry; foreign entities; and other non-traditional partners.
        <bullet> An overall blueprint for information technology 
        systems, including strategic prioritization, implementation 
        schedules, as well as establishment of a ``sunset'' list for 
        legacy systems that impede interoperability.
        <bullet> Community-wide standards for reporting formats, 
        dissemination requirements, and interoperable hardware and 
        software, with an information technology architecture for role-
        based data access.
    There are some relevant lessons from the establishment of TTIC. 
Assignees to TTIC carry the authorities of their home organizations 
with them, such that in TTIC there is the ability to access more 
information than in any single independent agency or department. In 
fact, TTIC has direct access connectivity with 26 separate U.S. 
Government networks, enabling access to terrorism-related information 
systems and databases spanning the intelligence, law enforcement, 
homeland security, diplomatic, and military communities. This 
unprecedented information access allows for a more comprehensive 
understanding of terrorist threats to U.S. interests at home and abroad 
and, most importantly, enables the provision of this information and 
related analysis to those responsible for detecting, disrupting, 
deterring, and defending against terrorist attacks.
    A key TTIC objective is to develop an integrated information 
technology architecture so that sophisticated analytic tools and 
federated search capabilities can be applied to the many terabytes of 
data available to the Federal Government. We must be able to cross 
check these different data sets, which are collected by departments and 
agencies statutorily authorized to do so, in a manner that allows us to 
identify terrorists and their supporters before they reach our shores 
or when they emerge within our midst. Simply put, we need to create new 
knowledge from existing information currently resident in a distributed 
architecture. We must also implement the appropriate controls to ensure 
security and privacy of information. Progress has been made toward this 
end. Our approach, called the ``Sanctum Architecture,'' is expected to 
reach initial operating capability later this month, allowing analysts 
to search against data sets resident on 6 separate networks. Over time, 
the goal for the Sanctum architecture is to expand this capability to 
enable federated searches across multiple data sets--in other words, 
one query against the holdings of multiple systems and databases on 
multiple networks.
    An additional challenge is that of disparate information technology 
systems and non-standardized information technology practices, 
processes, and procedures, including a plethora of legacy information 
systems and networks that impede interoperability. This is not to say 
that there should be a single, integrated database of all terrorism 
information in the U.S. Government. However, overall guidelines for 
U.S. Government information technology systems and enforced community-
wide standards (metadata tagging, security practices and procedures, 
etc) would go a long way toward implementing an overall national 
framework that promotes interoperability and information sharing.
    In conclusion, as we move forward with information sharing 
initiatives as well as address the broader issues associated with 
intelligence reform, integration of effort should serve as an important 
organizing principle. In particular, we need to enhance orchestration 
of the broad array of counterterrorism activities across the U.S. 
Government and beyond. In this regard, I support the concept of 
establishing a National Counterterrorism Center to orchestrate and 
integrate, as appropriate, the myriad of activities working to protect 
U.S. interests at home and abroad from the scourge of international 
terrorism. We all have a shared responsibility to continue implementing 
a new information sharing paradigm and an overall national 
counterterrorism system that maximizes the security and safety of all 
Americans, wherever they live or work. I look forward to continue 
working with my colleagues here today and with the Members of this 
committee toward this end.

    Chairman Cox. Ms. Baginski, I should note for members, the 
title Executive Assistant Director refers to the Bureau and you 
are in fact the Director of the Office of Intelligence.

STATEMENT OF MAUREEN BAGINSKI, EXECUTIVE ASSISTANT DIRECTOR FOR 
         INTELLIGENCE, FEDERAL BUREAU OF INVESTIGATION

    Ms. Baginski. Thank you very much. It is a pleasure to 
appear before you and I will make my remarks brief.
    We applaud--at the FBI we applaud the work of the 9/11 
Commission. We are grateful for their fine work. We are pleased 
they have embraced our reforms to date, and we agree with them 
wholeheartedly that we have additional work to do.
    The adversary we face today is networked and enabled by 
information technology that allows it to have a shared view of 
the objective, a clear understanding of roles and 
responsibilities in carrying out the objective and very tight 
decision loops in taking action. To defeat this adversary, we, 
the intelligence and homeland security communities, have to 
look just like it. Each of us sitting here at this table 
represents a node on the Federal network. Our job is to 
interoperate with each other, but also ensure that we can 
interoperate with other information networks, particularly 
those at the State and local and tribal level, who will be the 
first to encounter threats and the first called upon to defend 
against them.
    At the FBI, we define intelligence very simply. We call 
intelligence vital information about those who would do us 
harm; and we see the only true measure of intelligence, good 
intelligence, is whether or not it helps someone make a better 
decision. The decision makers who have to defend our Nation are 
varied indeed, and they range from the President to the 
patrolman. So our first commitment on the intelligence side is 
to invest very substantial resources in understanding the 
decisions that have to be made and ensuring that we provide the 
proper information to do that.
    Over 2 years ago, Director Mueller recognized this and 
appointed an Assistant Director of the FBI for Law Enforcement 
Coordination. That Assistant Director is sitting behind me, Mr. 
Louis Quijas, who comes to us from High Point, North Carolina, 
where he was a police chief, and before that, the Kansas City 
chief.
    Everything we have done since 9/11 in the FBI and across 
the Federal, State, local and tribal governments has been 
designed to create this information network, and it has been an 
evolutionary process. We began, I think, immediately after 9/11 
with bringing foreign and domestic intelligence about the 
terrorist threat together in the Oval Office in the President's 
briefings. That evolved into the creation of a TTIC where we 
institutionalized the bringing together of information around 
the threat.
    And we brought together intelligence and operations in the 
counterterrorism strategy security group headed by the National 
Security Council. We stood up the Department of Homeland 
Security designed to really overlay those threats, over our 
critical infrastructure, and to ensure that we were protected. 
And the reforms that the President has announced, the ones he 
has accepted from the creation of the National Counterterrorism 
Center and the creation of a National Intelligence Director are 
embraced as logical next steps.
    There is great parallel to that progression in the course 
we have taken with intelligence at the FBI, a very evolutionary 
path, beginning immediately after the events of 9/11 and 
standing up a very robust intelligence capability within our 
counterterrorism directorate focused basically on raw 
intelligence production and finished analysis; and then 
gradually, over a 3-year period, migrating to the creation of 
an enterprise-wide intelligence program led by an Executive 
Assistant Director. And I was pleased and honored to join the 
FBI in that position in May of 2003.
    Our intelligence program is actually built on four key 
principles. We want an independent collection and requirements 
management system. What we can do and what we can collect 
should not be driving what we collect. What we must collect 
should be driving what we need to know and have to know to 
defend the country has to be defining it. So that process is 
managed in my office.
    Another core principle is centralized management of 
intelligence. The power of the FBI intelligence process is in 
its distribution geographically in its 56 field offices, 400 
resident agencies and worldwide legal attache offices. My trick 
is to ensure that that process is managed against common 
threats, but not micromanaged from headquarters so we unleash 
the power that is out in the field.
    The third principle is focused strategic analysis. If all 
of our attention is on current reporting, then we are failing 
to devote the resources we need to step back from the threat so 
that we understand what we don't know and need to know, to put 
all of that information so we can make better decisions.
    And finally: the core principle of integration of 
intelligence with law enforcement operations.
    Those are our four principles.
    I am the FBI official responsible for information sharing. 
So if there are problems with information sharing and 
information policy, you are looking at the person who has to 
put in place the proper policies to do that.
    I come before you today to tell you we have made a very 
good step and we have more work to do. So that there is no 
confusion for you, it is my responsibility both within the FBI 
and outside of the FBI to ensure that the proper information is 
delivered to key decision makers, and with the timeliness they 
need it and at the classification level that they need it.
    In the interest of brevity, I want to share with you some 
of the key accomplishments we have made, because they are 
substantial and they are a good start, but they are not yet 
enough.
    First, we have issued our first-ever FBI intelligence 
requirements and collection tasking documents. These 
requirements are completely lined up with the national 
intelligence priorities framework and emanate from it. We have, 
in addition, issued an unclassified version for our partners in 
State, local and tribal law enforcement who continue to ask me, 
we will give you whatever it is you want: just tell us what it 
is you need from us.
    We have become full members of the DCI's National 
Intelligence Collection Board and National Intelligence 
Analysis and Production Board, and we are participating in the 
drafting of national intelligence estimates.
    We have created a collection capabilities database that 
tells us what sources we have and could bring to bear on all 
threats facing the Nation. Most importantly, this database 
allows us to identify where we have critical gaps and need to 
develop new sources.
    I chair a daily intelligence board every day to ensure that 
critical decisions are made about information sharing and that 
cross-programmatic analysis is done so all information is 
brought to bear on threats.
    We completed our first-ever FBI dissemination manual. It is 
based on the principle ``right to release'' and requires a new 
classification requirement, ``required to release.'' We write 
to the lowest classification. We separate sources from methods. 
And we have just developed a Web-based intelligence authoring 
tool that requires the author to write their first version at 
the lowest classification level.
    We have set unified standards and policies for training 
intelligence analysts. We are in the process of changing the 
critical performance criteria for agents to include emphasis on 
source development and production of intelligence.
    We have tripled our raw intelligence production this year 
and doubled our production of Presidential assessments--of 
intelligence assessments.
    I want to tell you the final thing we have done is to 
develop metrics to tell you, ourselves and others whether these 
changes are making any difference. And with that, I will be 
happy to take any of your questions.
    [The statement of Ms. Baginski follows:]

               Prepared Statement of Maureen A. Baginski

Introduction
    Good afternoon, Mr. Chairman and Members of the Committee. It is my 
pleasure to come before you today to discuss the recommendations of the 
9-11 Commission, specifically information sharing issues that face the 
Federal Bureau of Investigation and other members of the Intelligence 
and Law Enforcement communities. As Director Mueller has said, the FBI 
has worked closely with the Commission and their staff throughout their 
tenure and we commend them for an extraordinary effort. Throughout this 
process, we have approached the Commission's inquiry as an opportunity 
to gain further input from outside experts. We took their critiques 
seriously, adapted our ongoing reform efforts, and have already taken 
substantial steps to address their remaining concerns. We are gratified 
and encouraged that the Commission has embraced our vision for change 
and has recognized the progress that the men and women of the FBI have 
made to implement that vision. Our work to date has been on 
strengthening FBI capabilities so that we can be a strong node on the 
information network of those who defend the nation. Vital information 
about those who would do us harm is not produced by the federal 
government alone. We are proud to also be part of an 800,000 strong 
state, local, and tribal law enforcement community who are the first to 
encounter and defend against threats.
    On August 2nd, the President announced his intention to establish a 
National Intelligence Director (NID) and a National Counter Terrorism 
Center (NCTC). We look forward to working with you on these vital 
reforms.
    Our core guiding principle at the FBI is that intelligence and law 
enforcement operations must be integrated. Under the direction of 
Director Mueller, the FBI has moved aggressively forward in this regard 
by implementing a comprehensive plan that has fundamentally transformed 
the FBI. Director Mueller has overhauled our counterterrorism 
operations, expanded our intelligence capabilities, modernized our 
business practices and technology, and improved coordination with our 
partners.
    A prerequisite for any operational coordination is the full and 
free exchange of information. Without procedures and mechanisms that 
allow information sharing on a regular and timely basis, we and our 
partners cannot expect to align our operational efforts to best 
accomplish our shared mission. Accordingly, we have taken steps to 
establish unified FBI-wide policies for sharing information and 
intelligence both within the FBI and outside it. This has occurred 
under the umbrella of the FBI's Intelligence Program, and is my 
personal responsibility as the FBI executive for information sharing. 
We have made great progress and we have much work ahead of us.

Intelligence Program
    The mission of the FBI's Intelligence Program is to optimally 
position the FBI to meet current and emerging national security and 
criminal threats by (1) aiming core investigative work proactively 
against threats to US interests, (2) building and sustaining 
enterprise-wide intelligence policies and human and technical 
capabilities, and (3) providing useful, appropriate, and timely 
information and analysis to the national security, homeland security, 
and law enforcement communities. Building on already strong FBI 
intelligence capabilities, Director Mueller created in January 2003 the 
position of Executive Assistant Director (EAD) of Intelligence and an 
Office of Intelligence. I was honored to join the FBI in May 2003 as 
the first EAD Intelligence.

Core Principles
        We built the FBI Intelligence Program on the following core 
        principles:
                <bullet> Independent Requirements and Collection 
                Management: While intelligence collection, operations, 
                analysis, and reporting are integrated at headquarters 
                divisions and in the field, the Office of Intelligence 
                manages the requirements and collection management 
                process. This ensures that we focus intelligence 
                collection and production on priority intelligence 
                requirements and on filling key gaps in our knowledge.
                <bullet> Centralized Management and Distributed 
                Execution: The power of the FBI intelligence capability 
                is in its 56 field offices, 400 resident agencies and 
                56 legal attache offices around the world. The Office 
                of Intelligence must provide those entities with 
                sufficient guidance to drive intelligence production 
                effectively and efficiently, but not micro-manage field 
                intelligence operations.
                <bullet> Focused Strategic Analysis: The Office of 
                Intelligence sets strategic analysis priorities and 
                ensures they are carried out both at headquarters and 
                in the field. This is accomplished through a daily 
                production meeting that I chair.
                <bullet> Integration of Analysis with Operations: 
                Intelligence analysis is best when collectors and 
                analysts work side-by-side in integrated operations.

Concept of Operations
    Concepts of Operations (CONOPs) guide FBI intelligence processes 
and detailed implementation plans drive specific actions to implement 
them. Our CONOPs cover the following core functions: Intelligence 
Requirements and Collection Management; Intelligence Assessment 
Process; Human Talent for Intelligence Production; Field Office 
Intelligence Operation; Intelligence Production and Use; Information 
Sharing; Community Support; Threat Forecasting and Operational 
Requirements; and Budget Formulation for Intelligence.

Accomplishments
                What follows are some of our key accomplishments:
        <bullet> We have issued the first-ever FBI requirements and 
        collection tasking documents. These documents are fully aligned 
        with the DCI's National Intelligence Priorities Framework and 
        we have published unclassified versions for our partners in 
        state, local, and tribal law enforcement.
        <bullet> We are full members of the National Intelligence 
        Collection Board and the National Intelligence Analysis and 
        Production Board, and soon will be participating in the 
        drafting of National Intelligence Estimates and the National 
        Foreign Intelligence Board.
        <bullet> We have created a collection capabilities database 
        that tells us what sources we can bring to bear on intelligence 
        issues across the FBI.
        <bullet> We have created FBI homepages on INTELINK, SIPRNET, 
        and Law Enforcement Online (LEO) for dissemination and 
        evaluation of our intelligence product.
        <bullet> We have established a daily Intelligence Production 
        Board to ensure that timely decisions are made regarding the 
        production and dissemination of all analytical products. The 
        Board reviews the significant threats, developments, and issues 
        emerging in each investigative priority area, and identifies 
        topics for intelligence products.
        <bullet> We have completed the first-ever FBI intelligence 
        dissemination manual.
        <bullet> We have proposed and are building an Intelligence 
        Officer certification program for Agents, Analysts, 
        Surveillance Specialists and Language Analysts. Once 
        established this certification will be a pre-requisite for 
        advancement to Section Chief or Assistant Special Agent in 
        Charge, thus ensuring that all FBI senior managers will be 
        fully trained and experienced intelligence officers.
        <bullet> We have completed and begun to implement the CONOPs 
        for Intelligence Analysts. We have set unified standards, 
        policies, and training for intelligence analysts. In a new 
        recruiting program veteran analysts are attending events at 
        colleges and universities throughout the country and we are 
        offering hiring bonuses to analysts for the first time in FBI 
        history.
        <bullet> We are in the process of changing the criteria on 
        which Agents are evaluated to place more emphasis on 
        intelligence-related function.
        <bullet> We are on course to triple our intelligence production 
        this year.
        <bullet> We have placed reports officers in our Joint Terrorism 
        Task Forces (JTTFs) to ensure vital information is flowing to 
        those who need it.
        <bullet> We have developed detailed metrics to judge the 
        results of our intelligence initiatives and are prepared to 
        regularly report performance and progress to Congress and other 
        stakeholders, partners, and customers.
        <bullet> We have established Field Intelligence Groups (FIGs) 
        to integrate analysts, Agents, linguists, and surveillance 
        personnel in the field to bring a dedicated team focus to 
        intelligence operations. As of June 2004, there are 1,450 FIG 
        personnel, including 382 Special Agents and 160 employees from 
        other Government agencies. Each FIG is under the direct 
        supervision of an Assistant Special Agent in Charge.
        <bullet> From October 2003 to April 2004, the FBI participated 
        in more than 10 recruitment events and plans to add at least 
        five additional events through September 2004. A marketing plan 
        also was implemented to attract potential candidates. In 
        February 2004, an advertisement specific to the Intelligence 
        Analyst position at the FBI was placed in The Washington Post, 
        The Washington Times, and the New York Times, and has since 
        been run several more times. Our National Press Office issued a 
        press release that kicked off an aggressive hiring campaign.
        <bullet> The College of Analytic Studies (CAS), established in 
        October 2001, is based at the FBI Academy in Quantico, 
        Virginia. Since FY 2002, 264 analysts have graduated from the 
        College's six-week Basic Intelligence Analyst Course. 655 field 
        and headquarters analysts have attended specialty courses on a 
        variety of analytical topics. 1,389 field and headquarters 
        employees have attended specialized counterterrorism courses 
        offered in conjunction with CIA University, and 1,010 New Agent 
        Trainees have received a two-hour instructional block on 
        intelligence.
        <bullet> The Basic Intelligence Course currently offered by the 
        CAS is being revised and updated to incorporate key elements of 
        our intelligence program. Upon completion of this effort, the 
        course will be retitled: Analytical Cadre Education Strategy I 
        (ACES I) as outlined in the Human Talent CONOPS. An 
        intermediate course entitled ACES II is anticipated in the 
        future that would target more experienced analysts. Practical 
        exercises and advanced writing skills will be emphasized, as 
        well as advanced analytical techniques.
        <bullet> The ACES I course will incorporate seven core elements 
        of intelligence relevant for new agents and new analysts. 
        Additionally ACES I will focus on assimilation, analytic 
        tradecraft and practice, thinking and writing skills, 
        resources, and field skills.
        <bullet> Complementing ACES I and ACES II, the Office of 
        Intelligence, in coordination with the FBI Training and 
        Development Division, will identify, facilitate, and exploit 
        training partnerships with other government agencies, academia, 
        and the private sector to fully develop the career choices of 
        FBI analysts. Whether an analyst chooses the specialized, 
        interdisciplinary, or managerial career path, s/he will have 
        the opportunity to attend courses offered through the Joint 
        Military Intelligence Training Center, other government 
        training centers, and private companies.
        <bullet> The Office of Intelligence is also establishing 
        education cooperative programs where college students will be 
        able to work at the FBI while earning a four-year degree. 
        Students may alternate semesters of work with full-time study 
        or may work in the summers in exchange for tuition assistance. 
        In addition to financial assistance, students would benefit by 
        obtaining significant work experience, and the FBI would 
        benefit through an agreement requiring the student to continue 
        working for the FBI for a specific period of time after 
        graduation. This program will be implemented in FY 2005.
        <bullet> An Analyst Advisory Group has also been created 
        specifically to address analytical concerns. I established and 
        chair the advisory group--composed of Headquarters and field 
        analysts. The group affords analysts the opportunity to provide 
        a working-level view of analytic issues and to participate in 
        policy and procedure formation. They are involved in developing 
        promotional criteria, providing input for training initiatives, 
        and establishing the mentoring program for new FBI analysts.
        <bullet> The Career Mentoring Working Group of the Analyst 
        Advisory Group is creating a career mentoring program to 
        provide guidance and advice to new analysts. Once implemented, 
        all new Intelligence Analysts will have a mentor to assist 
        them. The career mentor will have scheduled contact with the 
        new analyst on a monthly basis throughout the analyst's first 
        year of employment.
        <bullet> As of this year, the Director's Awards will feature a 
        new category: the Director's Award for Excellence in 
        Intelligence Analysis. Nominees for this award must display a 
        unique ability to apply skills in intelligence analysis in 
        furtherance of the FBI's mission, resulting in significant 
        improvements or innovations in methods of analysis that 
        contribute to many investigations or activities, and/or 
        overcoming serious obstacles through exceptional perseverance 
        or dedication leading to an extraordinary contribution to a 
        significant case, program, threat, or issue.
        <bullet> Turning to intelligence training for our agents, we 
        are now working to incorporate elements of our basic 
        intelligence training course into the New Agents Class 
        curriculum. We expect that work to be completed by September. A 
        key element of this concept is that agents in New Agents 
        Training and analysts in the College of Analytic Studies will 
        conduct joint training exercises in intelligence tradecraft. 
        The first offerings to contain these joint exercises are 
        expected in December of this year. In addition to this, we are 
        in the process of changing the criteria on which agents are 
        evaluated to place more emphasis on intelligence-related 
        functions and information sharing.
        <bullet> On March 22, 2004, Director Mueller also adopted a 
        proposal to establish a career path in which new Special Agents 
        are initially assigned to a small field office and exposed to a 
        wide range of field experiences. After approximately three 
        years, agents will be transferred to a large field office where 
        they will specialize in one of four program areas: 
        Intelligence, Counterterrorism/ Counterintelligence, Cyber, or 
        Criminal, and will receive advanced training tailored to their 
        area of specialization. In our Special Agent hiring, we have 
        changed the list of ``critical skills'' we are seeking in 
        candidates to include intelligence experience and expertise, 
        foreign languages, and technology.
        <bullet> Our language specialists are critical to our 
        intelligence cadre as well. The FBI's approximately 1,200 
        language specialists are stationed across 52 field offices and 
        headquarters, and are now connected via secure networks that 
        allow language specialists in one FBI office to work on 
        projects for any other office. Since the beginning of FY 2001, 
        the FBI has recruited and processed more than 30,000 linguist 
        applicants. These efforts have resulted in the addition of 
        nearly 700 new linguists with a Top Secret security clearance. 
        In addition, the FBI formed a Language Services Translation 
        Center to act as a command and control center to coordinate 
        translator assignments and maximize its capacity to render 
        immediate translation assistance.

Information Sharing--Our Relationship with the Intelligence and Law 
Enforcement Communities
    The FBI shares intelligence with other members of the Intelligence 
Community, to include the intelligence components of the Department of 
Homeland Security (DHS), through direct classified and unclassified 
dissemination and through websites on classified Intelligence Community 
networks. The FBI also shares intelligence with representatives of 
other elements of the Intelligence Community who participate in Joint 
Terrorism Task Forces (JTTFs) in the United States or with whom the FBI 
collaborates in activities abroad. FBI intelligence products shared 
with the Intelligence Community include both raw and finished 
intelligence reports. FBI intelligence products shared with the 
Intelligence Community include Intelligence Information Reports (IIRs), 
Intelligence Assessments, and Intelligence Bulletins. To support 
information sharing, there is now a Special Agent or Intelligence 
Analyst in the JTTFs dedicated to producing ``raw'' intelligence 
reports for the entire national security community, including state, 
municipal, and tribal law enforcement partners and other JTTF members. 
These reports officers are trained to produce intelligence reports that 
both protect sources and methods and maximize the amount of information 
that can be shared. It is the responsibility of the FIGs to manage, 
execute and maintain the FBI's intelligence functions within the FBI 
field office. FIG personnel have access to TS and SCI information so 
they will be able to receive, analyze, review and recommend sharing 
this information with entities within the FBI as well as our customers 
and partners within the Intelligence and law enforcement communities.
    In addition, classified intelligence and other sensitive FBI data 
are shared with cleared federal, state, and local law enforcement 
officials who participate in the JTTFs. The JTTFs partner FBI personnel 
with hundreds of investigators from various federal, state, and local 
agencies, and are important force multipliers in the fight against 
terrorism. Since September 11, 2001, the FBI has increased the number 
of JTTFs from 34 to 100 nationwide. We also established the National 
Joint Terrorism Task Force (NJTTF) at FBI Headquarters, staffed by 
representatives from 38 federal, state, and local agencies. The mission 
of the NJTTF is to enhance communication, coordination, and cooperation 
by acting as the hub of support for the JTTFs throughout the United 
States, providing a point of fusion for intelligence acquired in 
support of counterterrorism operations. The FBI will continue to create 
new avenues of communication between law enforcement agencies to better 
fight the terrorist threat.
    The FBI has also established a robust channel for sharing 
information with the Terrorist Threat Integration Center (TTIC) by 
providing direct electronic access to classified and unclassified 
internal FBI investigative and operational databases, with narrow 
exceptions for certain types of sensitive domestic criminal cases 
unrelated to terrorism. TTIC also has direct electronic access to 
internal FBI headquarters division websites and e-mail capabilities on 
the FBI's classified intranet system. Both FBI and non-FBI personnel 
assigned to TTIC have access to this information.
    The FBI has agreed to provide a substantial permanent staff to 
TTIC. TTIC's mission is to enable full integration of terrorist threat-
related information and analysis. It creates a structure to 
institutionalize sharing across appropriate federal agency lines of 
terrorist threat-related information in order to form the most 
comprehensive threat picture.
    Although the FBI retains authority to approve dissemination of raw 
FBI information by TTIC to other agencies, the FBI authorizes the TTIC 
to share FBI intelligence products by posting them on the TTIC Online 
website on Intelink-TS. The TTIC Online website provides additional 
security safeguards, and access is granted to Intelligence Community 
users who have a need-to-know for more sensitive classified 
intelligence on international terrorism from the FBI and other 
agencies. The FBI also authorizes the National Counterintelligence 
Executive (NCIX) to share FBI counterintelligence products on the 
Intelink-CI(iCI) website with similar safeguards and access by users 
who have a need-to-know for more sensitive classified 
counterintelligence products.
    In addition to this, the Bureau also fully contributes intelligence 
analysis to the President's Terrorist Threat Report (PTTR). These 
products are coordinated with the Central Intelligence Agency (CIA), 
DHS, and other federal agencies. In addition to the PTTR, the FBI 
provides Presidential Intelligence Assessments directly to the 
President and the White House Executive Staff.
    The FBI is also committed to providing those tools which assist law 
enforcement in intelligence-led policing--from the National Crime 
Information Center, the Integrated Automated Fingerprint Identification 
System, and the Interstate Identification Index, to Law Enforcement 
Online (LEO), a virtual private network that reaches federal, state, 
and law enforcement agencies at the Sensitive but Unclassified (SBU) 
level. LEO user's total nearly 30,000 and that number is increasing. 
That total includes more than 14,000 state and local law enforcement 
members. LEO makes finished FBI intelligence products available, 
including Intelligence Assessments resulting from analysis of criminal, 
cyber, and terrorism intelligence. Our LEO Intelligence Bulletins are 
used to disseminate finished intelligence on significant developments 
or trends. Intelligence Information Reports also are available on LEO 
at the Law Enforcement Sensitive classification level. The FBI also 
recently posted the requirements document on LEO, which provided state 
and local law enforcement a shared view of the terrorist threat and the 
information needed in every priority area.
    LEO also has secure connectivity to the Regional Information 
Sharing Systems network (riss.net). The FBI Intelligence products are 
disseminated weekly via LEO to over 17,000 law enforcement agencies and 
to 60 federal agencies, providing information about terrorism, 
criminal, and cyber threats to patrol officers and other local law 
enforcement personnel who have direct daily contacts with the general 
public. The FBI will use an enhanced LEO as the primary channel for 
sensitive but unclassified communications with other federal, state and 
local agencies. LEO and the DHS Joint Regional Information Exchange 
System (JRIES) will also be interoperable.
    In the spring of 2002, the International Association of Chiefs of 
Police (IACP) met and agreed that a collaborative intelligence sharing 
plan must be created to address the inadequacies of the intelligence 
process that, in part, led to the failure to prevent the events of 
September 11. In response, the Global Justice Information Sharing 
Initiative (Global), which is a Federal Advisory Committee to the U.S. 
Attorney General, formed the Global Intelligence Working Group (GIWG). 
The GIWG is comprised of experts and leaders from local, state, and 
federal law enforcement, including members from the FBI. Their efforts 
resulted in the creation of the National Criminal Intelligence Sharing 
Plan (NCISP).
    On February 11, 2004 the Attorney General announced the creation of 
the Justice Intelligence Coordinating Council (JICC). I currently chair 
this Council, which is comprised of the heads of Department of Justice 
(DOJ) agencies with intelligence responsibilities. The Council works to 
improve information sharing within DOJ, and ensures that DOJ meets the 
intelligence needs of outside customers and acts in accordance with 
intelligence priorities. The Council will also identify common 
challenges (such as electronic connectivity, collaborative analytic 
tools, and intelligence skills training) and establish policies and 
programs to address them.
    On February 20, 2004 the FBI formed the Information Sharing Policy 
Group, comprised of Executive Assistant Directors, Assistant Directors, 
and other senior executive managers. I serve as the co-chair. This 
group is establishing the FBI's information and intelligence sharing 
policies.
    At the same time, we have intelligence analysts from other agencies 
working in key positions throughout the Bureau. The Associate Deputy 
Assistant Director for Operations in the Counterterrorism Division is a 
CIA detailee. This exchange of personnel is taking place in our field 
offices as well.
    We have also worked closely with DHS to ensure that we have the 
integration and comprehensive information sharing between our agencies 
that are vital to the success of our missions. The FBI and DHS share 
database access at TTIC, in the National JTTF at FBI Headquarters, in 
the Foreign Terrorist Tracking Task Force (FTTTF) and the Terrorist 
Screening Center (TSC), and in local JTTFs in our field offices around 
the country. We worked closely together to get the new Terrorist 
Screening Center up and running. We hold weekly briefings in which our 
Counterterrorism analysts brief their DHS counterparts on current 
terrorism developments. The FBI and DHS now coordinate joint warning 
products to address our customers' concerns about multiple and 
duplicative warnings. We designated an experienced executive from the 
Transportation Security Administration to run the TSC, a DHS executive 
to serve as Deputy Director of the TSC, and a senior DHS executive was 
detailed to the FBI to ensure coordination and transparency between the 
agencies.
    In order to improve the compatibility of information technology 
systems throughout the Intelligence Community and increase the speed 
and ease of information sharing and collaboration, the FBI's 
information technology team has worked closely with the Chief 
Information Officers of DHS and other Intelligence Community agencies, 
to develop our recent and ongoing technology upgrades to ensure the 
interoperability of the various information systems. To facilitate 
further coordination, the FBI Chief Information Officer (CIO) sits on 
the Intelligence Community CIO Executive Council. The Council develops 
and recommends technical requirements, policies and procedures, and 
coordinates initiatives to improve the interoperability of information 
technology systems within the Intelligence Community.
    The CIO is also working with DOJ on interfaces between the 
Intelligence Community System for Information Sharing (ICSIS) and the 
Law Enforcement Information Sharing (LEIS) initiative, with the FBI's 
Criminal Justice Information Services (CJIS) Division, to increase the 
sharing of intelligence-related information to and from state and local 
officials.
    In conclusion, the FBI has a responsibility to the nation, 
Intelligence Community, and federal, state, and local law enforcement 
to disseminate information, and to do so is an inherent part of our 
mission. Sharing FBI information will be the rule, unless sharing is 
legally or procedurally unacceptable.

Next Steps
    We have made great progress, but we have much work to do. Our plan 
is solid and we believe we are heading in the right direction. We have 
enjoyed much support from your committee and we are very appreciative 
of the time your staff has spent in learning about our initiatives and 
giving us advice. What we need more than anything else is your 
continued support and understanding that a change of this magnitude 
will require time to implement. With your help, we will have that. 
Thank you for allowing me the opportunity to testify before you today 
and I will be happy to entertain any questions you may have.

    Ms. Dunn. Thank you, each of you, for your statements. We 
will begin the questioning with the gentleman from Florida, Mr. 
Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    I would like to thank you for testifying before us today. 
The first question I would like to address is to Mr. Brennan.
    The 9/11 Commission report recommended expanding TTIC, 
enabling it to share foreign and domestic intelligence and 
conduct joint operational planning. So what I would like to ask 
you about is, in your opinion, what legal changes would be 
needed to accomplish that?
    Mr. Brennan. Congressman, I think there is still a lot of 
discussion going on right now to determine exactly what the 
NCTC should do. The President has announced support for it and 
there have been important meetings over the past several weeks 
to look at the details on that. And depending on the extent of 
the change and the NCTC's responsibilities, I think there would 
have to be a careful look at whatever types of legislative 
action or executive order language that would need to be put 
forward. I think that is open to discussion; and as you point 
out rightly, it is talking about a new dimension to provide to 
TTIC in terms of this joint operational planning. And I think 
the 9/11 Commission report says that decisions would have to be 
made about how much authority should, in fact, be vested in the 
NCTC on that score.
    Mr. Diaz-Balart. Ms. Baginski, I appreciated very much your 
testimony, and as an admirer of the FBI, as I am--and you have 
a very solid team in south Florida dealing with multiple 
challenges on a daily basis--the community is very proud of the 
FBI.
    The criticism in the Commission's report of the FBI was 
perhaps stinging, not only of the FBI, but as an admirer of the 
FBI, I noted it with much interest. You explained in some 
detail, and I appreciate you having done so, steps that the FBI 
has taken since September 11 with regard to the very specific 
criticisms by the Commission. And so I don't want you to expand 
more on those steps. But what I would ask you is to facilitate 
the steps you are taking, because some of them are continuing 
obviously. Especially with regard to information sharing, how 
can we in Congress be of help to you, to the FBI in the efforts 
being taken to improve information sharing?.
    Ms. Baginski. The first dimension is the recognition that 
it is going to take some time. There are dimensions in this 
that are information technology, that are people, that are 
training issues. So that would be helpful to recognize. It is a 
combination of things.
    And then, from our perspective, our biggest needs are for 
secure communications to our field offices and for secure 
compartmented information facilities. And these are not small 
requests. In order to join this large Intelligence Community 
and to be a healthy node on this network, we have to be able to 
operate in their information environment.
    So those are the two areas. And I think third is to foster 
the debate that is necessary on important issues that people 
are raising about civil liberties as this work is done.
    Mr. Diaz-Balart. Look forward to continuing to work with 
you.
    Ms. Dunn. The gentlelady from California, Ms. Lofgren.
    Ms. Lofgren. Thank you and thanks for your service to our 
country.
    You know, as I have been listening both to the Chair and to 
the Vice Chair of the Commission before you and the questions 
of my colleagues, my thoughts have really turned to a broad 
question, which is the deployment of technology in the Federal 
Government. And we have talked about information sharing, but 
it is not just information sharing, it is the deployment of 
technology generally.
    Listening to one of my colleagues talk about enforcement of 
the immigration laws, I was mindful of Commissioner Ziglar 
telling us that they didn't catch the terrorist who applied for 
a student visa because the application was on a piece of 
microfiche in a bucket in Florida and you couldn't do a data 
search of the microfiche in the bucket.
    Listening to Mr. Andrews' hypothetical about a hazardous 
material truck on its way to blow up the Capitol, there is 
technology that Lawrence Livermore Labs has today that could be 
inserted on HAZMAT trucks that would allow those trucks to be 
stopped remotely, and yet we don't deploy that technology. Why 
not?
    I am interested, obviously--have been on the Judiciary 
Committee since I became a Member of the House in January of 
1995, and I have complained for nearly 10 years now about the 
lack of technology in the immigration function. And when our 
markup was interrupted before we recessed, I had several 
amendments that I had planned to offer and I shared with the 
majority to automate the I-94 entry-exit form, which is 
something that Director Mueller told me was a high priority for 
him and yet has not occurred, to require a study on digitizing 
all immigration applications and petitions with a mind towards 
cataloging all immigration applications by a unique biometric 
identifier such as a fingerprint and have the NIST biometric 
study go forward.
    I understand since that time, US VISIT has ditched the idea 
of a broad biometric that would be cross-platformed and cross-
agencied and instead is proposing to use the IDENT system, 
which uses a nonstandard fingerprint format. And maybe we need 
to do that because we need something in place. I voted to 
continue that, as a matter of fact, for that very reason, but 
it looks like we have now stopped the deployment of the broader 
effort.
    So I guess my question to all of you is, in the Homeland 
Security--in the 9/11 Commission report, there is a 
recommendation that DHS take on the lead for integrating the 
larger network in terms of entry-exit. And the question I have 
is, is DHS capable of actually getting the technology deployed? 
If so, how are they going to do it? They haven't shown any 
capacity to do it yet. If not, how do we get technology 
identified and deployed on a Federal Government-wide basis to 
keep our country safe here?
    Any of you who can answer.
    General Hughes. I am the representative from the Department 
of Homeland Security. I think the answer is that we can and are 
deploying technology across the board for many biometric and 
sensory missions to include on the borders and to include in 
ports of entry.
    Ms. Lofgren. Can I interrupt? I recently did some study on 
what technology is actually along the borders and interviewed a 
team that had been out from the national labs, had gone out to 
the borders. And this is 2 weeks ago. Basically, no technology 
has been deployed. They are short of gasoline for the trucks. 
They don't have any of the cutting-edge technology that America 
owns through our very excellent science centers. Why is that?
    General Hughes. May I ask which part of the border?
    Ms. Lofgren. They went to the southern border with the 
Lawrence Livermore National Lab. It has a whole unit to 
establish this technology.
    General Hughes. I am not familiar with which border site 
they went to, but if they covered the entire southwest border, 
they talked to the wrong people.
    There are, of course, some problems. I am not sure what--
some border areas being not directly covered by technology, but 
much of it is covered. We are flying unmanned aerial vehicles 
over the southwest border. We have placed sensors at border 
control points. We have a variety of checks against the 
immigration documents, persons coming across the border--there 
are a large number of illegal immigrants coming across the 
border every single day.
    Ms. Lofgren. I see that my time has run out, but we are 
still issuing paper on I-94s.
    General Hughes. That is true. We have not yet digitized the 
entire system. We are in the process, however, of trying to 
upgrade to a digital environment.
    Ms. Dunn. The gentleman from New York, Mr. Sweeney.
    Mr. Sweeney. I thank the Chair. We have limited time and I 
want to thank our witnesses. I have about eight questions, two 
for each of you, so I am going to try to give them to you in 
``machine gun'' fashion. Before I do that, I want to look back 
to the last panel and correct the record if I could regarding 
the contention by some that the Administration's proposal for 
funding on interoperability zeroed out the budget, as I am on 
the Appropriations Committee.
    That didn't happen. There was a different set of priorities 
established and, in fact, $2.5 billion first responder grant 
monies was put in the budget for those communications, and $20 
million specifically for DHS. I wanted the record to reflect 
that because I think it is important we have the facts.
    The 9/11 Commission report says a lot of things. One of the 
things I think it says is that there is a general sense, an 
overwhelming sense, that we still don't have it right and what 
we effectively need, as Vice Chairman Hamilton said, is some 
superior authority over the information sharing part of this 
process. And, that is the reason why there is the call for the 
National Intelligence Director.
    I have a real concern about it all, because as we all know, 
the IAIP directorate was set by Congress and the Executive 
branch to address the information sharing issues. What I have 
seen is that in a year and one half, we are at the point where 
it is all starting to come together. The right people have been 
hired, and we are beginning to set up protocols and standards 
that are beginning to be used. And I am worried about starting 
over, and I am worried about layering bureaucracies on top of 
each other.
    General Hughes and Mr. Brennan, you two are going to be the 
ones who are going to probably most directly be impacted. I 
know the President has said he supports the idea of the 
national director. I don't expect you are going to be able to 
tell me as definitively or not whether you are, as well, 
concerned, but it is a concern I have in the creation of that 
position or any others. And I just don't know how it is going 
to work. I think it is important that we deliberate this in the 
next couple of weeks.
    Mr. Black, can you guarantee that relevant information we 
receive from foreign partners gets to the FBI?
    Mr. Black. The systems are in place. As an example, we have 
communications connectivity where the FBI has access to the 
traffic that we produce. We spent a lot of our time supporting 
the various elements, the practitioners of counterterrorism, 
whether it be intelligence, FBI and the rest. So we have an FBI 
officer in my office whose sole job is to facilitate this 
process.
    Mr. Sweeney. Ms. Baginski, that is happening? You are 
getting it into the threat integration center networks and it 
is getting out there?
    Ms. Baginski. Yes, sir. But I wouldn't be passing it to 
threat integration. That actually happens from Cofer's 
organization itself.
    Mr. Sweeney. So that is happening?
    Mr. Black. Sure.
    Mr. Sweeney. One hundred percent capacity? How much 
improvement? How do we measure that?
    Mr. Black. In terms of all of our cable traffic, it has 
full connectivity with the screening elements. So that, as an 
example, everything that we have, Visa Viper mechanism, which 
is a retrievable terrorist information system, is made 
available, 100 percent of it, to the Terrorist Threat 
Integration Center and the Terrorist Screening Center. And we 
have plugged in the system that we started off and 
contributed--TIC, the tip-off program, has been moved, so I 
think we are well ahead of the curve in making the information 
collected by the Department of State--
    Mr. Sweeney. Are we fully exchanging information with 
India, who has had hundreds of years of fighting Islamic 
extremists? Are we fully engaged in the exchange of 
information?
    Mr. Black. We are fully engaged. I am always queasy when we 
use figures like 100 percent. There is not much in life that I 
would raise my hand to 100 percent on. But I could tell you--
    Mr. Sweeney. That is why you want us to quantify things?
    Mr. Black. In all professional candor, this process has 
gone forward tremendously and that the impetus is on making all 
of the information that we have available to the practitioners 
of counterterrorism.
    Mr.Sweeney. Okay, Mr. Brennan, do all the analysts at TTIC 
receive full access to databases which TTIC has access to, or 
do providing agencies limit distribution of that information?
    Mr. Brennan. As I mentioned, we have over 22 networks that 
come into TTIC. Access within TTIC is based on what the role 
and the function of the analysts are, and so many analysts have 
access to many--most all of the information streams. All of 
them don't need all of the access.
    Mr. Sweeney. Could I follow up and have a real sense of the 
protocols that are in place there?
    Mr. Brennan. Sure.
    Mr. Sweeney. Last question to you--have a couple more I am 
going to ask others for the record--but do you believe that 
some terrorist organizations have the intention, organizational 
capabilities, or technical acumen to produce and deliver a 
nuclear weapon to U.S. cities?
    Mr. Brennan. I do not believe at the current moment that 
any terrorist organization has the capability to do that. I 
believe that terrorist organizations are pursuing a nuclear 
capability to include radiological devices, nuclear devices and 
other types of materiel. But I don't believe they have the 
capability right now to do that right now. No.
    Mr. Sweeney. Thank you. I thank the Chair.
    Chairman Cox. [Presiding.] The gentlelady from Texas, Ms. 
Jackson-Lee.
    Ms. Jackson-Lee. I thank the Chair very much and the 
Ranking Member for both convening this meeting, and I thank him 
for allowing me to pursue the line of questioning relating to 
the importance of the work of this body and the need to 
reconvene with the two members of the 9/11 Commission. I must 
say, Mr. Chairman, that in conversations with both the Governor 
and the Co-Chair Hamilton both agreed to welcome both an 
invitation and to return before this committee.
    Because, as I said in the open session and as I have said 
in this direct conversation with them, this is ours, and our 
work is securing the homeland. Abbreviated hearings, mixed with 
no congressional and executive action, giving no legislative 
direction to the securing of the homeland is playing with fire. 
It almost reminds me of Rome burning while music plays. So I 
would just start out by saying then that I call upon the 
Speaker of the House to convene a session in Congress so that 
the legislative matters that need to be acted upon the 9/11 
Commission Report can be done now and can be done immediately.
    Mr. Chairman, I ask unanimous consent to submit into the 
record the first page of the legislation that I have offered 
giving Cabinet status to the National Intelligence Director--
    Chairman Cox. Without objection, so ordered.
    Ms. Jackson-Lee. --which would oversee budget operations 
and personnel of the entire Intelligence Community.
    [The information follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Jackson-Lee. Let me qualify it is Cabinet status 
without the responsibilities of policy. It will be operational, 
but that individual will have budgetary responsibility and 
control. It is crucial that these legislative initiatives be 
able to be filed and that we act upon them immediately.
    Let me thank the panel, and I realize that we may be at a 
disadvantage for some of the concerns that I have, because, as 
I indicated, I frankly believe that Rome is burning and that we 
are literally playing with fire.
    In conversations that have gone on that have evidenced 
themselves in the press, it is well-known that some terrorist 
act is expected before the elections. It is also well-known 
that we as Americans will not be intimidated, but certainly 
Congress has a crucial responsibility to be able to be part of 
the firewall, if you will, in protecting the American people. 
We cannot do that in an abbreviated framework, albeit with 
respect to our committee leadership, and with a Congress that 
is not in session.
    So, first of all, I think that we must frame this in a way 
that Co-Chair Hamilton said, and that is to smash the stovepipe 
on intelligence. Because the very core of the disaster of 9/11 
was the lack of transferring intelligence as it was needed.
    So I would clearly like to hear from this group your sense 
of smashing the stovepipe and whether or not you believe it 
will interfere with competitive analysis. I say that 
straightforwardly, because I believe that our previous 
director, certainly a distinguished public servant, failed us 
in the inability to see the big picture, as did our other 
agencies pre-9/11.
    Likewise, there was a failure in oversight in the 
intelligence disseminated on Iraq, and there was no objectivity 
as I perceived it in our Intelligence Community. It was only a 
``yes, sir, yes, boss'' attitude in terms of taking America to 
war.
    That is my first question.
    The second is, any impressions, Mr. Brennan or General 
Hughes on a national I.D. card? My understanding is the 
Commission, has not, has not, has not confirmed or recommended 
such. Your view of that.
    Civil liberties, I would like your view on the 
implementation of a board inside of the intelligence center 
that will be created that will oversee the protection of civil 
liberties.
    And I would appreciate, Ms. Baginski, your comment on the 
FBI's seeming siege on peace activists in the United States and 
whether that has anything to do with protecting the homeland.
    And lastly, the need for border security to be combined 
with intelligence, meaning to enhance the capabilities of 
border personnel in securing intelligence.
    If I could get an answer to at least one of those questions 
since the Nation is at crisis.
    Mr. Brennan.
    Mr. Brennan. I will start. First of all, smashing the 
stovepipes and competitive analysis, I think we are all 
committed to smashing any stovepipes that remain. It is not 
sufficient though just to share hard copy information. It is 
important to have an information technology architecture that 
allows institutions to share information with institutions so 
that in fact you can search, retrieve that information in a 
systemic manner, as opposed to having a lot of different hard 
copy files. That is not what we need, because there are so many 
different elements of the U.S. government that need that 
information. We need to put in place that architecture.
    Competitive analysis, I am fully supportive of competitive 
analysis but done thoughtfully, as opposed to unnecessary 
redundancy that wastes resources. And, as I said in my 
statement, what we need to do is have a framework that allows 
for allocation of roles and responsibilities to include the 
assignment of competitive or alternative analysis.
    Regarding national ID cards, I would refer to DHS on that, 
but what I would do is say the administration is looking at 
different standards and biometrics that in fact makes sense to 
apply at borders in other orders.
    Civil liberties, since TTIC has access to so much data, we 
take very seriously the protection of U.S. citizens' rights and 
privacy obligations and we are committed to working with the 
rest of the government as far as having some type of board that 
in fact look at those issues very seriously.
    General Hughes. And I will have my views that we definitely 
believe in breaking or ending any barriers that exist. The term 
stovepipe is a little bit emotional, as far as I am concerned. 
We are in favor of horizontal and vertical integration at every 
part of the government, if we can get it. We are in favor of 
protecting civil liberties at every opportunity. I personally 
am and so is the Department. We are in favor of a board to 
oversee if this is a necessary development.
    We are also working on the national I.D. card issue. It is 
more complex than simply saying, yes, we are in favor of it or, 
no, we are not. It has great implications for the United 
States, and one of the implications is the civil liberties of 
individuals. We have to deal with that, and so we are 
considering the issue.
    Ms. Jackson-Lee. Well, obviously, General Hughes, you will 
do that with the consent of Congress, because there are those 
of us who are not conceding a national I.D. card and 
particularly I do not sense and did not read that the 
Commission recommended a national I.D. card, and that is 
correct?
    General Hughes. That is correct.
    Ms. Jackson-Lee. Thank you, sir.
    Ms. Baginski. Yes, ma'am, on two issues. Stovepipes are not 
necessarily all bad. A stovepipe around an area of expertise, 
an analytical area of expertise, a center, if you will, is not 
something that necessarily would be negative.
    But what I would say is we have done a remarkable job 
unifying our disparate collection resources against threats, 
and I think that is the core of the progress that we have made 
over time.
    In response to your question about the articles that 
appeared in the New York Times, the--both the Democratic 
National Convention and the Republican National Convention have 
been designated national security special events. In accordance 
with that, every effort is made to insure that any threat to 
the security of that event is taken care of within the confines 
of the Constitution and the law as we always do. There is 
absolutely no truth to the allegation that any of these things 
were undertaken outside of predication and outside the bounds 
of the Constitution.
    I understand the press article. I did read it. I understand 
the concerns of citizens. But I also know the organization that 
I work in, and these were all done with regard for specific 
intelligence that caused us to have concerns about attempts to 
disrupt this event, and we had a similar series of events for 
the Democratic National Convention.
    Ms. Jackson-Lee. Well, I would ask that any peace activist 
that believes that they have been intimidated just for their 
opposition and first amendment rights need to be contacting 
both Members of Congress who are concerned, and I hope that you 
will be responsive to our calls regarding this intimidation.
    Ms. Baginski. Yes, ma'am.
    Ms. Jackson-Lee. Security is one thing, but intimidation 
and oppression is another thing.
    Chairman Cox. The gentlelady's time has expired.
    Ms. Baginski. We would be very anxious, ma'am, to have 
those reports and deal with that.
    Ms. Jackson-Lee. I thank you very much, thank you.
    I thank the gentleman.
    Chairman Cox. Are there other members of the panel that 
would like to address any of the questions that have been put?
    Mr. Black. I would just add one concluding remark. I think 
the stovepipe issue is very important. We are trying to 
institutionalize this. I think, Congresswoman, it is not only 
institutional but employees and individuals involved in this 
process don't have to put in Herculean efforts all the time.
    I think in the past we have been relying on the work ethic 
of people working around the clock in defense of this country. 
What we are trying to do is put in a system that lends itself 
to people routinely doing their job in a more productive way. 
We no longer the have the luxury to rely upon people working 
around the clock with no sleep, and I think we are heading in 
that direction.
    I would also underscore that my exposure to this issue in 
terms of civil liberties is that we are very and profoundly 
interested in this. We are in the business of defending 
America, and America is based upon civil liberties. They go 
together. You can't have one without the other.
    Chairman Cox. The gentleman from Oklahoma, Mr. Istook.
    Ms. Jackson-Lee. Thank you.
    Mr. Istook. Thank you, Mr. Chairman.
    I would like to address to the panel the issue of blind 
spots. We are all concerned, of course, realizing that 
terrorists want to attack us where we are not expecting it. We 
recognize the great symbolic value of attacks upon icons such 
as the World Trade Center, the U.S. Capitol or the Pentagon. 
Yet, being from Oklahoma City, I am certainly aware that 
terrorism can strike in the heartland.
    It can strike where it is unexpected. In fact, that is the 
goal of terrorists is to do so. I am also aware that terrorism 
does not necessarily come totally from foreign nationals. 
Again, I cite the Oklahoma City example, although it was for 
different motives than Al-Qa'ida is pursuing.
    But I would like the members of the panel to address these 
aspects. For example, in the testimony this morning, when we 
are talking about the great desire of people to blend into the 
landscape and to acquire documentation that will help them to 
escape detection--Mr. Kean certainly testified that terrorists 
are most vulnerable when they are traveling. So we have 
established networks, and we are trying to make them more 
robust, with the entry and exit programs focused mostly again 
on foreign nationals. Yet we have not only a great number of 
people who are in the country illegally, but we also have 
people who are American citizens that are involved in things, 
not just a Tim McVeigh. We have the American Taliban we have 
arrested that have been made up of American citizens in 
connection with foreign activities.
    One thing that I did not see, and perhaps I overlooked it, 
but did not see among the Commission's recommendations was 
focusing on better screening in the naturalization process 
where someone wishes to become an American citizen, wishes to 
acquire a U.S. passport, to enable them to escape some levels 
of scrutiny.
    We had several years ago a situation where some people said 
it was 50,000, some will say it was 100,000, people who applied 
to become American citizens were not put through the routine 
criminal background screenings. I do not know, and you perhaps 
can tell me, of any access to these information systems that is 
part of the naturalization process currently to make sure that 
the same level of screening that we are applying to people that 
want to come in and out of the country freely applies to people 
who want that great credential of U.S. citizenship and thus 
access to U.S. passports.
    So I would appreciate the panel addressing how much of a 
potential blind spot we have when we either do not put enough 
focus on the soft targets or fail to recognize that some of the 
targets may have American citizenship or may be pursuing 
American citizenship.
    General Hughes. Perhaps I will start, since primary 
responsibilities lies with the Department of Homeland Security 
for these issues. I think I have got two questions here.
    Mr. Istook. Yes.
    General Hughes. The question of blind spots, especially 
dealing with documentation of proof of who you are and what you 
are doing, there are a variety of issues at work here, but the 
primary one is to focus on those persons that either have 
documentation that is questionable or illicit more--or on those 
persons who have a history or record we have now recorded in 
databases and in other ways that tells us that there are 
terrorists or terrorist-connected persons.
    That testimony is not perfect, sir--and I would be the 
first one to admit that--but working; and it is being improved 
all the time.
    The good news is that once again I think something that 
began before the Commission and the 9/11 report is--continues 
until this day is attempting to coordinate, collate and 
interact with all of the databases and all of the repositories 
of information.
    Mr. Istook. Is that being done in the naturalization 
screening processes?
    General Hughes. Yes, it is. Yes, it is. Our Office of 
Citizenship and Immigration Services is the office that 
undertakes that. They are not as fully integrated yet into the 
system as they will be in the future because when we absorbed 
them they were an analog organization largely. They are making 
rapid process to bring themselves into the digital environment, 
as Ms. Lofgren and others have remarked on here earlier, and 
that is an ongoing process.
    I would like to just mention that the idea of blind spots 
is of great importance certainly to all of us here, I think, 
and we have detected instances where American citizens, where 
people with very, very good documentation who were indeed 
terrorists or terrorist connected have been able to travel or 
transit in some way across our borders. We regret that. We are 
trying hard to figure out how to solve it.
    I think in the case of the American citizens who do want to 
do ill to the United States, we are not dealing there with 
identity, mirror identity. We are dealing also with their 
belief system, their values and their actions, and that is a 
more difficult kind of thing to reduce to a data entry that 
will show that in every case.
    So we are trying to come to grips with that, but it is at 
that time primarily an interface process where we come to those 
persons, understand their actions or their professions, the 
views and ideas that they give, and then we deal with them on 
that basis. But their documentation or their previous identity 
may not show anything else at all that is wrong.
    Mr. Istook. Other panelists.
    Mr. Brennan. The issue of blank spots is a very important 
one, and that is why I am a strong advocate of making sure that 
there is an allocation of responsibilities. Because there is a 
vast horizon of issues that need coverage from an analytic as 
well as a collection perspective, and the more that we can 
identify that universe and that horizon and assign 
responsibilities the better chance we are going to be able to 
cover that horizon.
    On the issue of individuals here in the States who may in 
fact be part of transnational terrorist groups, the Homeland 
Security Presidential Directive 6, HSPD-6, that was promulgated 
last September streamlined the whole watchlisting and database 
process. It is still in the process of being streamlined and 
overhauled, but in the past when there were 12 different 
databases and nine different departments and agencies, that no 
longer is the case.
    There is the terrorist screening center. That falls on the 
FBI that has responsibilities for and in fact providing the 
support to those screeners and watchlisters. TTIC now has the 
national responsibility to maintain the national database on 
known and suspected transnational terrorists to include U.S. 
citizens who are here in the United States. So we have absorbed 
from the State Department the tip-off program that has been in 
existence for close to 20 years. We are putting into that the 
names of U.S. citizens who are known or purported to be part of 
transnational terrorist groups, and we work very closely with 
the FBI on domestic terrorism responsibilities.
    Mr. Istook. And would that show up on a background check 
for someone seeking U.S. Citizenship?
    Chairman Cox. The gentleman's time has expired.
    Mr. Istook. Thank you.
    Chairman Cox. But the panel may address the question 
further if you choose to do so.
    If not, the gentlelady from the Virgin Islands.
    Mrs. Christensen. Thank you, Mr. Chairman. I am going to go 
right into my questions.
    Welcome, panelists. I wanted to follow up on the question 
on the board to protect civil rights and liberties, because my 
understanding is that the recommendation is that the board 
would insure that the government is adhering to guidelines and 
protocols for protecting civil rights and civil liberties. Can 
one person answer for me? Are there guidelines and protocols in 
place at this time for the government to adhere to?
    Ms. Baginski. Speaking from the FBI perspective, there 
clearly are those guidelines. We conduct all of our 
intelligence activities and all of our investigative activity 
under the attorney general guidelines that were just recently 
updated; and they give us those guidelines, clear guidelines, 
for predication for when one can collect information on U.S. 
citizens and under what circumstances. So those guidelines are 
in place and have been in place for many years, yes.
    Mrs. Christensen. OK. Unless we get good-quality 
intelligence, the best organization and collaboration won't 
help to give the people of this country the kind of protection 
they deserve.
    I wanted to raise an issue that I wanted to ask the last 
panel about, which is diversity within the Intelligence 
Community, and it also speaks to how the data will be analyzed. 
We are dealing with people from a faraway country, different 
cultures, different ways of approaching things. What is the 
level of diversity, for example, within the FBI, TTIC? My 
experience in speaking with people within the Intelligence 
Community, from the African American point of view, is that 
they are few and far between and even rarer at the top of the 
spectrum. So what is it and to what extent are you seeking 
actively to bring diversity into the Intelligence Community?
    Ms. Baginski. I think the DCI--former DCI Tenet in fact led 
a very, very focused study of this issue; and I know that I in 
fact testified in front of this group on behalf of the FBI. 
Within the FBI, there is very great diversity among our 
intelligence analyst program. So I will just speak for that 
portion, not for the law enforcement portion.
    What I would say is that your observation is correct in 
terms of African Americans and leadership positions, but we 
have a very healthy diversity, both in terms of gender--what 
Director Mueller's guidance to me is is to bring in people who 
understand the cultures, that we are actually--that we are 
actually analyzing that and that we are actually studying, as 
that is part of a very focused recruiting process, 33 
recruiters focused on universities to be able to bring that 
kind of diversity thinking.
    Mrs. Christensen. So that focused somewhat also on HPCUs 
and Hispanic surveys of Americans?
    Ms. Baginski. Yes, ma'am.
    Mrs. Christensen. Anyone else? TTIC want to answer?
    Mr. Brennan. TTIC doesn't have direct hiring authority. We 
rely on the different agencies and the departments. But 
integration by definition is diversity, and so what we are 
trying to do is make sure we have that diversity perspective 
which includes diversity in terms of background.
    Mrs. Christensen. OK. One of the other recommendations is 
on incentive for information sharing. Personally, I don't see 
incentives as being the answer, because I believe that we 
should have a centralized system and one director. But if there 
were incentives for information sharing, what would you 
envision them to be?
    Mr. Brennan. I agree with you completely that the reference 
in the 9/11 Commission to creating incentives to better balance 
security with information sharing, I believe it should be 
institutionalized, not incentivized. You want to make sure that 
you are able to facilitate that flow of information and require 
and mandate, in fact, that information be shared and so not 
leave it discretionary. What you need to do is put together a 
framework, though, that is sensible, that you can protect 
information as well as get it out.
    Mrs. Christensen. Can I just follow up with you?
    Mr. Brennan, because you talk about--you said--talked 
several times about the architecture that needs to be in place 
to facilitate this, to what extent is any of it in place at 
this point? Where are we in having the kind of infrastructure 
to facilitate the collaboration and the sharing of information?
    Mr. Brennan. I think there are many pieces of an 
architecture in place. But when we talk about a national 
architecture, you are talking about a very complicated 
multidimensional architectural system that in fact is trying to 
take shape right now. The FBI and DHS and other departments and 
agencies have their systems and networks that they are trying 
to interact with.
    Mrs. Christensen. But some of them don't talk to each 
other. Some of them are not able to talk to each other.
    Mr. Brennan. That is a question in terms of 
interoperability. That is why we have to look from a 
government-wide perspective across all the departments and 
agencies. But then it is complicated by the fact you are 
bringing in State and local entities and local law enforcement 
that have their own systems, and so this is a challenge of, you 
know, enormous magnitude, and I think--
    Mrs. Christensen. So are we at the beginning of that 
process? Are we just at zero?
    Ms. Baginski. No, actually, ma'am, I don't think that we 
are at zero at all. In fact, in terms of the Intelligence 
Community classified architecture, that is very well 
established and we have been joining it.
    I think in terms of the secret level and then in the 
sensitive but unclassified level there have been enormously 
positive efforts between DHS and the FBI to take the existing 
sensitive but unclassified infrastructure and join it with the 
DHS architecture so that they interoperate and so that 
information appears seamlessly to the users so that they don't 
have to actually worry about whose network that was actually 
carrying on. So I think there is very positive work going on 
there.
    And in terms of incentives for information sharing, I 
happen to agree with John. I don't think he can do this through 
incentives, so we have actually done it through rules, which is 
essentially--we have created a category of information that is 
required to share, and our authoring tool for reports requires 
the first version to be written at a low classification.
    General Hughes. Would you mind if I gave a brief follow-on?
    Chairman Cox. Please do.
    General Hughes. I would like to tell you last week we 
convened 324 persons from States, the territories and 
possessions, from a few localities here in D.C. and began in 
the process of training them in the handling of U.S. Federal 
Government information up to the Secret level. The system that 
will provide that information to them is also being fielded 
now. It is almost complete, called the Homeland Security 
Information Network, which was complementary and parallel with 
the JTTF structure from the FBI and other systems that are in 
use throughout the country. So we are definitely more than 
talking about or thinking about this. We are doing it, and we 
are some distance into it.
    Chairman Cox. The Chairman will recognize himself for 5 
minutes.
    Ms. Baginski, as the person responsible within the FBI for 
information sharing and also as part of a bureau that has 
nearly 100 JTTFs operating, not to mention the field offices 
and so on, do you see it as the role of the FBI to take the 
lead on information sharing with State and local governments?
    Ms. Baginski. We actually see it as the responsibilities of 
DHS and the FBI to speak from the Federal level to the various 
components of State and local government. In our case, we are 
focused on the law enforcement community. In DHS's case, they 
are focused on the municipal and the private sector.
    Chairman Cox. I am not quite sure I understand how that 
works. What you are saying is that information that is finished 
intelligence, analytical product, is in some cases shared by 
DHS with State and local government and some cases shared by 
FBI, but there isn't anyone with a lead on it?
    Mrs. Baginski. Actually, what General Hughes and I have 
done--and I think we are both enormously proud of it--when 
those communications occur, we have been doing them in the form 
of bulletins. I think you probably recognize those. Before, we 
were in a position where the FBI was issuing its own to the 
local law enforcement community and the DHS was issuing its own 
to the municipal and government and private sector.
    What we have done is we issue now one bulletin, one set of 
information with both seals, so that the Federal voice to the 
local community is a single voice, and I think that is a very 
positive step forward that we have worked as a personal 
partnership and that our folks have executed very, very well 
over the past couple of months.
    Chairman Cox. So there isn't a customer that is getting 
information from FBI that is not under the aegis of DHS?
    Ms. Baginski. Yes, there is.
    Chairman Cox. There is. What customers are those?
    Ms. Baginski. The Intelligence Community is one of those 
customers. We, I think, as you know--
    Chairman Cox. I am sorry, talking within the realm of State 
and local governments in the private sector?
    Ms. Baginski. Uh-huh.
    Chairman Cox. Any customers within that realm?
    Ms. Baginski. Yes, I think it is fair to say in the State 
and local law enforcement community, we are, in fact, producing 
a number of intelligence assessments to include the raw 
intelligence that we produce that the Director of the FBI is 
actually responsible for producing; and through a number of 
mechanisms, to include our law enforcement online sensitive but 
unclassified Web-based network, we are posting intelligence 
assessments and raw intelligence for passage for our State and 
local partners at the same time that we are passing it to our 
partners at the Department of Homeland Security.
    Chairman Cox. We have simultaneously the bulletins going 
out which are jointly produced by DHS and FBI and we have 
things going directly from FBI that don't go through DHS? Same 
customers?
    Ms. Baginski. That is correct. And I think it is important 
to note here that you might be thinking about just terrorism, 
but you understand that we have three other missions as well, 
and there is the traditional criminal mission, where we produce 
a lot of intelligence that is of direct use to State and local 
law enforcement.
    Chairman Cox. Could be, but I am not addressing my question 
to that.
    Ms. Baginski. I am sorry.
    Chairman Cox. I am addressing my question entirely to the--
    Ms. Baginski. Counterterrorism.
    Chairman Cox. --issue that we have been focused on this in 
this hearing.
    Ms. Baginski. I am sorry, this is actual information that 
goes to State and local law enforcement and, of course, our 
JTTF constructs which is, of course, our operational arm. 
Information is in fact going in there to the JTTFs to take 
action on as well as the DHS, and the elements of DHS are 
partners in that.
    But when you ask me the information--is there specific 
information, State and local, not going to DHS, our answer is 
yes. Our bulletins are putting threat information in 
perspective and giving State and local authorities a sense of 
what countermeasures they can take and be on the lookout for.
    Chairman Cox. I am sorry. My time is just about running 
out. I want to get to one other aspect here.
    My question is that I don't think we have yet licked the 
problem of complete coordination between the Federal 
Government, certainly not through DHS and the State and local 
governments and the private sector customers for finished 
intelligence products. That raises then the question about the 
National Counterterrorist Center and the degree to which it 
might be viewed by some people, now that it is in the planning 
stages, as acquiring the responsibility that I think by statute 
now in section 201 under the Homeland Security Act is given to 
DHS.
    General Hughes, since my time has expired, let me leave 
that question in your lap. What do you think we are headed for 
in terms of the executive branch's points of view on this? Is 
the National Counterterrorism Center going to be in the role of 
distributing information to State and local governments? Is DHS 
going to want to continue to do this, FBI or TTIC, or is TTIC 
going to be subsumed in this? We don't know any more than what 
we read in the newspapers about this right now. While you are 
at it, what do you think will happen to IA in all of this 
process?
    General Hughes. I think the process and the point we were 
discussing, these issues, I don't think decisions have been 
made. If they are, I am not aware of them.
    With regard to the idea that supposed that information will 
flow from the National Counterterrorism Center out to the 
States and localities, there is some discussion about that, how 
it will go, whether it goes through DHS or through law 
enforcement channels or through a direct channel. Because we 
certainly could do it directly. And, by the way, probably 
concurrently to not only the respondents of the State and local 
but also to Federal partners, much as Ms. Baginski just 
described, that has yet to be determined.
    That is one of the many--I would say many thousands of 
details we have to work through here. But certainly it is 
intended for the National Counterterrorism Center to be the 
focal point for threat assessments regarding terrorism for the 
United States. So I can assume from that title, that idea, that 
concept, that if the NCTC embraces that mission, they will be 
issuing products that one way or another through a variety of 
conduits will go to the State and local level in our country.
    Chairman Cox. Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Folks, we are here today because of this report. We would 
not have a meeting in August if it weren't for this 9/11 
Commission, a Commission that many people in this body opposed 
and people in high office didn't want to happen. But because 
the families pushed hard and some Members did, we are here, and 
I want to thank them and the families, because they more than 
anyone else bear a lot of the burden of 9/11, and we want to 
fix that problem.
    The previous testimony from two speakers talked about a 
problem that we face, one of many. I am going to ask my 
question, and I want each of you to comment on it, because they 
discussed the inordinate amount of classification of 
intelligence data, data and information that no one has any 
doubt about what it is, not really sure that it is secret, 
classified, et cetera, and that information is then out of the 
public domain.
    Over the last couple of weeks I have had the opportunity to 
visit with a lot of police officers, police departments, fire 
departments, rescue squads and people that we say we really 
want to be in touch with, that we really need their help and 
their input. We are now just talking about the information that 
we are going to get to them. The problem is we don't get them 
the information quickly and we classify stuff that shouldn't be 
classified that would help.
    I remember in the last several weeks--whether it comes to 
anything or not--a police officer just doing his duty saw 
someone in Charlotte filming buildings, may not mean anything. 
But that is how we get the job done. But if we classify 
everything that crosses our desk, they won't get the 
information.
    So my question is this--and I don't think there is an 
adequate flow of information getting to locals, either that or 
the people I am talking with are not being honest with me, and 
I think they are being honest with me. I just think they are 
not getting the information. I would like for each of you to 
discuss any attempt that your organizations are making to 
coordinate and revise the classification strategies that would 
make the accuracy, the collection and the effective information 
available to the first responders across this country and what 
is being done to put the stamps of classification to the side 
when it doesn't have to be put there. I think this is a huge 
problem that no one is doing any talking about yet. Because if 
we move all the blocks and the chairs we want to on the decks 
of the Titanic, if we keep doing that, we never get the 
information out in time no matter how many people we move and 
change.
    Whoever would like to go first.
    Mr. Black. I guess I have been elected to start.
    I think you have asked one of the most profound questions 
for the future of this issue. I think it is important to note 
that essentially we are in a different environment than we were 
in the past. This is not the Cold War. The Cold War was slow 
and ponderous. It rewarded attention to detail. It rewarded 
secrecy. It rewarded keeping secrets from as many as possible 
to protect the source.
    Immediate response to the high-velocity threat of terrorism 
requires accurate information, yet it requires speed. So I 
think the correct solution is to move away from where we were 
in the past. Speed counts, information has to be disseminated 
quickly so that people can take action to protect, especially 
since we are not interested in writing a intelligence report 
for its own sake. We are interested in using this information 
so it can protect people.
    In the overall context, this is where we are going. This is 
the future. There is the caveat that has to be the preserve of 
the Intelligence Community and the FBI, and that is to protect 
those sources that do need protection.
    Sometimes sources that are highly significant are rare. 
They need to be protected. But I think the community is working 
on that, and I would have to defer to Mr. Hughes and Mr. 
Brennan. But there is an effort in this direction.
    So I think the answer--the response to your question would 
be, in the past everything was classified because it was slow 
and ponderous. Now you require speed for action purposes, yet 
at the same time we have to increasingly identify those several 
sources of those limited numbers of sources that need to be 
protected, because they are so hard to replace.
    Ms. Baginski. Yes, sir. I would like to comment on that. I 
think you have asked a very, very important question.
    Our initiatives are twofold. The first is to separate the 
information from the source; and we think that can, in fact, be 
done. As long as you try to merge those two things, you are 
often dealing in a very difficult classification situation.
    At the same time, when you separate those two things, we do 
require from the FBI analyst a source commentary that attests 
to the pedigree of the information, which generally can be 
described as the degree of separation of the source from the 
actual information itself and some characterization about its 
reliability. So there are two things, separation that allows us 
to write it to release it at the lowest classification in 
accordance with a DCI directive, I might add, a DCI directive 
that has been on the books since 1989 or before, requiring us 
to alternate at the lowest possible classification level.
    Mr. Brennan. It is not just an issue regarding 
classification. It is the entire way that data is originated 
within the U.S. government. We need to reengineer that 
origination process.
    And, as Maureen said, right to release, so that the 
technology exists right now that the thread of information that 
is required overseas can move at the speed of light all the way 
down to the police chief in a local jurisdiction where the 
thread of information focuses on.
    But the policies and practices and procedures have to be 
put in place to reduce the number of human interventions that 
are required as the case exists right now. So what we need to 
do is--the natural default over the years in the intelligence 
business has been to declassify something. It is changing that 
mindset to make sure that the first piece out of the box in 
fact goes to the classified level that can go to the first 
responder or somebody else. Then you can follow with the more 
detailed, sensitive information.
    General Hughes. I will just give three short bursts here.
    We are routinely producing in this community highly-
classified information with tearlines or excerpts out of the 
information that are either at a reduced classification level 
or at unclassified level, sensitive but unclassified or law 
enforcement sensitive, that can be sent out to the field. That 
is an ongoing mechanism, and it seems to be working very well. 
It may not be yet where we would like it to be, but it is 
certainly a big improvement over the past.
    Second, we have direct automated communications that are or 
were at the unclassified level every day going to all of the 
States. Many of the localities in this country are also 
receiving that information. It is not all-inclusive. We are 
Federal officers. We are bound to protect according to the law, 
the information we invest so much in and worked so hard to get. 
So we are doing the best we can right now with this effort.
    I would also mention telephone calls, sir. Many of us make 
telephone calls. I personally make them to persons who are 
not--who do not have available to them some other kind of 
communication system that works. Sometimes those calls are 
secure, over classified telephone systems. Sometimes they are 
unclassified over the regular telephone system. Depends on the 
information. But that is happening now.
    And the last point I would like to make to you is 
classification is really not a barrier to the communication of 
information if indeed the information indicates an impending 
act or a crisis or some kind of a problem that needs to be 
acted upon immediately. I can look you and any Member here in 
the eye and tell you that we will get that information out of 
its classified restricted environment and give it to the people 
who need it as rapidly as possible.
    Chairman Cox. Thank you.
    The gentlelady from Washington.
    Ms. Dunn. Thank you, Mr. Chairman.
    Welcome to our panel today. It is very helpful, your 
testimony. We have appreciated it.
    I have a couple of questions. I was very happy to hear Ms. 
Baginski talk about metrics being involved. Now measurements of 
success, those are vitally important, and we take them 
seriously, but we also all know that structural change such as 
the sort of change we have gone through with the Department of 
Homeland Security can be as rational as possible and yet not 
really work because of cultural problems.
    I am interested in asking you, first of all, what sort of 
challenges have you run into in terms of the culture of the 
organizations that you lead. In two of the cases, General 
Hughes, Mr. Brennan, you are leading new agencies since 9/11. 
You are dealing with details from legacies, responsibilities. 
Some of you are having problems attracting talent to come to 
work in your departments. What have you done within your 
departments since 9/11 to make sure that we can meet some of 
the--that we already have some of the shortcomings that were 
listed in the 9/11 Commission's report, and what do you have 
left to do?
    Mr. Brennan. First of all, as far as we in TTIC have 
different representatives, there are assignees in the different 
organizations, people have asked how do you bring those 
different cultures? Quite frankly, we haven't had to work at 
it. Because if you give people an important mission like 
terrorism, you give them access to information across the U.S. 
Government. You find that they will work together seamlessly 
and collaboratively in a way that they haven't done before. So 
we feel as though there is a real benefit of the integration 
and colocation of these individuals with information systems.
    This has been working in concert with FBI, DHS, CIA and 
others to bring together this--what I refer to as an 
architecture that is not just information technology 
architecture, it is also the business practices and 
interactions.
    So I think one of the things that we represent up here is 
that we have regular interaction. And if we have the 
interaction at senior levels, the individuals who are working 
on the challenges really feel at liberty to be sharing this 
information among themselves to find the ways that they can in 
fact facilitate that sharing of information.
    General Hughes. I would like to give you just two quick 
answers here.
    First is what we have done since 9/11, and in my case we 
are a couple of months beyond a year old, in organizational 
terms. Our mere--the mere fact that we have come into being is 
a response to the need for some organizational entity to 
provide an umbrella for many disparate organizations to work 
under the Department of Homeland Security and then to use the 
power of those organizational elements that were legacy 
organizations to feed information into a central repository, a 
central location and interact in the Federal and the State and 
local environment to make sure that information has utility. 
That is the single biggest thing I can think of.
    We have many other issues, but I think that is enough on 
that topic.
    I would like to say that the idea that it was hard to get 
legacy organization personnel to work together, in my case, is 
the same as John Brennan has characterized it. If you give them 
a mission and if you give them an identity, especially that 
goes with that mission, an organizational identity or even 
perhaps a philosophical identity, they will do the job very 
well. They are, in fact, patriots as much as they are any other 
members of an organization.
    So on behalf of the country, I haven't encountered any 
problems with people working together. Once they come into the 
Department of Homeland Security, they do very, very well 
together.
    Mr. Black. I would just say that personally the threat of 
terrorism is not foreign to the State Department. We all know 
we have had our embassies overseas and Foreign Service 
personnel being blown up and dying in large numbers over the 
years. So this is not anything new to us under the leadership 
of Secretary of State Powell. He has reinforced in the minds of 
our employees but also the mission.
    When we talk about counterterrorism, things come to mind 
like the FBI, CIA and the rest. The reality is that the 
Department of State has the privacy to be able to enable these 
other agencies, these practitioners of counterterrorism, to be 
able to do their work overseas and to prepare for that. To 
facilitate it, we have changed completely how we do our 
business. New officers coming in receive training in 
counterterrorism. Our consular programs receive pro forma 
counterterrorism training, how to contribute to the system. New 
ambassadors coming in, whether they are career with years of 
experience or new political appointees, get training programs. 
They are provided education in counterterrorism and the like.
    We also have diplomatic security that does for us our 
threat assessments globablly around the world. We also, through 
diplomatic security, have programs that reach out to the 
business and private sector around the world. We have 81 
different offices overseas.
    So--I mean, I have only been in the State Department a 
couple of years, having come from intelligence. The great thing 
about the State Department in the past was to protect U.S. 
persons overseas, to conduct diplomacy and to facilitate the 
process of containing the Soviet Union under the Cold War. 
Secretary Powell has completely changed that. Counterterrorism 
is one of our primary missions, and our success is important to 
the country, and we are determined to be successful in that 
regard.
    Ms. Baginski. Ma'am, if I might, I think what is more 
interesting to me is I haven't found the challenge--I think 
what I hear is what you have probably all heard, that there is 
something that is inherently incongruous between law 
enforcement operations and intelligence operations, and I can 
honestly say from the day I arrived there, I found just the 
opposite to be true. Just like my time working in DOD where we 
had fully integrated military operations and intelligence, what 
I have seen is fully integrated law enforcement operations and 
intelligence.
    I have also seen two very strong strengths that actually 
come from intelligence being in the law enforcement community, 
and they are very important, the first being that there is 
enormous attention paid to the pedigree of the source. That 
comes from the heritage of the law enforcement culture that 
says that they would have to appear in court, therefore, they 
must be credible, and we must check them out. It is incredibly 
important to our intelligence capability. That kind of 
attention to pedigree of sourcing is critical to a good 
intelligence capability.
    And the second I would say there is an enormous rigor and 
discipline in intelligence analysis that I find very 
comfortable for me, coming from the second world, which is that 
facts are facts and conjecture is marked as conjecture, and 
that also comes from the law enforcement community.
    My challenges, though, have to do with an organization that 
has long been optimized for one of its missions, its law 
enforcement mission, and not as optimized for its overall 
intelligence mission. So in terms of infrastructure, hiring, 
training, recruiting, those kinds of issues, those are where I 
have had to spend the majority of my time.
    Chairman Cox. Mr. Langevin, the gentleman from Rhode 
Island.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank the panel for being here today and for your 
testimony. I could probably follow up on Ms. Dunn's question in 
the area of organizational culture, start with that.
    It is clear from the findings of the 9/11 Commission report 
and subsequent things that we have heard in testimony, both on 
my work in Armed Services and also here at Homeland Security, 
that the way that we were fighting the war on terrorism, both 
before 9/11 and in many ways after 9/11, was according to the 
way we fought the Cold War, using the Cold War battle plan, if 
you will. And clearly that plan may have been successful in 
winning the Cold War, but it is not going to work in fighting 
this war on terrorism.
    Now, Public Administration 101 will teach you that 
bureaucracies by their very nature are intransigent and that 
one of the most difficult things in changing the mission of an 
organization is changing its organizational culture. People 
basically keep doing things the way they have always done them 
because that is the way they have always done them.
    I really do want to hear more about and I want to focus on 
the issue of incentives and what is being done to encourage 
information sharing. Mr. Brennan, you said that you want to 
institutionalize this effort to information share. Ms. 
Baginski, you said you have done it basically through 
rulemaking.
    I have found in my experience that it doesn't work that 
way. You have got to have incentives to get people to buy into 
this. You either have to terminate people that are there--
bviously, you are not going to do that across all lines and 
terms of the various agencies that deal with this--or you have 
to incentivise people to buy into changing the mission.
    Clearly, patriotism is a major incentive. I will concede 
that. But there are also going to have to be additional things 
done to change the mission. So we need to focus on that, and I 
would like to hear more about that.
    The other thing I wanted to ask, my second question, is 
that the Commission's recommendations for a National 
Intelligence Director have received a great deal of attention. 
In particular, I would like to ask about the recommendation 
that there be a Deputy of Homeland Intelligence, one of three 
deputies who would serve under the DNI. Basically, the 
Commission suggests that this role should be filled by either 
the Executive Assistant Director for Intelligence at FBI or the 
DHS Undersecretary of Information Analysis and Infrastructure 
Protection.
    I would like to hear your thoughts on which of these two 
would be the best option and how we can insure cooperation 
between the FBI and IAIP, if only one of the two were directly 
represented in the Office of the National Intelligence Director 
as a deputy.
    A related question, is it even necessary or advisable to 
create these dual roles for certain intelligence officials?
    Ms. Baginski. I will go to your first question and then the 
second one. I think the notion of incentives is very powerful, 
and I hope I didn't misspeak. Rulemaking actually is a very 
strong incentive in the FBI through an inspections process, and 
what people get measured on is what they get evaluated on.
    So when you create those rules that say you must do the 
following and you follow that up by inspecting them and 
ensuring that they are doing it, that actually becomes my 
incentive. So I didn't mean to suggest I was just writing 
manuals and hoping that they would--
    Mr. Langevin. So pay measurements are in some way 
associated with--
    Ms. Baginski. Yes. Yes. And then I think the other big 
incentive for us is to actually change the critical elements on 
which agents are judged to include performance in source 
development and intelligence production, and those are going to 
be very, very strong incentives in our culture.
    So I think you and I are in violate agreement on what needs 
to be done, and we are searching for those things that actually 
work within a very proud and wonderful culture, actually, that 
the FBI has.
    To your second issue of the deputies, I think as you know, 
nothing is off the table in the discussions. There are very 
high-level discussions occurring now. The three of us have been 
involved in them, and there is a lot of discussion about what 
is--what are the details surrounding the implementation of this 
particular model and the President's support for the NID, the 
national intelligence director.
    The more important question is, organization or not, how do 
the two of us ensure that we are actually sharing the 
information so that--in coordinating, so that we are providing 
the information. And I think that General Hughes and I did have 
an agreement--and I know that he will tell me if we do not. I 
have a responsibility to produce raw information on all kinds 
of threats.
    So there are many missions where my path is very, very 
focused on the terrorism mission, and my job is to get him the 
dots and to get John Brennan the dots, frankly, so that they 
can produce the all-source analytic work and path in 
particular. General Hughes can then overlay them on the 
territory of the United States so that he can do the very hard 
analysis he has, which is to do vulnerability assessments and 
to provide countermeasures.
    So a good deal of our interaction is getting those 
relationships right. I have to serve John Brennan, and I have 
to serve Pat Hughes in order for both of them to be successful. 
So our 12,000 collectors of information out there are passing 
that information in such a way that it reaches all who have to 
act on it. Pat acts in a certain domain. John Brennan acts in a 
certain domain, and Cofer Black acts in a certain domain, as 
well as do our State and local and tribal partners. I hope that 
made some sense.
    Mr. Langevin. Thank you.
    Mr. Brennan. Maybe it is a difference in terms of our 
interpretation of the world scene, but I will stick with my 
earlier position that I don't think settlements work. I believe 
enforcement and compliance of standards, rules, regulations and 
the law--and if you look at the memorandum of information 
signing that was signed by Attorney General Ashcroft, Secretary 
Ridge and DCI Tenet in March of 2003, it lays out very clearly 
what the obligations are, the very positive obligations on the 
part of the law enforcement and the intelligence community, and 
those obligations need to be enforced and complied with; and so 
therefore--whether it is not--you know, an evaluation of 
somebody's performance, again, I don't see incentives, because 
I see that as more discretionary. I want to have compliance 
enforcement and make sure that the obligations--the positive 
obligations on individuals are being fulfilled.
    As far as the deputy's issues, I will defer to FBI and DHS 
on this, but I just don't think that the model that is proposed 
by the 9/11 Commission is workable.
    Chairman Cox. The gentleman from Connecticut, Mr. Shays.
    Mr. Shays. Thank you. All of you obviously are intricately 
involved in homeland security. I would like to know what you 
agreed with most with the 9/11, the recommendation that you 
thought was the soundest, the one you supported the most and 
the one you had the greatest reservation about. Why not the 
gentleman from Stamford, Connecticut answer first.
    Mr. Black. I think that is a good choice. I think in 
reading the report, the recommendation that jumps to mind is 
what I recall would have been the advantage of centralization 
in terms of leadership and resources. In this and other 
hearings, oftentimes you hear a lot of emphasis on an 
organizational chart, how essentially units would be integrated 
among themselves.
    I think in the past, we had very good people working very 
hard. I think it was over time from the 1990's underresourced. 
So I personally have put the greatest weight on the 
centralization of having a director of national intelligence. I 
think that is a very good idea.
    I also like the idea of a director of national 
counterterrorism. As a customer now being at the State 
Department, because I think there is great advantage to have 
essentially one-stop shopping. Otherwise, it invariably puts me 
as the customer and the State Department into the business of 
having to evaluate competing analyses. Competition is good. I 
think competition is good among the collectors and those that 
analyze information. It is not necessarily good in terms of the 
customers.
    The recommendation--maybe a little outside of the reserve 
of this--that I am a bit apprehensive about is that the idea of 
having the Department of Defense assume complete responsibility 
for paramilitary affairs. On the one hand, I like this very 
much, the greatest fighting force known to man. These are the 
people to go to, but I also at the same time think the Central 
Intelligence Agency is very adept at the use of clandestinity 
and that type of activity. So what I would encourage would be a 
solidification, a merger, not necessarily one subsuming the 
other.
    Mr. Shays. Thank you.
    Mr. Hughes. In my case, I agree with the recommendations on 
information sharing. I support everything they advocate. I 
think actually I would like to go further perhaps in achieving 
information transparency inside this community so that the 
professional persons who work in this community under a common 
security standard know everything that they ought to know in 
order to accomplish their mission.
    The thing that I like the least--there are two or three 
things I don't agree with, but I think the one that I will 
mention here is the organizational chart for the national 
intelligence director on page 413.
    I don't believe that they got that right in several ways, 
and I believe that the administration and leadership here in 
Congress should carefully review the ideas regarding that 
structure and the missions and functions that a national 
intelligence director would have. That is my view.
    Mr. Shays. Thank you.
    Mr. Brennan. I agree with what my colleagues have talked 
about as far as conceptually I agree with a national 
intelligence director and a national counterterrorism center. 
There is so much engineering that needs to go on in order to 
make both of those very successful, and I think that is what we 
are seeing right now.
    Quite frankly, the recommendation about having more 
streamlined congressional oversight I think is a good one. I 
think that is the way the executive branch needs to reshape 
itself so it does the legislative oversight function.
    The reference here that the President should lead a 
governmentwide effort to bring the major national security 
institutions into the information revolution, it is 
tremendously important that if we are going to achieve a 
national framework of sharing of information, that there needs 
to be this overarching effort on the part of the nation, not 
just the Federal Government, to ensure that we are moving 
together in concert as opposed to separate initiatives that are 
not in fact finding a way to meld together.
    Ms. Baginski. From our perspective, we were pleased with 
the FBI recommendations, I am sure as would surprise you. We 
were. But for us, the key recommendation is the director of the 
national intelligence director to allow the fusion of domestic 
and foreign intelligence. We are very excited about that.
    Like Cofer, my personal reservations are with the 
recommendation to transfer all paramilitary activity to DOD. I 
think there is some complexity there that probably needs study.
    Mr. Shays. Thank you. Thank you, Mr. Chairman.
    Chairman Cox. Mr. Meek.
    Mr. Meek. Thank you, Mr. Chairman. I want to thank our 
panelists that are here today. I just have an observation. I 
know we had the last panel with 9/11 Chairman and Vice Chairman 
Mr. Kean and Mr. Hamilton, and I just couldn't help but think 
about their experience in this area. I mean, you have a past 
governor, past speaker of the New Jersey House, and majority 
and minority leader Mr. Kean and Mr. Hamilton spent 34 years in 
this body, several of those years on the Intelligence Committee 
serving, doing this kind of work.
    You had 78 staff members on this 9/11 Commission that 
worked very hard over a period of 18 months, took a lot of 
testimony from everyday individuals, victims, families, also 
those that were injured in 9/11, professional staff, even in 
some of your own offices. Probably some of you came before the 
Commission.
    And, you know, I couldn't help but take an opportunity to 
look at and go through the 9/11 book and really read some of 
the--I just wanted to just talk about chapter 8, where it says 
the system was blinking red, and then you go on to page 254, 
and it said, the summer of threat. And then you can go to 
chapter 13 and it says, how do you do it? A different way of 
organizing the government. You know, that is the most, I think, 
interesting chapter in the whole book when you start talking 
about how do you reorganize a government. That is just 
something that doesn't happen overnight.
    General Hughes, I know you know that we had an opportunity 
and you were before our subcommittee, and it was maybe about 4 
months you were on the job, and there is a lot of positive--and 
I want to commend you for your honesty, because a lot of the 
members on the Homeland Select Committee was, like, oh my God, 
we are in real trouble here, because this man doesn't have what 
he needs. You know, we talked about your clearance versus your 
No. 2 persons--or person clearance. If you caught a cold, he 
wouldn't have the clearance to be able to hear what you could 
hear, and you are the guy, you are the gate to getting 
information out.
    We have this commission that is saying that we have a 
problem, and I will tell you many Members of Congress, I was a 
Member of Congress when they passed the PATRIOT Act. They 
couldn't tell you what was in the PATRIOT Act. They just voted 
for it, and that is dangerous. And I feel--and I agree with 
you, Director, when you said we need enforcement and we need 
oversight.
    Well, you are testifying in front of a committee that is 
not even a committee. We are a Select Committee. We are 
temporary. We are like a syndication pilot that is out there 
right now, and we are here to hear you, but we don't even know 
if we are going to exist in the 109th Congress.
    So we can, you know, go through and talk about what we 
agree and what we don't agree with, but the bottom line and the 
final analysis, it is people like yourselves that are sitting 
on this panel, the panel before you, the Commission and vice 
chairman and the commissioners don't demand a professional 
committee in this Congress to be able to become professionals 
in what we are talking about here, then we are just spinning 
our wheels.
    And as far as I am concerned, with all due respect to my 
colleagues, to be able to pass something without a standing 
committee to say report to 88 committees so when something 
happens, the Congress can just do this, you know, is really 
inadequate and a disservice to those that have lost their lives 
and all this time that we are spending.
    So I hope as we start to bubble things up to the director's 
office and to other folks that are making major decisions, even 
to the White House as they start talking about who is going to 
have power and who doesn't have power, that there is some 
discussion about sharing some of the decision making and also 
some of the thought as it relates to protecting the homeland 
with the Congress. And some folks are going to have to give up 
power in this Congress, and for folks to start doing the 
Potomac two-step saying we have done something when we really 
haven't in the final analysis, it is really a disservice.
    So I would hope--I am not asking you to make a career 
decision, but I am making a statement here today. But what I am 
saying is that we have to man-up, woman-up and leader-up to be 
able to let folks know that it is imperative that we have this 
kind of oversight, because if we don't have it, you can go 
before 100 committees before you circle back around to this 
one, but we can say can we pick up where we left off. And we 
have this 9/11 report out, and we are not the only ones reading 
it. I guarantee you that it is in the hands of terrorists 
abroad and domestic looking at where they can see through our 
lines of what we feel the defense that they know is not defense 
and take advantage of it.
    So to move fast and quick is important, but to also have 
what we need is also important. I share that. I am on the Armed 
Services Committee that meets in this room. I shared that with 
the panel that came before us. I am sharing it with you, 
because I think it is the most important thing that we can do 
in correcting the oversight and making this Congress aware of 
what is going on and paying a service to those of you that are 
working professionally in this area to have members that 
understand the issues and are able to get you what you need as 
it relates to oversight and authority and all of those things 
what comes along with it.
    So I just want to--Mr. Chairman, I am sorry for going over 
the time, but I just want to share with the panel if they can 
please pass that on to their superiors and colleagues.
    Chairman Cox. The gentleman's time has expired.
    The gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. Mr. Brennan, 
currently the Terrorist Threat Integration Center, TTIC, does 
not collect intelligence. That function remains among the 
various other agencies within the intelligence community. TTIC 
analyzes the information provided by the community. How can a 
TTIC analyst trust raw data when he or she is not provided with 
some analysis on the background of the information, and how 
would the National Counterterrorism Center that is been 
proposed avoid this stovepiping that the report describes is a 
problem?
    Mr. Brennan. Well, first of all, TTIC has access not just 
to the raw data, but the information that sort of underlies 
that in terms of information on sources. We have real-time 
access to the FBI's information system so that when an 
electronic communication comes in from New York into FBI 
headquarters, we see it at the same time the FBI headquarters 
sees it. When an operational cable comes in from the CIA, from 
overseas into CIA headquarters, we see it at the same exact 
time. So we have full insight, full transparency into that, 
which really helps to educate the analysts and inform them 
about the nature of the information that they are seeing so 
they can, in fact, tell us where it came from, how it was 
acquired, and as Ms. Baginski said, the pedigree of the 
information and the sourcing.
    The national counterterrorism--
    Mr. Goodlatte. Let me ask you, with regard to that, do you 
feel that then that TTIC is already serving some of the 
functions of this suggested National Counterterrorism Center, 
then, if you are already--
    Mr. Brennan. By all means. In fact, the Commission says 
that the National Counterterrorism Center shall be built upon 
the foundation of TTIC, because TTIC right now has been charged 
with the responsibility to access the information and provide 
all-source analysis that will integrate the information that is 
collected domestically as well as from abroad; so yes, we are 
far down this road to the National Counterterrorism Center 
analytic responsibilities.
    Mr. Goodlatte. Will the Center add another layer of 
bureaucracy, or will it enhance the process? In other words, in 
other words, we don't want information--the problem we had in 
the past is information would be gathered and it would lie on 
somebody' desk in somebody's computer and not get in the hands 
of people who can act upon it. The more people who can lay 
their hands on the information it could mean more people are 
aware of the problem and get to address it, or it could mean it 
has got to go through one more channel before it actually 
arrives where it is needed.
    Mr. Brennan. Our obligation is to make sure we leverage 
that information to make it available to the different 
departments and agencies, and I talk about the architecture 
that is required in order to allow different departments and 
agencies to search against the largest volume of information so 
they can bring up the information that they need in order to 
fulfill their missions.
    So what we are trying to do right now and the 
administration is to determine exactly what this National 
Counterterrorism Center should, in fact, include and involved. 
The 9/11 Commission talks about basically two distinct 
functions that TTIC does not do right now. One is joint 
operational planning and the second is doing net assessments, 
which is, you take the threat and the capabilities of the 
terrorist organizations and you apply it against the 
vulnerabilities and the infrastructure that is going against. 
We don't do that kind of assessment now.
    Mr. Goodlatte. As I understand it, TTIC is overseen by the 
CIA; is that correct?
    Mr. Brennan. No, it is not. It is a direct report to the 
Director of Central Intelligence. So I don't have anybody in 
the CIA to go through, directly report to the DCI. Now, the DCI 
is dual-hatted as well as the director of CIA as well.
    Mr. Goodlatte. And how will this new--in your view. I don't 
know if it is specified in any of the discussions you have had 
already, but how will the new National Counterterrorism Center 
fit into that framework? Is it going to be overarching above 
all of the different intelligence agencies, or will it also be 
under the direction of the director of the CIA?
    Mr. Brennan. Since it doesn't exist yet, I can talk about 
what the 9/11 Commission recommends, which is that the National 
Counterterrorism Center would be a direct report to the 
national intelligence director, so that it would not, in fact, 
go through any individual department or agency, but those digs 
are yet to be made about that--
    Mr. Goodlatte. Would that alter--in your view, would that 
or should that alter who you report to and where your 
organization lies in that framework?
    Mr. Brennan. I think the reporting chain right now from 
TTIC to the Director of Central Intelligence is the appropriate 
reporting chain of command, and if, in fact, a national 
intelligence director position is established, I believe that 
the director of the National Counterterrorism Center should 
report to the national intelligence director.
    Mr. Goodlatte. So you think it should or should not be 
changed if that entity were created?
    Mr. Brennan. I don't think that the--well, you will have a 
different person at top if the national intelligence director 
position is, in fact, legislated.
    Mr. Goodlatte. And you would report directly to them or 
continue to report to the director of Central Intelligence, in 
your opinion?
    Mr. Brennan. Well, the national intelligence director would 
take the place of the director of Central Intelligence, and so 
in the future, if what they are proposing here, the director of 
CIA would be separate from the national intelligence director, 
so you would have two people there. Right now you just have 
one.
    Mr. Goodlatte. I understand, but which of those do you 
think you should be reporting to?
    Mr. Brennan. The national intelligence director. We should 
not be embedded in one single department or agency since that 
transcends those individual mission responsibilities of 
individual departments and agencies.
    Mr. Goodlatte. Very good. Thank you, Mr. Chairman.
    Chairman Cox. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. Mr. Brennan, you have 
been a very active proponent of an integrated information-
sharing architecture, and you have talked a lot about your 
efforts to get us there.
    You mentioned in your statement that as of the end of this 
month, you will have six separate networks that will be 
integrated in such a way that searches can be done on all six 
separately accessing those networks as you do now at TTIC.
    What networks are those going to be that are now going to 
be integrated?
    Mr. Brennan. Believe it or not, it is different and 
distinct CIA networks. There is the CIA classification--
classified system. There is the unclassified system. There is 
the open-source information system, the FBIS. And I will get 
back to you with precisely which of those networks, in fact, 
will be ready by the end of this month.
    Mr. Turner. When you make the effort to get integration, 
who leads in that? Who provides the necessary leadership, as 
you have said, to basically say this has got to be done, we 
have got to integrate these databases? Who does that?
    Mr. Brennan. Right now there is an information program 
sharing office that TTIC chairs that includes the Department of 
Homeland Security and the FBI. It is to fulfill obligations 
that are contained in the MOU and information sharing in March 
of last year, and so there are a number of individuals who are 
a part of this information-sharing program office and a number 
of groups that have been established to address issues such as 
third-party rule, originated control, tear line standards and 
other types of things. So it runs across the different agencies 
and departments, these there is nobody at the top.
    Mr. Turner. Governor Kean this morning, in his oral 
statement, as well as his written statement, said, ``Only 
presidential leadership can develop the necessary 
governmentwide concepts and standards,'' referring to 
information sharing.
    Do you agree with that?
    Mr. Brennan. I think looking across the different 
departments and agencies and based on the statutory 
authorities, vested in those departments and agencies, it would 
then go to presidential leadership to initiate an effort on the 
part of the executive branch to work with the Congress, to be 
able to transcend those different bureaucratic boundaries.
    Mr. Turner. Do we have any timetable that has been set 
forth by the President for integrating these databases?
    Mr. Brennan. There is a timetable that we are operating 
within in the intelligence community structure to try to bring 
those different elements of the intelligence community 
architecture together, and I believe that the administration 
said that every one of the commission's recommendations are 
being followed up on and acted upon, and I know that there are 
efforts underway to try to address that specific recommendation 
here.
    Mr. Turner. But do we have timetables? Do we have 
benchmarks, goals that we are trying to integrate a certain 
number of databases by a certain date? Do we have an overall 
objective that is expressed as a time frame within--
    Mr. Brennan. Across the U.S. Government?
    Mr. Turner. Yes.
    Mr. Brennan. I don't believe. I would defer to the Office 
of Management and Budget on this issue since it, again, goes 
across them. We have one for TTIC internally.
    Mr. Turner. All right. When I look at the changes that are 
recommended by the 9/11 Commission in the area of the 
counterterrorism center, it seems that TTIC would be absorbed 
into that new organization and that this new responsibility of 
planning, joint planning, as they refer to it, would be an 
additional responsibility.
    Is it your view that this new counterterrorism center is 
the best entity for carrying out that kind of joint operational 
planning?
    Mr. Brennan. There is a lot that is to be defined by the 
term ``joint operational planning'' and what would actually be 
done within the center and what would be done outside in those 
individual agencies, departments that actually carry out those 
operations, and that is what the discussions have been taking 
place over the past two or three weeks have been, to try to 
define that appropriately to make sure that we continue to have 
chains of command between cabinet officers and the President, 
the White House and the Security Council.
    So I am a strong opponent of a National Counterterrorism 
Center, but, again, like other things, the devil is in the 
details here, and you have to make sure that you understand 
what you want to invest in that entity and what you want to 
leave outside.
    Mr. Turner. One of the comments that was made, I believe by 
General Hughes, expressing some concern about the proposed 
structure of the National Counterterrorism Center, am I correct 
to assume, General Hughes, that your concern relates to that 
portion of the proposed counterterrorism center that requires a 
deputy national intelligence director to oversee the operations 
of DHS and specifically the operations of your particular 
directorate?
    General Hughes. Sir, I believe that I don't think they have 
got the organization for the national intelligence director 
right, not the National Counterterrorism Center.
    Mr. Turner. Oh, all right. I am sorry.
    General Hughes. Sure.
    Mr. Turner. You agree with the proposed organizational 
chart on page 413 that you refer to?
    General Hughes. I do not think it is what we ought to do.
    Mr. Turner. Well, so specifically, what on that chart on 
page 413 do you disagree with?
    General Hughes. As a personal view, not representative of 
the DHS consolidated view, my personal view is that there 
should be three principal deputies, one for foreign 
intelligence, one for domestic intelligence and one for 
community management; and beneath those three principal 
deputies--and there could be other principal deputies, too, 
though. I am not sure, but I think the division of labor 
between foreign and domestic is an important issue to keep in 
mind in a bureaucratic sense.
    Beneath those principal deputies, I personally think that 
there are to be an array of organizations and entities. Some of 
them would be the departments and their intelligence 
organizations that currently exist. Some of them would be 
offices and functional areas of the intelligence community that 
currently exists or may need to exist in the future, and of 
course there would be centers like the National 
Counterterrorism Center reporting directly to the national 
intelligence director. So it is kind of a mixture of issues 
here, and I personally do not think the three-deputy mechanism 
that is portrayed on this chart is the right approach. It 
doesn't incorporate all of the issues that the national 
intelligence director is going to be faced with. So I have a 
different hierarchical, organizational view than that portrayed 
by this chart.
    Mr. Turner. All right. Thank you, sir. Is my time up?
    Chairman Cox. The gentleman's time has expired.
    The gentleman from New York, Mr. King.
    Mr. King. Thank you, Mr. Chairman. I want to thank, again, 
all of the members of the panel for their appearance here 
today, and I would like to direct my question to Ms. Baginski.
    On the question of sharing intelligence and sharing 
information, I would like to focus on the issue of sleeper 
cells in this country. For instance, if you could give any 
detail on the extent of cooperation that you are receiving from 
the Muslim community, and when you do get information, how 
quickly would you share raw data, for instance, with the local 
police? I am thinking of the NYPD, for instance, where they 
have a number of mosques, where they received information that 
maybe isn't actionable but may be of some means to the NYPD who 
has its own operations going. How quickly in real-time would 
that type of information be made available to the NYPD, and how 
closely is the level of cooperation at that level?
    Ms. Baginski. I would characterize the level of cooperation 
maybe three months ago and the level of cooperation today, and 
I personally have been involved in a lot of very hard work to 
close some of those seams.
    What we did for the Republican National Convention was 
actually to accomplish an information architecture that made us 
actually write down the protocols for passing this information 
quickly, beginning with what it was the NYPD wanted from us, 
and this is just a first step, but we have, I think, very, very 
good working relationships when we are in a crisis situation 
and when it is identified as such.
    I think we have work to do to make that the way we do 
business every day, and in a ready sense, we pass information 
to them, but also my talks with Dave Cohen have been about them 
passing that information to us and through the JTTF construct. 
I am very encouraged. With the working with a foundation who is 
actually helping us pull this together and engineering what the 
information sharing should be, and I have this responsibility 
myself given to me by the Director to make sure that we smooth 
this out in concert with Pat D'Amuro and Chuck Frahm, who is 
now up there, and I think we are making enormous strides, but 
we still have much work to do.
    Mr. King. Now, David Cohen, the one you deal with from--
    Ms. Baginski. Yes. David is the one I will deal with. We 
are going to do intel to intel so that we have the strength in 
that relationship that we have always had ops to ops.
    Mr. King. How concerned are you with the issue of sleeper 
cells, and I am concerned particularly with the city of New 
York, but nationwide.
    Ms. Baginski. I think we are always concerned about what we 
don't know. What I am encouraged by is that we have begun to 
attack that issue as an analytic problem, which is to say if 
there were, how would you find out, and then finding clues from 
intelligence reports that tell us they will use these kind of 
operatives, they want to come in from this kind of area and 
actually begin a full-court intelligence press to try to locate 
such cells. So I am encouraged with our methodology, and I am 
encouraged--I am concerned just as any citizen is with what we 
don't know.
    Mr. King. Do you believe you are making progress in 
developing sources in the community?
    Ms. Baginski. I do indeed.
    Mr. King. And without going into much detail, is much of 
the information you are getting overseas from overseas relating 
to operations here in the United States?
    Ms. Baginski. I think that is fair to say, sir.
    Mr. King. Thank you very much.
    Chairman Cox. The gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. Based on the 9/11 
report and everything you have learned to date--and I am 
speaking specifically about Iraq--what additional steps can we 
take to ensure that the mistakes of the past won't be repeated? 
And it is based on this issue of faulty intelligence and the 
notion of weapons of mass destruction and a lot of other 
things. What have we done since the invasion of Iraq from an 
intelligence standpoint to get better intelligence from the 
field?
    Ms. Baginski. I can take a stab at it, and this would apply 
to, I think, all threats, not just Iraq.
    There may be a difference between faulty intelligence and 
faulty intelligence analysis or insufficient intelligence 
analysis, but for us it is actually the core approach that we 
are taking to the whole business of intelligence, which is to 
understand at the base what information is necessary to make 
decisions but also accurately report what we know and what we 
don't know in terms of doing the analysis and then dedicating 
resources that specifically have the full-time job of positing 
hypotheses and then interacting with the data to prove or 
disprove certain theories.
    So we have issues of analytic bias. We have issues of 
reporting only that which we have information on but not 
necessarily stepping back and saying, well, these are pieces of 
information that we have, but what are the pieces we don't have 
that would be necessary to actually help us make those 
decisions.
    So mine are less about Iraq than analytic methodology is 
what I am actually responding to.
    Mr. Thompson. Well, I guess in layman's terms, help me out. 
Who would make the call in terms of the intelligence that was 
being reviewed? Are the agencies now talking to each other so 
it would be a joint decision as to what this intelligence 
really means, or are we still separate and apart?
    Ms. Baginski. No, sir. I do not think we are separate and 
apart. I think that under the existing DCI, there have been 
processes and procedures that begin with national intelligence 
requirements and joint community assessments on issues that are 
actually performed, and all of us are, I think, very keen to 
improve the analytic methodology, the analytic discipline and 
the analytic trade craft that goes into providing those 
assessments to include competitive analysis and what others 
might call contrarian analysis.
    Mr. Brennan. The whole concept of TTIC is to bring together 
those different agencies that have a shared responsibility to 
make sure they are sharing information, that they understand 
each other's assumptions, to make sure that there is a full 
transparency into sources and methods and so that there is no 
mistakes made or to minimize the chance of mistakes.
    You want to put a rigor in analytic effort, an think that 
is what we have done in the terrorism environment, and so TTIC, 
which is very innovative within the U.S. Government, is 
basically the embodiment of FBI and Department of Homeland 
Security, State Department, CIA working collaboratively 
together to share that information and provide integrated 
assessments, working with them to identify if there are 
differences of view, you don't want to have just group think. 
You want to make sure that you are able to present different 
hypotheses and different perspectives, so this, in fact, is 
giving birth to trying to do this in other areas as well such 
proliferation, and so there are initiatives underway to try to 
have a proliferation, in fact, integration center.
    So I think the lessons of 9/11, the lessons of Iraq have 
really propelled the government as a whole to try to find ways 
that you can share this information and have the best darn 
analysis and output possible, and that has to be fueled then by 
enhanced complex and TTIC doesn't do collection, but, you know, 
the FBI and CIA and others are, in fact, trying to improve 
their entire collection effort as well. So it is a cycle of 
collection, analysis, dissemination, the entire system.
    Chairman Cox. The gentleman from Oklahoma, Mr. Istook.
    Mr. Istook. Thank you, Mr. Chairman.
    Before I ask another question, I would like to go back to 
what was hanging out there when my time expired earlier. I 
would like to make sure that I understand clearly, against what 
lists or databases currently are people checks when they are 
either, one, seeking to become a citizen, or they are seeking 
an adjustment in immigration status, whether it be permanent 
residency, entry-exit visas? What are those lists against which 
they are currently checked? Is there a difference between the 
lists against which they are checked depending upon whether it 
is naturalization status and so forth? And the last part of 
that is when will any differences be resolved? When are other 
cross-checks supposed to be coming online?
    General Hughes. If you don't mind, I would like to get you 
a written answer to that question. I think it is a very good 
question, and we ought to give you the right information. It is 
a little too complex for me to relay all of the databases or 
lists that are now used and whether or not there are some 
problems with one check being made with one group of knowledge 
bases and another check being made with another group of 
knowledge bases.
    So I would like to reserve an answer to writing, and we 
will provide it to you as soon as we possibly can.
    Mr. Istook. I would appreciate that definitive answer, 
because obviously what I am concerned with, as I expressed 
earlier, is potential blind spots, and we know that this is 
part of the overall data integration that we are seeking to 
resolve.
    Let me go on to the second topic. There was a lot of 
discussion about culture changes when you have the different 
information agencies, the consolidation of the homeland 
security, the potential further consolidations or revisions. 
According to the 9/11 Commission. And we have had discussion 
about culture changes among the Federal agencies, but culture 
changes are not confined to those agencies. You have a huge 
country, and if we want to take advantage of the citizenry, of 
the private sector, of the local and State, the law enforcement 
officials and take their knowledge of and put this to work, 
then we have to understand the culture of the country.
    I think Governor Kean certainly made that point this 
morning, when he said that if we have everybody focused upon 
homeland security and we are able to use their input, then we 
are going to achieve the results that we want. We have more 
people helping.
    But when there is constant change in the lines of 
authority, in the organizational structure, you confuse those 
potential people. A private citizen, if they see some sort of 
suspicious activity, typically will think of calling one of two 
law enforcement agencies, I believe. They will contact their 
local police, or if in their mind they say, well, this is 
something bigger, they are going to think of the FBI. They are 
not going to think of any of the alphabet soup of other 
agencies which we are discussing about the reorganization.
    I am concerned that further reorganization may create 
problems with culture change that requires a culture change of 
the entire Nation if we do not give easy-to-understand lines of 
authority that the private citizens can understand so that they 
can therefore be active helpers in our war against terrorism.
    I would appreciate your comments and feedback on that 
concern.
    Ms. Baginski. Yes, sir. I would actually like to start with 
that. I take your point, and I think it is a very, very 
important point about passage of information to State and 
locals.
    What I would like to highlight here is our agreement with 
you that this is terribly complex, and what we actually think 
is the solution, which is the Joint Terrorism Task Forces that 
we have had for many years, but I think as we have said earlier 
today, we are up to almost a hundred of them, which are 
literally that, joint task forces, State, local, tribal, DHS, 
intelligence community personnel, all in one area so that when 
that information is received that you are talking about, there 
is one place to go, into that task force, information is 
received, and there is the network that can pass it on to all 
of the people who need to know and to the appropriate people to 
act.
    So I think in the operational construct what we have hit 
upon is a JTTF, and I think those things are some of the best 
operational paradigm I have ever seen. Whichever--
    Mr. Istook. A private citizen is not going to think of a 
joint task force.
    Ms. Baginski. But that is the FBI is the point I am saying, 
they would call the FBI, and that is done under their--
    Mr. Istook. They are the clearinghouse.
    Ms. Baginski. Yeah. And so General Hughes and I, our work 
is about ensuring that 99 know what the 100th is doing and 
getting that information passed between them for analysis, and 
that is what we are working on.
    General Hughes. Well, I think, first, I agree with your 
sentiments, and I think it is a concern. It is something we are 
going to have to work on. I am not sure if a single agency or a 
single organizational element can do the complete job. I am not 
positive of that, because there are differences between 
providing information to a law enforcement organization, 
providing information to a homeland security organization, 
providing information to an intelligence organization, 
specifically, and then providing information to other 
organizational entities that respond to the people of the 
United States.
    Those differences have to be accounted for. I, indeed, 
think they are a part of our culture. We haven't got it right 
yet, but I think we have a lot of ideas and possibilities, and 
out of the 9/11 Commission report, this issue is being 
discussed and considered. As I think Chairman Cox asked me a 
question earlier about how the possible changes would affect 
the Department of Homeland Security, and I think there will be 
some changes coming to our Department out of the 9/11 
Commission recommendations, as there probably should. We need 
to adapt and find the right pathway toward the future. Just 
what those are, it is premature to say, but if you could just 
accept the idea of that I personally agree with your concerns. 
I think the Department of Homeland Security has your concerns 
in mind, and we are going to try to achieve the right answer 
for our country and our culture.
    Mr. Istook. Thank you. Thank you, Mr. Chairman.
    Chairman Cox. The gentlelady from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you all for 
being before us today.
    I have three quick questions. The first one is to Mr. 
Brennan. When my colleague, Mr. Meek, was questioning you, you 
said TTIC has been charged to analyze what has been collected. 
Who gave you that charge?
    Mr. Brennan. I am sorry. Could you repeat that question?
    Ms. Sanchez. You said that you had been charged to analyze 
the information that had been collected who gave you your 
charge? Who gave you your charter? Who put you up? How did we 
create you? Where did you get that charge from?
    Mr. Brennan. First of all, the President announced in 
January of 2003 in the State of the Union address that was 
directing the director of Central Intelligence and the director 
of the FBI to form an integration center to deal with the 
terrorist threat. I was appointed in March of 2003. In May 1st 
we stood up. The Director of Central Intelligence issued a 
Director of Central Intelligence directive in May of 2003 that 
laid out under the DCI's authorities what the responsibilities 
would be of the Terrorist Threat Integration Center and what my 
charge and the charge of the TTIC would be.
    Ms. Sanchez. What would you say to some of my colleagues 
here in the Congress who believe that as a joint sort of 
situation, really not under the jurisdiction of any particular 
statute or place in the Congress to have set you up, that, you 
know, they are not very happy, they don't feel that they have 
much oversight, much control or much ability to bring you 
forward and sort of figure out what you all are doing? What 
would you say to that comment?
    Mr. Brennan. I would say it would be incorrect, because I 
have appeared in many different committees and subcommittees 
over the past year and a half. I think this is the third or 
fourth time I have appeared here. I also hope your colleagues 
would say that it is very good that the executive branch has 
found a way to bring together those different systems and 
agencies with shared statutory authorities and work together 
collaboratively in an integrated environment. I hope that is 
what they would say.
    Ms. Sanchez. And then I have two other questions that I 
would ask of any of you or all of you. The first is what do you 
say to--you know, we are not the only ones who hopefully are 
reading this report, but there are a lot of Americans out 
there, and one of the things I am struck by when people ask me 
this, you know, we want to create this big position of a guy or 
gal overlooking intelligence. They are going to be in charge of 
these 15 agencies or departments or pieces or there might even 
be more, as some of us know. What would you say to the question 
about don't you think a lot of these agencies are duplicating 
effort or have the same information or why didn't the 
Commission address getting rid of some of these or really 
rearranging things? What would you say, you know, to those 
people who say we just don't need to put somebody at the top 
and then put everybody underneath? Why don't we really make a 
reorganization?
    That would be that question, and then the next question 
would be what role did each of your agencies play in the 
analysis of the information that Al-Qa'ida was trying to target 
the financial buildings in DC, New Jersey and New York City? 
And do you agree that Secretary Ridge should have issued that 
warning?
    Mr. Brennan. On reorganization issues, I think it is a very 
worthwhile question to take look at all of those different 
intelligence agencies and what the responses are, and the ones 
that have been in fact set up by individual statutes. So I 
think that is an appropriate question for a review to take a 
look at ultimately.
    Regarding the role of TTIC in this analysis, we, in fact, 
were working very closely with the Department of Homeland 
Security, FBI and others, as that information was coming in, 
and we had to integrate the information and put it in a context 
for the Department of Homeland Security. And we worked very 
closely with Secretary Ridge as he moved forward with his 
announcements and decisions.
    General Hughes. And I will chime in now and say I agree 
with the idea that these are very good questions to ask, and we 
should consider them in the future. With regard to the 
duplication of effort, the plethora of organizational entities 
and functions, we ought to try to more carefully consolidate 
and focus our efforts in some way.
    With regard to the role that DHS played, we were the 
recipient of information from others. We examined that 
information in the cold light of day. We determined that we had 
a duty, and in fact, a promise to the American people to warn 
them about information that rose to the level of detail and 
importance that would generate an action on our part. The 
Secretary made a final decision in consultation with the other 
secretaries of the government and the leaders of the executive 
branch and went forth with the more precise raising of the 
alert level, focused on specific facilities that you know 
occurred. Not a generalized alert, not a broad warning but a 
very specific kind of function based upon the information.
    I, as his intelligence officer, advised him on that, 
supported him on that. I believe that it was the right 
decision, and we did the right thing in this case with regard 
to our duties to the American people.
    Ms. Baginski. We received and reviewed a lot of the raw 
intelligence, shared it immediately with both of these 
gentleman and with Cofer as well and are fully supportive of 
the action that the Secretary of Homeland Security took in 
issuing the warning.
    In terms of a duplication of effort, I think you are 
absolutely right to raise this issue, that it is a very fair 
thing to do, and I think as the President has made very clear, 
nothing is off the table as we look at intelligence reform.
    Mr. Black. Lastly, I would just add having a strong 
national director of intelligence would allow this man or woman 
to rationalize the intelligence system so there would be some 
economies. One would hope along those lines. I think the 
warning was appropriate. The Department of State was a 
recipient of this information, and our function was to 
communicate it overseas to our embassies and see if there is 
anything that is applicable to U.S. interests overseas.
    Chairman Cox. The gentleman from Indiana, Mr. Souder.
    Mr. Souder. Thanks. I first want to say to Mr. Brennan, I 
agree with you. I am glad the President didn't sit around 
waiting for Congress to act. He needed to act far faster than 
we are going to get legislation done, and I appreciate that he 
attempted at least to bring as much fusion as possible.
    I also want to thank all the men and women in your 
agencies, because, in fact, we have intercepted at least many 
potential incidents, and that is because of our increased 
efforts. It is not perfect. We clearly are moving far ahead, 
but we should thank the patriots on the line who have risked 
their lives and who have, in fact, averted continual incidents.
    But one thing that really troubles me about today's 
hearing. I raised it in the first panel. We go there this big 
report and we talk about new information systems. I spent 3 
years doing hearings on our borders and sitting in the booths 
with our people, but, you know, if they don't have an accurate 
ID, we put them into a system, and we don't know whether it is 
the same person.
    So it isn't going to pop up if they are a terrorist that 
they have a fake ID. I have been at the State Department desks 
and other places. If the ID changes, they get false ones, they 
use different names, hey, our whole system, the idea of 
intelligence is that you are pooling, having a whole bunch of 
meetings about people who may have 16 different names in common 
with a hundred or thousands of other people in the United 
States. We have already had cases of identity theft where 
people have stolen people's IDs, and then one of the most 
common questions I get from Republicans, Democrats, all kinds 
of people in my district, is how do I get off a watchlist?
    Well, if we had a biometric indicator, whether it is an eye 
or a fingerprint or a watermark so that you can't be 
duplicated, then we wouldn't have this problem. How in the 
world do we justify to the taxpayers not doing this type of 
thing and investing millions of dollars in new border 
equipment, millions of dollars at the airport? Every airport 
screener I talked to says it is so hard to match any kind of ID 
with the ticket. People's pictures don't look the same. You are 
guessing. These people have multiple names. How can we even be 
discussing all of this investment, billions of dollars, if 
everybody is afraid to go on record and say, look, this whole 
system isn't going to work unless we know the person we are 
dealing with is the person we are looking for? Any comments on 
this?
    General Hughes. Well, first, I think your characterization 
of this is right. It is a very difficult job, and we are not 
doing it perfectly in all cases. That is for sure.
    I will have to tell you, sir, that there are others who 
have a differing view. They view a biometric identification as 
a controlled by the government as a potential for misuse.
    There are other issues involved here, collecting the 
biometric, placing it in an identification medium that could be 
relied upon, suffering the cost of doing this across the 
country. That sort of thing is all the problems that we are 
trying to come to grips with. On the face of it, emotionally, I 
agree that we ought to have a reliable form of identification 
for persons who come into the United States and those who 
reside here, but for the reasons that I mentioned and many 
others, it is proving harder than mere sentiment.
    Mr. Souder. Let me follow up on that. Let me ask for the 
record--and you can just say yes or no--do you all agree, 
because certainly in material that has been released, that 
American citizens are included among the terrorist risks. It 
isn't just people who are foreigners. Let the record show do 
you agree with that, Mr.Black, that there are American citizens 
who are on terrorist watchlists as well?
    Mr. Black. I think it would be prudent to assume that, yes, 
sir.
    Mr. Souder. And do you agree that we have had some reports 
now of people being contracted as mules like in narcotics where 
people could bring money in for terrorists, people could bring 
other things in who are American citizens, who get contracted 
like they do in narcotics. They might not even realize they are 
part of a bigger plot but can do that.
    In other words, this just isn't about foreigners, and 
furthermore, it isn't just about American citizens who go 
across the borders. It is about--and even for those foreigners, 
they can get false U.S. IDs. I have been against the national 
ID card. I am one of the conservatives who had a fear about 
this, but I don't hear anything that you are telling me today 
that gives me any comfort if you don't know who the individual 
is, and that the civil rights question, it can be done with a 
watermark.
    There are other ways to do it other than something 
completely invasive, and besides that, if you are following the 
law and you have an eyeball scanner or a fingerprint, what is 
invasive about it if you are following the law? You have a 
social security number already, or you are supposed to in the 
United States. We have driver's licenses. What is the 
difference between a number with a picture--and a picture on 
your driver's license and a picture that actually is proven to 
be yourself as opposed to a phony picture?
    I don't understand why a picture on a driver's license--I 
have a lot of Amish in my district. They are objecting to the 
pictures religiously, because they don't believe in a 
photograph, a graven image. OK, that is a problem on a 
spiritual way, so then they should have a fingerprint, but we 
actually require a picture of people, a number of people. I 
don't understand what exactly the civil liberty question here 
is and what is evasive--invasive about a fingerprint or an eye 
print as opposed to a picture and a number. That is the part I 
don't understand, and it is important, I believe, for the 
people who are doing this to let the American people know that 
we are dependent on the stupidity of the terrorists to use 
their real name. That is basically what we are right now. That 
is what we are dependent on, to use the same ID with the real 
name.
    We just took down two fake IDs places in one of my mid-
sized counties that were producing fake IDs. We are completely 
vulnerable unless we address this question.
    General Hughes. Would you mind if I just gave a very brief 
reply to the last issue?
    Chairman Cox. Please do.
    General Hughes. We do use fingerprints very successfully, 
sir, to identify persons. We do it at the borders, and we do it 
internal to the country.
    Mr. Souder. Thank you.
    Chairman Cox. The gentleman from Massachusetts, Mr. Frank.
    Mr. Frank. Ms.Baginski, I apologize. I took about 20 
minutes off to do business, and I missed your colloquy with Ms. 
Jackson-Lee, and I apologize for that and I want to go back to 
it.
    I will tell you why I am disturbed. I was at the Democratic 
Convention, and the way the protesters were treated there was 
simply wrong. We had a case, for example, in South Carolina of 
a man who is now being prosecuted federally because he was 
carrying the wrong sign in a free speech zone, not that he was 
carrying a sign but it was the wrong sign. And I understand the 
need for security.
    I also think too much attention is being given to our 
desire not to have our feelings hurt and that it isn't always 
easy for you to sort out, but I am troubled by this, and I am 
troubled again by the preemption doctrine. I don't want people 
to commit violent acts, but I don't think law enforcement 
should be spending a great deal of time--preventing violent 
acts, yes.
    If you have got intelligence, fine, but questioning people, 
questioning people about what they know, asking them what their 
plans are and then getting into their politics, which I am told 
sometimes happens, seems to me entirely inappropriate. And the 
opinion or quote in The New York Times dismissing the chilling 
effect as being outweighed as the potential for cutting out 
grounds, yeah, you have a right to cut out grounds, but I think 
the chilling effect ought to be a fairly high barrier.
    I am told you said there were legitimate needs. I would 
like to ask this and get it back in writing. How many inquiries 
did the FBI make with regard to the two conventions? How many 
different individuals were questioned? And I would like--and I 
appreciate what you said about getting out information and 
sources. So forget the sources and methods. What kind of crimes 
were you trying to forestall? You mentioned a couple, but what 
were the leads, and so I would like to know how many people 
were questioned, how many leads were there, and of what sort of 
crimes? Because I really am troubled.
    Now, you tell me that nobody was questioned unless there 
was a reason to think that he or she--let me ask this, that 
they were going to engage or violence or they knew someone who 
would? Which is it?
    Ms. Baginski. I think it is both, but I would be loath to 
comment. I think your solution is the right one. This is a very 
reasonable request.
    Mr. Frank. I will tell you in the interim one of the things 
I did when I went off was to write to the Director to tell him 
that I was troubled by the New York Times article; if it was 
accurate, it seemed to be an overreach. So I would really like 
to know how many people were questioned? And it is hard--I know 
the people in charge don't--we don't like to be yelled at, some 
of us. Some of us don't mind. I find if you don't like being 
yell at, then you lose your right to yell. I would rather 
preserve both.
    But the other point we have is this: I know it has sort of 
been ramped up since September 11, but they are unrelated. 
September 11, the terrible tragedy of September 11, the 
murdered innocent people, it is no reason to interfere with 
what people say, and I am troubled by what seems to me to be a 
crossing of that line.
    Ms. Baginski. We appreciate your concern. We do not 
consider that article to be accurate, but we will provide the 
information.
    [The information follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frank. Let me ask you while I have a couple of minutes 
left, you heard Mr. Kean and Mr. Hamilton talk about this 
proposal for a board that would look into privacy and civil 
liberties. Do you all endorse that? Are you familiar with that 
recommendation? It would be particularly relevant to General 
Hughes and Ms. Baginski, but to everybody, do you endorse that, 
and what kind of powers would that board have? Would you agree 
that such a board ought to be able to commandeer any 
information from you it would want, the government officials?
    I would hope that if we had such a board, they would have a 
pretty firm right to go to any of your agencies and get the 
information with appropriate secrecy that they had. Would you 
be supportive of such a concept? We will start with Ms. 
Baginski.
    Ms. Baginski. I am sorry. Yes. I think that that kind of 
concentrated look and responsibility at the whole civil 
liberties issue as we--
    Mr. Frank. I am talking specifically about their right to 
go to you and say we--you know, really full investigative 
powers, almost like an inspector general across the board with 
a civil liberties mandate.
    Ms. Baginski. There are many bodies that have that 
responsibility now.
    Mr. Frank. I am asking about this one.
    Ms. Baginski. I wouldn't hesitate to give that kind of 
information to any of the investigative bodies. If such a body 
were created, we would certainly do the same.
    Mr. Frank. General, you would be relevant as well.
    General Hughes. I think the answer is, as I tried to 
express earlier, if such a board is needed--
    Mr. Frank. Is such a board needed, General? Let me ask you 
a question. You have had a lot of opinions. I have been 
impressed by a lot of them. It is a little late for ``if.'' Do 
you think such a board is needed?
    General Hughes. Yes, I believe it is.
    Mr. Frank. Thank you. And you think it should have then the 
full powers?
    General Hughes. I think it should have full powers, but it 
should follow the same rules as the government officials whom 
they are asking information from with regard to the 
safeguarding of the--
    Mr. Frank. Absolutely. Thank you.
    Chairman Cox. The gentlewoman from California Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman.
    Chairman Cox. I am sorry, Ms. Harman. I did not see that 
Mr. Shadegg was here. So we are going back and forth. The 
gentleman from Arizona Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman.
    I appreciate all of your being here, and I appreciate your 
testimony. I think you have given thoughtful input to us on 
which of the recommendations are most valuable and which you 
have concerns about.
    I have some concerns about some of them. I particularly 
have concerns about the issue of whether or not a clandestine 
military effort should be, in fact, handed over to the 
Department of Defense. I am not certain that it isn't important 
to preserve that capability within the CIA.
    But the issue I want to focus you on is one that orients 
itself towards human nature. The 9/11 Commission has 
recommended that the current spoke-and-wheel structure of our 
intelligence network where each agency cannot look at the 
other's database needs to be replaced with one where each 
agency can look at the other's database. While I see an 
advantage to that in terms of making sure that the information 
is out there for everyone to see, I am worried that human 
nature will cause that to cause perhaps a diminution in the 
value of the information that is put into the database.
    It seems to me that human nature might cause an agency to 
put on the database--I don't want to be harsh about this, but 
there might be a tendency to put on there only things that were 
not particularly valuable, only things that they knew everybody 
else already knew, or only things that they were willing to let 
others know, and if it was this key bit of information that 
they wanted to take advantage of, it might not be put on the 
database. Short of--when I asked the Commissioners, the two 
vice chairs, cochairs, who were here earlier this question, 
their response was, well, that is why we have a singular czar 
overhead--I guess ``czar'' is a word not to be used--a singular 
person in charge over top to lay down edicts to force that data 
to be placed into the information network so that it can be 
accessed by everybody.
    I am interested in, since you deal with this kind of data 
all the time and these kinds of incentives, your thoughts on 
how we approach that problem, or perhaps it is not a legitimate 
concern. We can start with whoever has strong feelings on it.
    Mr. Brennan. The term ``database'' is used in different 
ways by different people. You can be talking about one set of 
data that is all together, that is just melded together, and 
everybody has access to that big soup, or you can talk about a 
database in terms of the distributed architecture where you 
have connectivity between the different data holdings that 
reside in different networks. And I think what the Commission 
is looking for is to have some type of overall architecture 
where there are connections between those different data 
holdings and data networks so you can pulse them to bring up 
the information.
    That doesn't mean that everybody has access to everything, 
because I think that would be just a disaster. You want to make 
sure you maintain compartmentation for those things that need 
to be compartmented, but you want to make sure you make 
available to those individuals who need the information 
everything that should be made available to them. So I think it 
is more of an architecture as opposed to a single database.
    General Hughes. I will just add that some elements of the 
information should not be visible to everybody, but the essence 
of the information between databases I believe should be 
available generally. We should figure out a technical way to 
compartment sensitive sources, methods, and other identifying 
data that would give too much information to the broad user; 
but the essence of the data can be somehow provided to the 
larger audience. And I think that is a direction we ought to go 
in.
    Mr. Shadegg. Ms. Baginski, did you have--
    Ms. Baginski. Very similar to my colleagues, I think the 
truth of the matter is that when we each built our individual 
databases, there was never any thought about their utility 
outside of us. So what has happened is we have mixed things 
that are legal and things that are source and method, and so 
sometimes it looks to you like we are always saying no, but 
really you either have an all yes or all no answer. I mean, we 
haven't set these up to be flexible.
    So my view is the solution is what you want to be able to 
do is essentially what you do in your living room, right, or 
wherever you might do your own Internet work, which is to do 
federated queries across disparate databases that are 
structured similarly so that they provide you results and 
answer questions that you may have. And what that is going to 
require is for each of us to agree to different standards, data 
standards, flagging, tagging, and the separation of the source 
and method so that we can provide that access, and I think--
that is where I think we are moving.
    Mr. Shadegg. If you move in that direction, will there then 
not be a problem with agencies withholding data from that 
database which is accessible to other agencies?
    Ms. Baginski. There will be less of a problem. I guess we 
learn to never say never, right? But there will be less of a 
problem if the sourcing material is not automatically linked to 
the data. I think there will be less of a problem.
    Mr. Shadegg. So one agency would be able to get the data, 
but not necessarily the source of that information?
    Ms. Baginski. Exactly. I mean one example is to look at 
what State and local law enforcement have done for years with 
things like NCIC. There is a price of admission. It is called 
flagging and tagging data in certain ways, and you are able to 
ask questions of it and get answers back. And I think there is 
actually a lot the Intelligence Community could learn from the 
law enforcement community on this one.
    Chairman Cox. The gentlelady from California Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman. I was happy to defer 
my time to a USC parent.
    Chairman Cox. That makes at least three of us up here on 
the panel.
    Ms. Harman. I would like to welcome our panel and make a 
couple of comments about several of them, whom I have known for 
some years. Ambassador Black's last incarnation was as head of 
the CTC at the CIA. He was there after 9/11 and before 9/11. 
His response to 9/11 is, I think, an example of the response of 
the hard-working men and women of the Intelligence Community, 
and his response was basically to camp out in his office for 
some weeks or months to make absolutely certain that he let 
nothing slip. And many of us worried about his health. He knows 
this. And all of us are very grateful for his dedication. And 
on behalf of those in Congress who knew you then and have 
watched you since, thank you very much personally for your 
service, and thank you to all of the men and women of the CTC 
for everything they have done and are doing.
    Mr. Black. Thank you very much. You are awfully gracious. I 
appreciate it.
    Ms. Harman. There are others on this panel, too, Mr. 
Chairman, who have done a great deal. Mr. Brennan runs a very 
interesting operation. I have been there. I don't know whether 
one can describe where it was or is, so I won't. But I have 
been to someplace called TTIC, and one of the interesting 
metaphors is that under the desks of the people that work there 
are all these hard drives lined up next to each other. Those 
are the stovepipes. I mean, you can visually see the fact that 
we don't have an integrated database. We have had a lot of 
conversation about this, and I guess we are getting there, but 
it has been a very hard slog. I think everything would agree.
    And to Ms. Baginski, who worked at the NSA before this, 
that agency and her present agency, the FBI, have made enormous 
progress. I like to say that the FBI has transitioned from the 
abacus and the smoke signal in the 14th century to the late 
20th century. You have only got about 5 years to go and you 
will be up to date, but it has been a huge transition. So many 
of us appreciate what you do.
    Having said that, Mr. Chairman, we are the Homeland 
Security Committee. It may be that we don't have all the 
jurisdiction we need, but we are the Homeland Security 
Committee. So my one question to all these witnesses is what in 
your personal view is the likelihood that we will be attacked 
again? What is the time frame? And if you could just tell us on 
the public record to the extent you can what is the basis for 
your view?
    Mr. Brennan. There will be inevitable attempts, I believe, 
including this year that try to carry out an attack by Al-
Qa'ida. Since we are talking about anytime, anyplace, anywhere 
by Al-Qa'ida, I think Al-Qa'ida will succeed in penetrating 
certain security defenses whether it be overseas, potentially 
here in North America and the United States. I think that the 
Bureau, the Agency, Department of Homeland Security, have done 
a tremendous job as far as making this a very inhospitable 
environment.
    Ms. Harman. I appreciate, that Mr. Brennan, but I asked you 
what the likelihood is that we will be attacked, and I mean in 
the homeland, again; not what you have done to protect it--
    Mr. Brennan. Ever by any transnational group, I think it is 
probably inevitable that at some point in the future there will 
be a transnational terrorist attack here in the United States.
    Ms. Harman. Others?
    Mr. Black. I think the use of the word ``inevitable'' is 
good. I think from a standpoint of counterterrorism, we must 
consider it to be probable unless we work against in that 
process--we reduce the threat as much as possible to defeat 
them and, should they become successful, minimize the damage as 
much as possible.
    General Hughes. I don't think it is inevitable at all. I 
personally believe that we can succeed against the terrorists, 
and we are so far doing that.
    Ms. Harman. Ms. Baginski.
    Ms. Baginski. I think Cofer said it the best. I think it is 
probable, and we are doing the best we can to make it 
inhospitable, but I do think it is likely.
    Ms. Harman. I agree. I think it is likely, and I think the 
time frame is short, and I think the need to act is urgent, and 
I certainly hope that this committee gets real jurisdiction and 
that this Congress gets it and we move ahead on very careful 
recommendations to provide us the kind of interoperable 
communications and information sharing that are absolutely 
critical to making us aware of a threat in advance and 
hopefully preventing the next attack.
    Thank you all. Thank you, Mr. Chairman.
    Chairman Cox. The gentleman from Maryland Mr. Cardin.
    Mr. Cardin. Thank you, Mr. Chairman.
    Let me ask also thank our witnesses not only for their 
testimony today--this has been a long hearing--but for your 
service to our country. And what Ms. Harman said I would just 
like to underscore, particularly to the men and women who work 
in your agencies day in and day out at a great personal 
sacrifice under very difficult circumstances. If you would 
express our appreciation to the type of work they are doing for 
our country, I think every member of the committee would 
appreciate that.
    Many of the areas that I was interested in inquiring have 
been asked, so I want to spend my time on one area that has 
been continuously brought to my attention by local law 
enforcement. I hear over and over again that, yes, things are 
much better than they were before September 11; however, it is 
still not where it should be. And part of it, they believe, is 
the culture of a resistance to consider local law enforcement 
full partners in the war against terrorism, and that there is 
not a view that there is really a willingness to totally share 
information, although they know under the current scrutinies 
that they will get access to some information.
    So I really want you to go through for me where we are in 
this. If I am a detective in a Palmer City Police Department, 
and I am working on an investigation perhaps unrelated to 
terrorism, but I have reason to believe that there may be some 
connection to terrorist organizations, what do I have to go 
through in order to complete my investigation to make sure that 
there is not a terrorist contact here? Can I get the type of 
access to all the information I need, or do I have to send this 
to a third party, go through my Joint Terrorism Task Force? 
What have I got to do in order to be able to fully access in a 
realistic time frame to complete my investigation?
    Ms. Baginski. I think you have raised a very, very 
important point, so let me be the first to say I think we have 
a lot of work to do. I think there are three dimensions, but 
the most inhibiting is the technology dimension, and that is 
the actual connection of our various systems, the State and 
local systems, the systems at the JTTFs. They are, in fact, 
different, and we do have plans to actually work on that.
    I think there is a cultural issue. My personal belief is 
that initiatives like the global--the criminal intelligence 
information-sharing plan that I am sure you have heard of is 
the notion that in terms of State and local, we have to allow 
State and local to lead and to dictate State and local needs as 
opposed to sort of coming in there like Big Brother and saying, 
we will tell you when you need to know something. So there is 
an interaction that needs to occur that has our State and local 
and tribal partners sitting at the table as a full partner 
expressing their needs from the Federal family. That is 
actually--I am watching that develop in certain areas, and I am 
actually fairly encouraged by that. And the day-to-day 
operational level, what would have to happen for us to resolve 
the issue I think you laid out is if there were some suspicion, 
it would be into the JTTF, and the answer to the question would 
come from the JTTF, and I think what you are suggesting is that 
might not be the most efficient way to get the information.
    Mr. Cardin. Exactly. I understand that. And our Joint 
Terrorism Task Force is working, I think, very effectively, and 
I am very pleased by the way it is working. But to expect that 
a first responder needs to go through another layer of 
bureaucracy when they already are pressed for time and time 
might be of the essence, and then they have to fight with the 
priorities within the Joint Terrorism Task Force, I am not sure 
that is the most efficient or the best way for that information 
to be handled. Again, I think there is a view among the first 
responders that there is not really a trust in letting them 
have access to the type of information they need.
    Ms. Baginski. I can honestly tell you it is not a trust. It 
is not malice. It is incompetence perhaps sometimes or 
ineffective execution, and it definitely is not helped by a 
very difficult information technology issue.
    Mr. Cardin. On the technology point, let me point out that 
under our current system, of course, almost all of the funding 
has to go through the State. Now, our State, again, is working 
very carefully with local governments, but there are many local 
governments, and we don't always get the same degree of 
attention to the technology compatibilities for local law 
enforcement dealing directly with Federal agencies because it 
needs to go through the State as far as approval process is 
concerned. One of the issues came out again with the 9/11 
Commission's recommendations on the funding issues, I think, 
also may play into making it a more cost-effective way for 
local law enforcement to access this information.
    Ms. Baginski. From our perspective, getting the Federal 
family sort of information act in order is job one so that we 
can interoperate with the State and local and tribal families 
systems, which they actually must have a voice in and lead in. 
We cannot be dictating hardware and software and business 
process to them. It is not effective.
    Mr. Cardin. Thank you very.
    Thank you, Mr. Chairman.
    Chairman Cox. I thank the gentleman.
    We have two Members who have not yet had the opportunity to 
question the panel, and with the indulgence of the panel, I 
know we are keeping you here an awfully long time, but if you 
will bear with us, I will give every Member here the 
opportunity to put questions.
    The Chair recognizes the gentlelady from New York, Mrs. 
Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman, and I want to add my 
appreciation to the panel for spending so much time with us 
here today.
    Mr. Brennan, I wanted to follow up on a couple of things 
that were said. Lee Hamilton was here earlier, as you know, and 
he said TTIC is the right concept, but needs to be 
strengthened. And then in your presentation you said the model 
of the 9/11 Commission is not workable. You also referenced the 
memo of 2003 where you said there was an encouragement of 
cooperation and sharing of information, and in further remarks 
you said that that is improving. Then there was some discussion 
about upgrading computer technology and how it is so very 
essential.
    What I am trying to understand is can TTIC and all the 
other agencies which you coordinate do the job that is 
recommended by the 9/11 Commission? What will be different by 
the institution of the NCTC if all the agencies are already 
willing to share and there isn't some embedded, shall we say, 
determination not to share? Why couldn't it be done right now 
with TTIC?
    Along with that, I am concerned, and I would appreciate it 
if Mr. Brennan or each of you could answer, are there enough 
good intelligence people around? How do we encourage more 
people to enter the field? Should we be doing more training? I 
believe it is estimated that the new recommended agency will 
require over 100 new personnel.
    So back perhaps to Mr. Brennan, given the fact that Lee 
Hamilton and the Governor both said that the concept is based 
on TTIC, from your perspective why can't you accomplish the 
goals of the new recommended agency? Is it that there isn't an 
adequate directive from on high? Is it that you haven't been 
given the authority on high? Is it that the President, as the 
Markle Foundation has stated, has to have a direct connection 
to this agency in order to make it succeed?
    So perhaps I am throwing several questions, but after 
listening here all day, I am trying to understand whether it is 
structure or personnel, whether it is practice or it is policy, 
or whether it is inadequate directives? Why can't you do the 
job? I mean that seriously, obviously.
    Mr. Brennan. First of all, when I made reference before to 
the model of the 9/11 Commission not being workable, that was 
the reference to the overall reform of the Intelligence 
Community, the National Intelligence Director, and the diagram 
that is on page 14 of their Commission report. That is what I 
said is not workable, and General Hughes did a good job of 
explaining some of the concerns that we have with that.
    As far as the National Counterterrorism Center itself, the 
concept that is put forward by the 9/11 Commission, again, it 
calls for two things differently--two things that the NCTC 
would do that TTIC does not necessarily do. First is the joint 
operational planning, and second is net assessments, taking the 
threat and basing it against the vulnerabilities of a target.
    Mrs. Lowey. Why don't you do that, and could you do it?
    Mr. Brennan. We can do anything that we are directed to do 
and we get the appropriate resources to do. Right now what the 
arrangement is within the Federal Government is that in the 
Department of Homeland Security there is the Information 
Analysis and Infrastructure Protection Directorate that this 
committee was instrumental in setting up. The infrastructure 
protection element has the responsibility for assessing the 
vulnerabilities of U.S. critical infrastructure--
    Mrs. Lowey. Should it be there, or should it be in TTIC?
    Mr. Brennan. Right now it is there by statute, and what we 
do is we work very closely with the Department of Homeland 
Security so that the information is shared back and forth.
    There is a lot of work that needs to be done on the 
information protection side in terms of identifying those 
targets, assessing what the potential vulnerabilities are and 
what weaknesses that the terrorists could exploit. So what we 
are trying to do, I think, with this National Counterterrorism 
Center is try to identify all the responsibilities that need to 
be carried out and then have the right framework that can 
fulfill them.
    Mrs. Lowey. I don't mean to cut you off, but I see the 
yellow on. I just want to say I am a New Yorker. I lost 
hundreds of constituents on 9/11. It is 3 years later that we 
are still getting organized and the Department of Homeland 
Security is still getting organized. Although I believe we have 
to act expeditiously to implement the recommendations, I wonder 
if some of these recommendations couldn't be implemented by 
personnel or different personnel or additional personnel at the 
current structures. And I think this is a very important 
discussion, and it is unfortunate that my red light is on.
    The Chairman is not paying attention, so you can respond.
    Mr. Brennan. Just a quick comment on that. I think the 
secret is that a lot of the recommendations included in here 
are already being implemented. A lot of work has gone on as far 
as information sharing and making structural change. So there 
is still more work to be done, but a lot of things that are 
entrained already will, in fact, give us a lot of things that 
are called for in here.
    I am not opposing the idea of intelligence transformation. 
I am one of the biggest advocates of it, in fact a maverick 
within my own home organization, but I think there have been a 
number of things that have been done. We represent here on the 
panel TTIC, the Office of Intelligence, and the IAIP, a clear 
manifestation of all the changes that have taken place. So what 
they are calling for here is a continued sort of strategic path 
that we need to be on, but a lot of things that are called for 
here are already done.
    Mrs. Lowey. Mr. Brennan, just in conclusion, with the 
indulgence of the Chair, I read it a little differently, and as 
a New Yorker, when I hear from several people on this panel 
that another attack is imminent, we don't have the luxury, and 
I keep asking why the current structure can't move more 
quickly, and why we keep creating bigger structures, and where 
are we going to get all those people to fill those positions? 
And this is probably another hour conversation. So I just wish 
you good luck, and I hope that you move to implement these 
plans, frankly, before another attack, and I hope that you take 
an aggressive role in reporting to somebody that they had 
better take action on recommendations that don't need structure 
changes, such as having airport workers, all of them who are 
going into a sterile secure area, go through a metal detector.
    There are things that have to be done now, and I, frankly, 
representing my constituents, am quite worried that we are not 
doing the obvious. So at the same time I want to thank you, but 
I hope that will speed up the normal pace of the bureaucracy 
and make us all safer now, and, as Mr. Hughes said, hopefully 
avoid another attack. Thank you very much.
    Chairman Cox. The gentlelady from the District of Columbia.
    Ms. Norton. Thank you, Mr. Chairman, and I apologize to the 
witnesses. Just as it came my time to speak, I was called away 
on a matter that I will take as a kind of case in point. I am 
working with security officials of the Capitol and of the 
District of Columbia concerning the present orange alert and 
its effects around this Capitol and on this city. And I take it 
as a case in point, and my question is really based on what 
amounts to a case study on how much integration is occurring 
and how it is implemented in the field. In a real sense it may 
be the best evidence.
    I have now had two meetings with security officials in the 
Senate, the House, the District of Columbia. One of the first 
agreements we reached, I think, would astound the public. We 
reached agreement that the executive branch, the congressional 
branch, and District of Columbia security officials would 
develop a citywide plan for protecting the Nation's Capital. 
That means there was none, gentlemen. What we had and what we 
have had and what was all too clear following this orange alert 
is that the executive moved to do what it believed was 
appropriate, the congressional officials moved quickly and with 
astounding reaction, and the city believes overreaction, and 
they moved in very different ways.
    And this is why I want to put the question to you, for 
example, Mr. Hughes, is the information analysis and 
infrastructure protection at the Department of Homeland 
Security, they moved in very different ways. This is right here 
in the Nation's Capital where I would think that attention and 
planning and integration of threats and how to respond would be 
at their best. They moved in very different ways. The executive 
along 15th Street where the Treasury Department is, a few 
blocks from the IMF and the World Bank, moved obviously with--
first of all, there was some consultation with the District of 
Columbia. There was almost none on the congressional side--with 
some calculation of risk in deciding what to do. Already trucks 
don't go up 17th Street, so virtually nothing was done on 17th 
Street. 15th Street is where the Treasury Department is. What 
they did on 15th Street was to decide to close the sidewalk on 
the Treasury Department side of 15th Street. It makes good 
sense to us; some inconvenience to walk on the other side of 
the street, but be my guest. They may be doing what they have 
been doing all along, some randomizing of trucks and larger 
vehicles, but they calculated that you had to continue to have 
traffic up 15th Street unless the risk was so great that you 
wanted to take more severe actions. It is the kind of sensible, 
but we think assessment--somebody was doing some analysis. 
Somebody was thinking through all of the factors that had to be 
considered.
    Go to the other side of town, further away from at least 
the targeted threat, but certainly a place where you would 
better take some action. One of the reasons why you would 
better take some action is that terrorists know enough how to 
play chess rather than checkers and how to move around what 
they are going to do. So if there is a threat on one side of 
town, they will ride on this side of town to begin to take 
action.
    But the action was very different from the action taken 
closer to the threat. The Treasury Department is closer to the 
IMF, is closer to the World Bank and is arguably more related 
to those institutions than we are, at least as related. No 
check points on that side of town. The only reason this city 
isn't closed down is because it is August, and nobody is here 
but you all and the few of us who are left. No closing of 
streets.
    This is anathema to any big city, absolutely anathema, and 
the one thing the city will not tolerate is the last-resort 
measure that you would expect on a red alert, a closing down of 
a street leading to the major transportation hub of the 
District of Columbia, Union Station, rail, Metro, light rail, 
the whole kit and caboodle. You can't get there from there; the 
streets to that hub already closed down, the next street down, 
which is the Senate street, closed down. You have got to go all 
the way back up and get down. This is not a matter of 
convenience. We had to even have consultation on making sure 
emergency vehicles, fire, police, EMS, could get through.
    I mean, this is a case study, gentlemen, it seems to me, in 
whether or not there is any integration of terrorist threat 
going on and any analysis of response is occurring from the 
absence of a plan to what appeared to be kind of seat-of-your-
pants reactions.
    I have to ask you what is your role here? Do you have any 
relationship to the people on the ground? Is your threat 
analysis conveyed in such a way that Federal officials on the 
ground have some basis to take reasonable and coordinative 
action related to the threat that has been identified? And I 
would like to know the role of your agency in that regard, 
particularly here in the Nation's Capital where it seems to me 
it would be paramount.
    General Hughes. I will start by saying that the Department 
of Homeland Security gives advice and assistance in these 
matters. We also provide threat information, and in this case 
we did provide threat information directly to the many 
officials involved. There are quite a few.
    As you know, this is a somewhat complex jurisdictional 
issue here in the District of Columbia and the two States that 
encompass it, Maryland and Virginia. We try to inform everyone 
involved, and in this case it may not have been a perfect job, 
but we did the best we could at the time. I have to say that 
the actions, the decisions and actions, are left to local 
authorities. In this case that would be both--
    Ms. Norton. I am quite aware of that. That is not my 
question. I know who did it. I am not accusing you of doing it. 
I am trying to find out whether or not the nature of the 
analysis of the threat as conveyed to the people on the ground 
is such that they are doing anything but acting in an ad hoc 
and uncoordinated manner. And my question really isn't meant to 
be recriminatory to you. I am just trying to make a link here 
to an actual case in point because I think we might learn from 
it.
    And by the way, if I may say so, we are the one 
jurisdiction that does have a coordinator. It is in the 
statute. So if anything, it is easier here than it would be 
elsewhere because there is a paid coordinator who is in the 
Office of the Secretary himself precisely because this is the 
Nation's Capital, and yet this is what has happened here only 
within the last 2 weeks.
    General Hughes. The answer in this case is that the threat 
information regarding the International Monetary Fund and the 
World Bank buildings were communicated directly to appropriate 
authorities here in Washington, DC.
    Ms. Norton. Does anybody else have anything to say about 
the relationship between the analysis and how those on the 
ground who are not experts at analysis and therefore have to 
depend upon the analysts, about that link which is the link I 
am trying to get at?
    Ms. Baginski. Yes, ma'am. General Hughes and my 
organization have, in fact, done a series of joint advisories 
and bulletins for State and local authorities to share as much 
specificity as we can about the nature of this particular 
threat that would allow them to take countermeasures. So in 
this case we have a unique situation in that we have detail. I 
think the frustration in other cases is there is that lack of 
specificity to begin with, there isn't a lot of detail, and so 
the analysis that you can do on an isolated threat is--
    Ms. Norton. But I congratulate you that for the first time 
you really did have, and we are all grateful for the fact that 
you had, the most specific information we have had since 9/11, 
and yet we see this seat of your pants all over the city, do as 
you care to do without much guidance in the analysis of the 
threat from somebody who knew more than they knew. That is my--
that is what I am focusing on.
    Ms. Baginski. We actually think that we did provide this 
analysis, but I think it is worth our going back and taking a 
look at it for you.
    Ms. Norton. I would appreciate it.
    Chairman Cox. The gentlelady's time has expired. Each 
member of the committee having had the opportunity to ask 
questions of this panel, I want to at last excuse you long 
after our intended departure time. I know that several of you 
had to in real time change your schedules today. I know what is 
going down at the White House concurrently, and we very much 
appreciate your being with us here for such a long period of 
time here today.
    At this point I would yield to the Ranking Member.
    Mr. Turner. Thank you, Mr. Chairman. I, too, want to thank 
the witnesses for your patience and indulgence today. We had 
obviously such a broad scope of issues to delve into, I am sure 
we could spend many more hours on these subjects, and I hope we 
will, in fact. And I want to thank each of you for your 
dedication, for your service and your commitment to making 
America safe.
    Ms. Jackson-Lee. Will Mr. Turner yield for a question, 
please?
    Mr. Turner. Yes, I will yield.
    Ms. Jackson-Lee. I heard Mr. Frank's questioning regarding 
the peace activists and others. I would appreciate it if the 
same responses or written answers that you might give to him 
that you would forward to me as well.
    And also I wanted to make sure that the questions dealing 
with the power of the board governing civil liberties, if you 
were going to give written answers, if you will include me as 
well. I know you might be giving them to the committee. I 
wasn't sure, and I wanted to make sure that those questions 
came in. Thank you.
    Ms. Baginski. Yes, ma'am.
    Mr. Turner. It would be helpful if you would just send that 
to all members of the committee.
    Ms. Baginski. We will.
    Chairman Cox. I thank the gentleman.
    Again, I thank each of our witnesses for your valuable 
testimony. The members of the committee may have some 
additional questions, as Ms. Jackson-Lee indicated. We would 
ask you to respond to these in writing. The hearing record will 
be held open for this purpose for 10 days.
    [The information follows:]

                             FOR THE RECORD

                 Questions and Responses for the Record

   Questions from the Honorable John Sweeney for Ms. Maureen Baginski

1. Does the FBI have real time secure digital communication networks 
capable of handling Top Secret SCI level information connected to all 
84 JTTFs?
Response: The FBI is connected to the rest of the United States 
Intelligence Community (USIC) at the Top Secret Sensitive Compartmented 
Information (SCI) level via the new SCI Operational Network (SCION). 
SCION is currently available to over 1,000 users at FBI Headquarters 
(FBIHQ). The FBI has initiated a pilot project whereby SCION will be 
deployed to the FBI's Field Offices in New York, Boston, and Kansas 
City, with plans to deliver SCION to all FBI Field Offices as funding 
becomes available. While in most Field Offices there are two 
Intelligence Information System Network (IISNET) workstations, which 
permit communications to the USIC's Intelink system, these are 
difficult to use and are housed in small SCI Facilities (SCIFs) that 
are not located near the IISNET users. An impediment to field expansion 
of SCION is the current lack of SCIF space for Field Intelligence Group 
and Joint Terrorism Task Force (JTTF) personnel, who are the most 
likely users. Currently, SCION is available to six of the 100 JTTFs.

2. Will the Integrated Data Warehouse be fully functional and available 
to state and local analysts by the end of December as Director Mueller 
promised?
Response: Yes. The Integrated Data Warehouse (IDW) is currently fully 
functional with approximately 6,000 users, including approximately 
2,500 users in state and local law enforcement and numerous federal 
government agencies. Although IDW can only be accessed from the FBI's 
internal network, it is available to users in all Field Intelligence 
Groups (FIGs) and all JTTFs and, through these users, IDW is available 
to the thousands of federal, state, and local officials assigned to 
these entities. IDW contains more than 30 million FBI terrorism-related 
documents and bi11ions of database records relevant to counterterrorism 
and intelligence.

             Questions from the Honorable Edward J. Markey

3. On page 380 of the Commission's report, the Commission recommended 
that ``The United States should engage its friends to develop a common 
coalition approach toward the detention and humane treatment of 
captured terrorists.'' (emphasis added) The Commission further 
recommends that these ``new principles might draw upon Article 3 of the 
Geneva Conventions on the law of armed conflict'' which notes ``was 
specifically designed for those cases in which the usual laws of war 
did not apply'' and is generall accepted throughout the world as 
customary international law.
    As you know, Article 3 deals with conflicts that are not of an 
international character, such as civil wars, and it includes a specific 
prohibition on ``violence to life and person, in particular murder of 
all kinds, mutilation, cruel treatment and torture'' and ``outrages 
upon personal dignity, in particular, humiliating and degrading 
treatment.''

    Can I conclude, based on these passages in its report, that the 
Commission is recommending that captured terrorists should be afforded 
these types of protections--protections against murder, mutilation, 
torture and degrading treatment?
Response: The FBI respectfully defers to the 9/11 Commission regarding 
the recommendations contained in the Commission's report. With regard 
to the FBI's participation in the interrogation of terrorists outside 
the United States, FBI agents deployed outside the United States in 
connection with the war on terrorism have been directed not to 
participate in the use of interrogation techniques that would not be 
permissible if used within the United States.

4. There is another Convention that the Commission did not specifically 
mention in its report--the UN Convention Against Torture. The U.S. is a 
signatory to that Convention. Article 3 of the Torture Convention 
provides that ``no state party shall expel, return, or extradite a 
person to another State where there are substantial grounds for 
believing that he would be in danger of being subjected to torture.''
    Do you also believe that the U.S. should follow this prohibition in 
dealing with captured terrorist suspects?
Response: It is my understanding that it is the policy of the United 
States to comply with the United States' obligations under the 
Convention Against Torture.

5. The Bush Administration unfortunately appears to be pursuing 
policies that are inconsistent with the Commission's recommendation. 
Specifically, instead of ensuring that the prisoners captured are 
treated humanely, the Administration continues to practice a process 
called ``rendition,'' in which it sends suspected terrorists to be 
interrogated in third countries. such as Syria or Saudi Arabia. that 
our government has determined, within the context of the State 
Department's Country Reports on Human Rights Practices. are known to 
practice torture. This practice is very difficult to reconcile with 
President Bush's own declaration, following the exposure of abuse at 
the Abu Ghraib prison, that: ``We do not condone torture. I have never 
ordered torture. I will never order torture. The values of this country 
are such that torture is not a part of our soul and our being.''
    Perhaps there are some who would argue that as long as we ask 
others to do the torturing for us, the U.S. is not, strictly speaking, 
doing the torturing.

    Do you agree that if we are to realize the Commission's goal of 
having the U.S. serve as an example of moral leadership in the world, 
we should renounce the policy of rendition, which amounts to 
``outsourcing torture''?
Response: Your question assumes a number of facts that do not involve 
the FBI. The FBI respectfully defers to entities in the Executive 
Branch in a better position to respond.

6. If we are to ``develop a common coalition approach toward the 
detention and humane treatment of captured terrorists''--as the 
Commission has recommended, do you agree that the U.S. should comply 
with Article 3 of the Torture Convention and train our service men and 
women so they understand what is required to comply with Article 3?
Response: It is my understanding that it is the policy of the United 
States to comply with the United States' obligations under the 
Convention Against Torture.

7. I have recently introduced H.R. 4674, a bill to stop the rendition 
to countries that torture prisoners. My bill has been endorsed by 
Amnesty International, Human Rights Watch, the World Organization for 
Human Rights, USA, and the New York Bar Association.
Do you think it would be consistent with the Commission's 
recommendations regarding torture for the Congress to enact this type 
of bill into law?
Response: The FBI defers to other, more directly concerned parties 
regarding this question.

    Chairman Cox. I would like to thank all the members of this 
committee as well as the witnesses on the first panel, the 
Chairman and Vice Chairman of the 9/11 Commission for an 
extraordinary piece of business today which required Members to 
travel from all over the country to be here, and in some cases 
from other countries.
    There being no further business before the committee today, 
committee stands adjourned.
    [Whereupon, at 4:15 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
